<html>
<title> - MOVING THE LINE OF SCRIMMAGE: REEXAMINING THE DEFENSE-IN-DEPTH STRATEGY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





MOVING THE LINE OF SCRIMMAGE: REEXAMINING THE DEFENSE-IN-DEPTH STRATEGY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2016

                               __________

                           Serial No. 114-85

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-267 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                   Martha McSally, Arizona, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Jeff Duncan, South Carolina          Brian Higgins, New York
Lou Barletta, Pennsylvania           Norma J. Torres, California
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               WITNESSES
                                Panel I

Mr. Mark A. Morgan, Chief, U.S. Border Patrol, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                                Panel II

Mr. Gary P. Brasher, Private Citizen:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Ms. Peggy Davis, Private Citizen:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Dr. Elyse Golob, Executive Director, National Center for Border 
  Security and Immigration, University of Arizona:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52
Mr. Christian Ramirez, Director, Southern Border Communities 
  Coalition:
  Oral Statement.................................................    59
  Joint Prepared Statement of Christian Ramirez, Director, 
    Southern Border Communities Coalition; Jennifer Johnson, 
    Border Policy Advisor, Southern Border Communities Coalition; 
    Karin Johanson, Director, ACLU Washington Legislative Office; 
    Christopher Rickerd, Policy Counsel, ACLU Washington 
    Legislative Office; Vicki B. Gaubeca, Director, ACLU of New 
    Mexico, Regional Center for Border Rights; and Brian 
    Erickson, Border Policy Strategist, ACLU of New Mexico, 
    Regional Center for Border Rights............................    61

                             FOR THE RECORD

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Statement From PHP, Arizona....................................    80

 
MOVING THE LINE OF SCRIMMAGE: REEXAMINING THE DEFENSE-IN-DEPTH STRATEGY

                              ----------                              


                      Tuesday, September 13, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Hurd, McSally, Vela, 
Jackson Lee, and Torres.
    Ms. McSally. The Committee on Homeland Security 
Subcommittee On Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine the U.S. 
Border Patrol's defense-in-depth strategy and its effect on 
local communities.
    I recognize myself now for an opening statement.
    First, I would like to thank Chief Mark Morgan, who is 
testifying now before Congress for the first time as the new 
chief of Border Patrol. Like your predecessors, I am sure you 
will be spending frequent visits to our subcommittee as we 
discuss very important questions related to border security, 
things like what does a secure border look like, what are the 
right tools and strategies to achieve a secure border, and how 
do we measure success or failure?
    Today, I want to focus on the second question, an aspect of 
the current Border Patrol strategy known as defense-in-depth, 
specifically the unintended consequences this strategy imposes 
on border communities and residents that live along the border, 
including many of my constituents.
    In the early 1990's, the Border Patrol and U.S. Customs 
Service were outmatched in all aspects of illegal activity, 
both between and at the ports of entry. Yet despite having a 
smaller Border Patrol at the time, agents apprehended millions 
of people. Border Patrol's response to this activity in El Paso 
and San Diego led to Operations Hold the Line and Gatekeeper, 
that surged resources to the border in those major urban areas.
    In the short term, it stemmed the tide of illicit activity. 
However, it had the unintended effect of pushing the illicit 
activity away from urban areas and into the remote rural areas 
of the border. By design, the shifting cartel activity in the 
more rugged terrain gave the Border Patrol the advantage of 
time to interdict people and target the contraband of 
smuggling.
    Border Patrol leadership routinely has articulated the 
strategy's effectiveness by explaining that in urban areas they 
had mere seconds to minutes to intercept the illegal activity; 
in suburban areas, minutes to hours; and in rural areas, they 
had anywhere from hours to days to interdict the illegal 
activity.
    Ceding territory for time has had profound ramifications, 
however, for populated rural areas along the border, like my 
district in Arizona. On a routine basis, our fellow residents 
are exposed to this illicit activity that crosses the border, 
trespasses on their land, destroys their property, and puts 
their lives at risk. Small businesses and tourism suffer from 
the illegal activity that has pushed deep into the interior of 
the country by a strategy that I believe now needs to be 
reexamined.
    To be clear, I am not asking agents to link arms across the 
border, 2,000 miles of south, shoulder-to-shoulder. What I am 
asking for is we focus our resources and manpower more at the 
line of scrimmage, not 5, 10, 100 miles inland. Our enforcement 
posture should be arranged with the intent of anticipating, 
deterring, and stopping most illicit activity before it enters 
our communities, using the overwhelming majority of agents and 
technology as close to the line as terrain access and agent 
safety will allow.
    I have spent countless hours at the border with ranchers, 
border residents, and the Border Patrol. In many instances, I 
have observed miles-long stretches of the border with little to 
no agent activity actually patrolling the road near the fence. 
I have also witnessed whole sections of fence cut out, allowing 
untold number of vehicles to come across the border before 
being detected.
    Presence on the border matters, serving as both a deterrent 
to illegal activity and as a rapid response to inevitable 
breaches. I am mindful that geography has an effect on where we 
apprehend individuals and interdict narcotics, but we cannot 
cede 10 to 100 miles or more of U.S. territory waiting for 
these nefarious actors to be caught at the time and place of 
our choosing. Instead, we have to take the fight to them at the 
earliest point of the incursion.
    In Tucson, 48 percent of the total number of apprehensions 
took place more than 5 miles from the physical border. Compare 
that with Yuma or Rio Grande Valley in Texas where more than 84 
percent of illicit crossings are apprehended in the first 5 
miles. But let's be clear, for citizens who live along the 
border, 5 miles is like an eternity.
    Interior checkpoints are part of the layered approach to 
border security that have created challenges for the men and 
women that I was sent here to represent. The Border Patrol uses 
a mix of permanent and tactical checkpoints along major routes 
in and out of the border. Consistent with its defense-in-depth 
strategy, checkpoints are designed to push the illicit traffic 
around the checkpoints into areas where the Border Patrol has a 
better chance of interdiction.
    But what checkpoints have really done is to introduce 
inconvenience, hassle, and the threat as a way of life for law-
abiding American citizens who live near these checkpoints. The 
Border Patrol has little to show for their use. Very few 
apprehensions take place at an interior checkpoint. To add 
insult to injury, the checkpoints are closed when it rains to 
prevent a traffic accident. All the cartels have to do is wait 
for the weather to change to bypass this layer of defense.
    In 2014, the University of Arizona's National Center for 
Border Security and Immigration conducted an in-depth study 
concerning the effectiveness of checkpoints and the impact on 
local communities. The report makes a series of recommendations 
to develop measures of effectiveness and to closely track the 
impacts of checkpoints on communities. To date, I don't think 
the Border Patrol has followed or implemented the 
recommendations, but I look forward to talking about that 
today. We do have a University of Arizona representative on the 
second panel.
    Defense-in-depth and the layered approach to border 
security sounds good in theory, but there are real-world 
negative impacts for the American citizens who live at or near 
the border. I look forward to hearing from the chief and the 
witnesses on the second panel to discuss looking at a better 
approach.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
                           September 13, 2016
    First, I would like to thank Chief Mark Morgan, who is testifying 
before Congress for the first time as the new chief of the Border 
Patrol.
    Like your predecessors, I'm sure you will be a frequent visitor 
before this subcommittee as we discuss what arguably are the three most 
important border security questions: What does a secure border look 
like? What are the right tools and strategies to achieve a secure 
border? How do you measure success or failure?
    Today, I want to focus on the second question--an aspect of the 
current Border Patrol strategy known as defense-in-depth. Specifically, 
the unintended consequences this strategy imposes on border communities 
and residents that live along the border, including many of my 
constituents.
    In the early 1990s, the Border Patrol and U.S. Customs Service were 
outmatched in all aspects of illegal activity both between and at the 
ports of entry. Yet despite having a smaller Border Patrol at the time, 
agents apprehended millions of people.
    Border Patrol's response to this activity in El Paso and San Diego 
led to Operations Hold the Line and Gatekeeper that surged resources to 
the border in those major urban areas. In the short term, it stemmed 
the tide of the illicit activity. However, it had the intended effect 
of pushing illicit activity away from urban areas and into the remote 
rural areas of the border.
    By design, shifting cartel activity into more rugged terrain gave 
the Border Patrol the advantage of time to interdict people and target 
contraband smuggling. Border Patrol leadership routinely articulated 
the strategy's effectiveness by explaining that in urban areas, they 
had mere seconds to minutes to interdict illegal activity; whereas in 
suburban areas they had minutes to hours, and in rural areas, they had 
anywhere from hours to possibly days to interdict illegal activity.
    Ceding territory for time has had profound ramifications for 
populated rural areas along the border, like my district in Arizona. On 
a routine basis, our fellow residents are exposed to illicit activity 
that crosses the border, trespasses on their land, destroys their 
property and puts their lives at risk. Small businesses and tourism 
suffer from the illegal activity that is pushed deep into the interior 
of the country by a strategy that I believe needs to be reexamined.
    To be clear, I am not asking agents to link arms across all 2,000 
miles of the border. What I am asking is that we focus our resources 
and manpower at the line of scrimmage, not 5, 10, or 100 miles inland. 
Our enforcement posture should be arranged with the intent of 
anticipating, deterring, and stopping most illicit activity before it 
enters our communities, using the overwhelming majority of agents and 
technology as close to the line as terrain, access, and agent safety 
will allow.
    I have spent countless hours at the border with ranchers, border 
residents, and the Border Patrol. In many instances, I've observed 
miles-long stretches of the border with little to no agents actually 
patrolling the road near the fence.
    I've also witnessed whole sections of fence cut out of the fence, 
allowing an untold number of vehicles to come across the border before 
being detected. Presence on the border matters--serving as both a 
deterrent to illegal activity and as a rapid response to inevitable 
breaches.
    I am mindful that geography has an effect on where we apprehend 
individuals and interdict narcotics, but we cannot cede 10 to 100 miles 
of U.S. territory waiting for these nefarious actors to be caught at 
the time and place of our choosing. Instead we have to take the fight 
to them at the earliest point of incursion.
    In Tucson, 48% of the total number of apprehensions took place more 
than 5 miles from the physical border. Compare that with Yuma, or Rio 
Grande Valley in Texas where more than 84% of illicit crossings are 
apprehended in the first 5 miles. For citizens who live along the 
border 5 miles is an eternity.
    Interior checkpoints are part of the layered approach to border 
security that has created challenges for the men and women I was sent 
here to represent. The Border Patrol uses a mix of permanent and 
tactical checkpoint along major routes in and out of the border. 
Consistent with its defense-in-depth strategy, checkpoints are designed 
to push illicit traffic around the checkpoints into areas where the 
Border Patrol has a better chance of interdiction.
    But what checkpoints have really done is to introduce inconvenience 
and hassle as a way of life for law-abiding American citizens who live 
near these checkpoints. The Border Patrol has little to show for their 
use. Very few apprehensions take place at an interior checkpoint, and 
to add insult to injury the checkpoints are closed when it rains--to 
prevent a traffic accident. All the cartels have to do is wait for the 
weather to change to bypass this layer of defense.
    In 2014, the University of Arizona's National Center for Border 
Security and Immigration conducted an in-depth study concerning the 
effectiveness of checkpoints and their impact on local border 
communities. The report makes a series of recommendations to develop 
measures of effectiveness and to closely track the impacts checkpoints 
have on local communities.
    To date, I do not believe that the Border Patrol has followed or 
implemented any of the recommendations.
    Defense-in-Depth and the layered approach to border security sounds 
good in theory, but there are real-world negative impacts for the 
American citizens who live at and near the border. I look forward to 
hearing from the chief and the witnesses on the second panel to discuss 
a better approach.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for any 
statement he may have.
    Mr. Vela. Thank you, Congresswoman McSally.
    I don't have a whole lot more to add. I want to welcome 
you, Chief Morgan, to this hearing today and congratulate you 
on your appointment. My perspective on your agency and these 
checkpoints comes from having crossed the Sarita and Falfurrias 
checkpoint virtually all of my life.
    When I was a young lawyer, I traveled between Brownsville 
and Corpus Christi almost weekly, and I used to get really 
frustrated having to go through the checkpoint, because to me 
it didn't make sense that I, as an American citizen born in 
Brownsville, would have to be asked whether or not I was a 
citizen 2 hours north. However, my father was a Federal judge 
with jurisdiction over the Sarita checkpoint. When I would 
often voice my frustration, he would remind me of the volume of 
apprehensions that he would witness. So over time, I kind-of 
softened my reaction.
    But your agency is very much a part of life across the 
entire U.S.-Mexico border, and definitely for those of us in 
south Texas. Over the course of the last year, I can tell you, 
I talk to your agents on an official basis sometimes, but more 
often on an unofficial basis, because they live all around us. 
They are part of our social fabric. I can tell you that you 
have some challenges ahead, because over the course of the last 
year, there is hardly an agent that I have run into, many who 
have been part of the agency for many, many years, who have 
expressed a level of dissatisfaction and just feeling a lot of 
low morale with many of the people that work for the agency.
    So I look forward to working with you as we move forward 
with the rest of the committee to see what we can do about 
improving morale, you know, for the agents on the ground and 
doing what we can to make your agency as effective as possible.
    But I yield the balance of my time.
    Ms. McSally. Thank you. The gentleman yields.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statements of Ranking Member Thompson and Honorable 
Jackson Lee follow:]
             Statement of Ranking Member Bennie G. Thompson
                           September 13, 2016
    Having served as both Chairman and Ranking Member of the Committee 
on Homeland Security, I have had the opportunity to visit many 
communities along the Southern Border, hear from community members 
directly, and watch the men and women of the Border Patrol carrying out 
their duties on behalf of our Nation.
    I have seen the triple fence near San Diego, ridden along the 
border with ranchers in Arizona, and observed Border Patrol Agents 
processing unaccompanied children in South Texas.
    I know that each area of the border is different, the challenges 
facing each area are different, and therefore the appropriate way to 
address these challenges is often different as well.
    After visiting southern Arizona at the request of Congresswoman 
Gabrielle Giffords and others and meeting with constituents there, I 
have first-hand knowledge of residents' concerns and a better 
appreciation for the challenges confronting Border Patrol in the 
region.
    Our 2012 Government Accountability Office report helped quantify 
how Border Patrol utilizes its resources in each of its Southern Border 
sectors, including the Tucson Sector.
    So while today's hearing title implies that Border Patrol has moved 
its personnel and resources away from the border entirely, that is 
simply not the case.
    There is tactical infrastructure and technology in use and agents 
patrolling even in remote areas of the border, though not to the extent 
that residents in these areas would like.
    I look forward to hearing from the new chief of the Border Patrol, 
Mark Morgan, about how he is deploying Border Patrol personnel and 
resources to meet these challenges.
    As the first chief in the history of the Border Patrol to come from 
outside its ranks, Chief Morgan is uniquely positioned to guide the 
Patrol going forward.
    Also, given his background as assistant commissioner for internal 
affairs at CBP, I hope to hear today how he plans to ensure the Border 
Patrol adheres to appropriate Use of Force protocols, addresses 
possible misconduct, and ensures the utmost professionalism among all 
Border Patrol Agents.
    On the second panel, we have a group of border stakeholders to lend 
their expertise to the discussion today.
    I am especially interested to hear their opinion about Border 
Patrol's interior checkpoints, including whether they contribute to 
border security and how they affect law-abiding Americans in and around 
border communities.
    I know Border Patrol considers checkpoints an integral part of its 
defense-in-depth strategy. However, I also understand residents in the 
region are concerned about being stopped as they go to work or school, 
visit friends and family, and go about their daily lives.
    I, too, am concerned about the potential for civil liberties 
violations and potential racial profiling at such checkpoints. There 
are many who would prefer to see these resources utilized at the border 
instead and understandably so.
    If Border Patrol is going to operate checkpoints away from the 
border, it must have protocols in place to protect the rights of U.S. 
citizens and maintain metrics that prove their effectiveness.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
    Chairman MeSally and Ranking Member Vela thank you for this 
opportunity to hear testimony on the topic of ``Moving the Line of 
Scrimmage: Re-examining the Defense-in-Depth Strategy.''
    As a senior Member of the Homeland Security Committee, I served as 
Ranking Member of the Border and Maritime Subcommittee during the last 
Congress and believe that the Northern and Southern Borders deserve our 
attention and concern regarding security.
    I welcome today's witnesses:
  <bullet> Peggy Davis, Private Citizen;
  <bullet> Gary Brasher, Private Citizen;
  <bullet> Dr. Elyse Golob, Executive Director, National Center for 
        Border Security and Immigration, The University of Arizona; and
  <bullet> Christian Ramirez, Director, of the Southern Border 
        Communities Coalition (Democratic witness)
    I will never forget September 11, 2001 when 2,977 men, women, and 
children were murdered by 19 hijackers who took commercial aircraft and 
used them as missiles.
    I stood on the East Front steps of the Capitol on September 11, 
2001, along with 150 members of the House of Representatives and sang 
``God Bless America.''
    This annual reminder of the cost of our freedom and way of life 
exacted by 19 terrorists in a single day, we are reminded of the 
importance of the work of the men and women of the Department of 
Homeland Security.
    Today's hearing will allow us to examine the U.S. Border Patrol's 
``defense-in-depth'' strategy and the effectiveness of interior 
checkpoints as a border security tool.
    There are tensions between where resources should be placed to best 
protect the borders of the United States.
    Some would have us construct a wall as a means of controlling the 
Southern Border, while completely ignoring our Nation's Northern 
Border, which is the longest border of two nations in the world.
    There are some who want to deploy thousands of border agents to 
station them at intervals along the Southern Border 24 hours a day to 
monitor the territory that comprises our Nation's borders.
    A more prudent approach would be to do comprehensive immigration 
reform, which would include a border security component.
    As the Ranking Member and Chair of the Committee's Subcommittee on 
Border and Maritime Security the Jackson Lee and Candice Miller bill, 
H.R. 1417, the Border Results Act of 2013, was a bipartisan 
comprehensive border security bill that should have gone before the 
House for a vote as part of a comprehensive immigration reform measure.
    The Border Security Results Act of 2013, which was adopted 
unanimously by all members of the House Homeland Security Committee and 
for which many Democratic Senators have expressed support, offers a 
realistic, practical, measured, and cost-effective approach to 
achieving the border security that all Americans desire.
    The bill would have achieved this objective in the following ways:
  <bullet> First, the legislation directs the Secretary of the 
        Department of Homeland Security to develop, and report to 
        Congress for approval, a National strategy to gain and maintain 
        operational control of the Nation's borders.
  <bullet> Second, it defines the standard that must be met to 
        constitute operation control, which is the apprehension of 90% 
        of illegal border crossers in high-traffic areas within 2 years 
        and the entire Southwest Border in 5 years.
    H.R. 1417 directed the use of advanced technology to achieve 
visibility of the entire border by incorporating existing taxpayer-
owned Department of Defense technology being brought back from Iraq and 
Afghanistan.
    This approach provided a level situational awareness of the border 
that physical surveillance would not have achieved and would have 
empowered the Border Patrol to target problem areas and deploy 
resources where they are most needed, when they are most needed, and to 
do so in a fiscally responsible way.
    The bill ensured that the border security strategy would yield good 
results and not just good intentions, the legislation mandated the 
development of metrics to measure progress at and between the Nation's 
ports of entry, as well as in the maritime environment and requires 
these metrics to be developed in consultation with a panel of Governors 
from border States and a National Lab which will provide an additional 
layer of scrutiny and expertise.
    Finally, in addition to requiring the Secretary of the Department 
of Homeland Security to report to Congress every step of the way, H.R. 
1417 required GAO, the independent investigative arm of Congress, to 
verify the viability of the Department's strategy, implementation plan, 
metrics, and results.
    During the 10 terms I have been in Congress, serving on both the 
House Committees on Judiciary and Homeland Security, dozens of 
immigration reform proposals have been offered but no major changes 
have been enacted since 1996 when Congress passed the Illegal Immigrant 
Reform and Immigrant Responsibility Act of 1996 as part of the Newt 
Gingrich-inspired Contract With America.
    DHS as a consequence of not having comprehensive immigration reform 
has adapted and crafted the defense-in-depth strategy.
    This defense-in-depth strategy generally refers to Border Patrol's 
three-tiered border enforcement strategy, which consists of ``line 
watch'' at the border, roving patrols near the border, and checkpoints 
located away from the border but within Border Patrol's 100-mile zone 
of authority.
    The Department of Homeland Security's U.S. Customs and Border 
Protection (CBP) protects our Nation's borders and ports of entry from 
terrorist threats and prevents illegal entry of people and dangerous 
materials in the United States.
    I appreciate the focus on Arizona, but we should be looking at the 
border in totality.
    Border Patrol Agents at checkpoints have legal authority that 
agents do not have when patrolling areas away from the border.
    In 1994, the Border Patrol developed its first formal National 
border control strategy, the National Strategic Plan, which was 
informed by efforts in EI Paso and San Diego, known as Operation Hold 
the Line and Operation Gatekeeper, to place additional Border Patrol 
Agents and resources at the border itself.
    Today, the Border Patrol continues to use prevention through 
deterrence as part of a three-tiered border enforcement strategy, 
consisting of ``line watch,'' roving patrols, and checkpoints.
    The majority of Border Patrol Agents are assigned to line watch 
operations at the border, where they maintain a high profile and are 
responsible for deterring, turning back, or apprehending anyone they 
encounter attempting to illegally cross the border.
    The United States Supreme Court ruled that Border Patrol Agents may 
stop a vehicle at fixed checkpoints for brief questioning of its 
occupants even if there is no reason to believe that the particular 
vehicle contains illegal aliens.
    Roving patrol operations consist of smaller contingents of Agents 
deployed behind the line watch to detect and apprehend those making it 
past the first layer of defense in areas away from the immediate 
border.
    Traffic checkpoints are located on major U.S. highways and 
secondary roads, usually 25 to 100 miles from the border.
    Border Patrol operates two types of checkpoints--permanent and 
tactical--that differ in terms of size, infrastructure, and location.
    While both types of checkpoints are generally operated at fixed 
locations, permanent checkpoints are characterized by their brick-and-
mortar structure, that may include off-highway covered lanes for 
vehicle inspection, and several buildings including those for 
administration, detention of persons suspected of smuggling or other 
illegal activity, and kennels for canines used in the inspection 
process.
    The Supreme Court has held that Border Patrol Agents on roving 
patrol may stop a vehicle only if they have reasonable suspicion that 
the vehicle contains aliens who may be illegally in the United States.
    In 2009, GAO released a report examining the effectiveness of such 
checkpoints, concluding that such operations have contributed to 
furthering the Border Patrol's mission to protect the border, and have 
also contributed to protection efforts of other Federal, State, and 
local law enforcement agencIes.
    Most recently, in 2014, the University of Arizona released a report 
reviewing the GAO's conclusions, at the request of the Border Patrol.
    In addition to the question of efficient and effective application 
of resources and tactics, the issue of ``reasonable suspicion that the 
vehicle contains aliens,'' does raise questions on how Border Patrol 
practices may impact the rights of American citizens.
    We have seen actions taken by local law enforcement in a few border 
areas based on laws that attempt to enforce immigration laws using 
local resources.
    The larger issue for some people who may reside on the Southern 
Border especially for those Americans of Mexican ancestry that have 
resided within the United States for generations is how are their civil 
liberties impacted by border security practices.
    We must assure that our Customs and Border Patrol professionals 
have the resources to do their jobs well.
    Part of making the border safer is the collaboration and 
cooperation of all of our citizens to reside on the border.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Ms. McSally. We are pleased to be joined today by two 
panels of distinguished witnesses to discuss the important 
topic today. The sole witness of our first panel is Mr. Mark 
Morgan. Mr. Morgan is the chief of the United States Border 
Patrol, a position he assumed earlier this year. Before 
entering the U.S. Border Patrol, Mr. Morgan served in the 
Federal Bureau of Investigation, the Los Angeles Police 
Department, and the U.S. Marines. While at the FBI, Chief 
Morgan served as a special agent in charge of El Paso Division 
and as a deputy assistant director for the Inspection Division. 
Chief Morgan's full written statement will appear in the 
record.
    The Chair now recognizes the chief for 5 minutes.

 STATEMENT OF MARK A. MORGAN, CHIEF, U.S. BORDER PATROL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Chief Morgan. Good morning. Chairman McSally, Ranking 
Member Vela, and distinguished Members of the subcommittee, 
thank you for holding this important hearing today. This is a 
proud moment for me. This is the first appearance at a 
Congressional hearing representing the dedicated and talented 
men and women of the United States Border Patrol.
    During my first 2 months here as chief, I have had the 
privilege to meet thousands of agents, staff, and trainees 
along the Northern, Southern, Coastal Borders, United States 
Border Patrol Academy, and the headquarters here in Washington. 
I can't think of a better way for me to have started my tenure 
than to get out in the field to listen, learn, and observe. It 
has exceeded my expectations.
    In all these interactions, two critical facts have been 
crystal clear to me: No. 1, I still have a heck of a lot to 
learn; and No. 2, the men and women of the United States Border 
Patrol have one of the toughest jobs in Federal law 
enforcement. The complex challenges we face in 21st Century law 
enforcement are more difficult than I have seen in my 30 years 
of my career. The threat environment is constantly evolving, 
and this demands that we do the same.
    This was never more evident than my assignment as the FBI 
special agent in charge of the El Paso Division in Texas. The 
unique environment facing law enforcement and the intelligence 
community along the Southwest Border are unparalleled. It was 
there that I first learned about the vast and challenging 
Border Patrol mission and just how critical it is to our 
Nation's security. I was astonished at the magnitude of the 
Border Patrol mission, and I was equally impressed with the men 
and women serving honorably every day to carry out that 
complex, constantly-evolving and never-ending mission.
    I can tell you from my personal experience, they are hard-
working, dedicated to this mission and their country, and they 
have and continue to make personal sacrifices to protect the 
citizens of this great Nation. So I sit before you today 
honored and privileged to be part of the United States Border 
Patrol team.
    You know, the numbers we often hear associated with the 
United States Border Patrol are the numbers of annual 
apprehensions of those attempting to illegally enter the 
country every year. It is hundreds of thousands. I would like 
to take a few minutes to also share some other numbers that we 
don't often talk about.
    I have learned that the United States Border Patrol Agents 
are among the most assaulted law enforcement personnel in the 
country. There have been 7,542 assaults against Agents since 
2006, and 30 agents have died in the line of duty since 2003. 
The recent passing of Border Patrol Agent Manuel Alvarez serves 
as a vivid reminder of the dangerous, challenging, and unique 
environment Border Patrol Agents are asked to experience.
    Another number which often gets little mention is how often 
Border Patrol Agents put themselves in harm's way to provide 
emergency medical care and assistance to those in need, to 
include those that are trying to illegally enter the United 
States. Every year, the United States Border Patrol is involved 
in the rescue of thousands of victims of human smuggling and 
individuals attempting to illegally cross the United States, 
more than 3,700 this fiscal year alone.
    In July, the Laredo sector Border Patrol Agent risked his 
own life as he jumped into the Rio Grande to save 4 victims 
that were surely to drown. Also, this past July, Tucson sector 
Border Patrol Agents risked their own lives to rescue 15 
individuals that were attempting to illegally enter the United 
States when they found themselves trapped in an open pit mine 
in Green Valley, Arizona. Just a few weeks ago, the Buffalo 
sector Border Patrol marine units made landfall on the Canadian 
shore in the middle of the night after observing a house was on 
fire. They made landfall and they alerted the resident's family 
and escorted them to safety as the home became engulfed in 
flames.
    Today's hearing is to discuss Border Patrol Agents and the 
Border Patrol strategic use of checkpoints. I think that it 
does acknowledge that illegal and dangerous cross-border 
activity can occur away from the immediate border. The Border 
Patrol's posture includes a threat-based, intelligence-driven, 
multi-faceted approach, such as checkpoints and Forward 
Operating Bases that are strategically located on known routes 
from the border in an effort to maximize our resources and 
prevent a single point of failure.
    For example, just a few weeks ago, a driver attempted to 
flee the Sarita checkpoint in the Rio Grande Valley when a 
Border Patrol Agent canine had alerted to his vehicle. The 
driver was apprehended and 7 people, illegal immigrants, were 
discovered locked in the vehicle trunk with no means of escape. 
Along with sophisticated technology, enhanced infrastructure, a 
dedicated and skilled law enforcement personnel and 
partnerships, the use of checkpoint operations are a current 
component of the Border Patrol's layered strategy to protect 
this country's National security and ensure the safety of the 
public we are here to serve.
    Thank you for the opportunity to testify today. I look 
forward to your questions and having dialog concerning where, 
as an agency, we can get better at what we do.
    [The prepared statement of Chief Morgan follows:]
                  Prepared Statement of Mark A. Morgan
                           September 13, 2016
                              introduction
    Chairman McSally, Ranking Member Vela and distinguished Members of 
the subcommittee, it is a pleasure to appear before you today on behalf 
of the U.S. Border Patrol (USBP) to discuss our layered security 
strategy and the role of checkpoints in securing the U.S. border 
between our Nation's ports of entry (POEs).
    As America's unified border agency, U.S. Customs and Border 
Protection (CBP) protects the United States against terrorist threats 
and prevents the illegal entry of people and dangerous materials into 
the United States, while facilitating lawful travel and trade. USBP 
works with our CBP, interagency, State, local, Tribal, territorial, and 
international partners to patrol the more than 6,000 miles of land 
border between the POEs that we share with Mexico and Canada and 2,000 
miles of coastal waters surrounding the Florida Peninsula and the 
island of Puerto Rico.
    Since the 9/11 terrorist attacks, the U.S. Government facilitated 
an unprecedented deployment of personnel, technology, and 
infrastructure to secure our Nation's borders. The resource base built 
over the past 2 decades has enabled USBP to develop and implement a 
Strategic Plan\1\ and enforcement posture tailored to meet the 
challenges of securing a 21st Century border against a variety of 
different threats and adversaries. Today, our Strategic Plan is based 
on risk: Identifying high-risk areas and flows and targeting our 
response to meet those threats. Through enhanced technology and 
situational awareness and the introduction and expansion of 
sophisticated and layered tactics, capabilities, and operations, USBP's 
strategy focuses on Information, Integration and Rapid Response applied 
in the most targeted, effective, and efficient manner to achieve 
multiple objectives, including:
---------------------------------------------------------------------------
    \1\ 2012-2016 U.S. Border Patrol Strategic Plan. https://
www.cbp.gov/border-security/along-us-borders/strategic-plan.
---------------------------------------------------------------------------
  <bullet> Prevent terrorists and terrorist weapons from entering the 
        United States between the POEs through improved and focused 
        intelligence-driven operations, as well as operational 
        integration, planning, and execution with law enforcement 
        partners;
  <bullet> Disrupt and degrade Transnational Criminal Organizations by 
        targeting enforcement efforts against the highest priority 
        threats and expanding programs that reduce smuggling and crimes 
        associated with smuggling; and
  <bullet> Manage risk through the introduction and expansion of 
        sophisticated tactics, techniques, and procedures. These 
        include methods of detecting illegal entries such as using 
        ``change detection'' techniques, increased mobile-response 
        capabilities, and expanded use of specially-trained personnel 
        with ``force multiplying'' skills and abilities.
    Information gathered from reconnaissance, community engagement, 
sign-cutting, and mobile and fixed technology together provide 
situational awareness and intelligence and helps us to best understand 
and assess the threats we face along our borders. The use of technology 
in the border environment is an invaluable force multiplier to increase 
situational awareness, direct a response team to the best interdiction 
location, and warn the team of any additional danger otherwise unknown 
along the way. Information and intelligence will empower USBP 
leadership and front-line agents to get ahead of the threat, be 
predictive and proactive.
    Integration denotes CBP corporate planning and execution of border 
security operations, while leveraging partnerships with other Federal, 
State, local, Tribal, and international organizations. Integration of 
effort with these organizations will ensure we bring all available 
capabilities and tools to bear in addressing threats.
    Lastly, through Rapid Response, we will deploy capabilities 
efficiently and effectively to meet and mitigate the risks we confront. 
Put simply, rapid response means USBP and its partners can quickly and 
appropriately respond to changing threats.
    A key element of the USBP's Nation-wide Strategic Plan for securing 
the border is the USBP's layered enforcement posture, which has been 
referred to as ``defense-in-depth''. This layered posture includes 
advanced detection technology, tactical infrastructure, traditional 
patrol activities, and other tactical enforcement operations. The 
Strategic Plan recognizes that the security of the border cannot be 
achieved by only enforcement activities located at the physical border, 
such as routine patrols deployed from 135 Border Patrol stations, and 6 
substations on the Northern and Southern Borders. For that reason, some 
of USBP's enforcement operations take place away from the physical 
border, at interior checkpoints, and in ancillary areas. This approach 
makes full use of available enforcement opportunities to produce a 
layered deployment of capabilities to improve our comprehensive 
understanding of the threat environment, to increase our ability to 
rapidly respond to threats, and to strengthen enforcement.
    USBP's 15 Forward Operating Bases (FOBs) give USBP a tactical 
advantage by providing close support in areas that are remote or 
otherwise difficult to patrol; reducing the amount of time and fuel 
required to drive to and from the border area; and providing a 
sustained enforcement presence and deterrence posture in the border 
area. FOBs are a critical part of the USBP Strategic Plan in that they 
provide greater operational capability in areas where gaps exist in 
deployment density and infrastructure.
    Immigration checkpoints are also a critical element of USBP's 
layered approach to combat illegal cross-border activity and are the 
primary focus of my testimony. Border Patrol checkpoints are 
strategically located on routes of egress from the border and thereby 
additionally deters an attempted illegal entry. The purpose of 
checkpoint operations is to apprehend recent entrants who are 
undocumented and smugglers who were not apprehended at the border and 
are attempting to travel to interior locations.
    As part of the USBP's layered security strategy, checkpoints 
greatly enhance our ability to carry out the mission of securing the 
Nation's borders against terrorists and smugglers of weapons, 
contraband, and unauthorized entrants. Checkpoint operations are 
critical security measures that ensure that the border is not our only 
line of defense, but rather one of many.
                         checkpoint operations
    Given the ratio of agents to miles of border, checkpoints establish 
funnel points to more effectively use resources for immigration 
enforcement purposes. All checkpoint sites are determined by Border 
Patrol managers in advance of establishment, and are positioned far 
enough from the border to avoid interfering with traffic in populated 
areas near the border; at sites where the surrounding terrain should 
restrict vehicle passage around the checkpoint; and located on a 
stretch of highway compatible with safe operation. Permanent USBP 
checkpoints are operated at the same location every time; however, 
tactical checkpoints are mobile.
    All checkpoint locations and operations are implemented in 
accordance with established CBP checkpoint policy, to ensure consistent 
and appropriate physical set-up, illumination, and signage for the 
safety of vehicle traffic and agents. Also, all checkpoints comply with 
all State departments of transportation requirements and Federal 
traffic control guidelines using the latest version of the U.S. 
Department of Transportation, Federal Highway Administration's Manual 
of Uniform Traffic Control Devices.
    In the operation of checkpoints, USBP also ensures that appropriate 
equipment including, vehicles, barricades, cones, rumble strips, and 
other traffic control equipment is in place to safely and effectively 
funnel and stop traffic to perform both primary and secondary 
inspection operations. The safe operation of traffic checkpoints is of 
the utmost importance. The site selection and the physical arrangement 
of immigration checkpoints are designed to minimize the risk of an 
accident or an injury to any agent or member of the public. At times 
when traffic can be funneled into one lane and during the hours of 
darkness, the physical setup is changed to enhance the safety of Border 
Patrol Agents.
    In additional to ensuring the safety of the traveling public and 
Border Patrol Agents, USBP establishes checkpoints in strategic 
locations to maximize enforcement resources as well as to minimize 
interference with the flow of legitimate personal and business traffic. 
USBP makes every effort to only operate checkpoints when traffic volume 
allows the operation to be conducted safely and efficiently.
    Although the purpose of an immigration checkpoint is to identify 
undocumented persons who recently entered and human smugglers, agents 
often encounter violators of other Federal and State laws, such as the 
Federal Controlled Substances Act and the Controlled Substances Import 
and Export Act. During primary or secondary inspection at an 
immigration checkpoint, Border Patrol Agents briefly question the 
vehicle occupants' citizenship and immigration status. During the 
inspection, Border Patrol Agents may make plain view observations 
regarding the vehicle and its occupants and may request consent to 
search. When agents obtain consent, they may search the area consented 
to, without a warrant and without probable cause.
    Generally, Border Patrol Agents employ two means to stop vehicles 
driven by smugglers using side roads to circumvent a checkpoint: 
Additional checkpoints and roving patrols. USBP may establish and 
coordinate tactical checkpoints on circumvention routes, so as to 
ensure the effectiveness of checkpoints on main thoroughfares. USBP may 
also conduct roving patrols, an acceptable and effective means to stop 
vehicles driven by smugglers using side roads to circumvent an 
immigration checkpoint. Border Patrol Agents on roving patrol may stop 
a vehicle only if they have reasonable suspicion, based upon specific 
articulable facts and rational inferences from those facts, that the 
vehicle contains individuals who may have illegally entered the United 
States.
    When Border Patrol Agents make a lawful custodial arrest of an 
occupant of a vehicle at an immigration checkpoint, they are authorized 
to make certain warrantless searches incident to the arrest, including 
the person arrested, personal effects in the arrestee's possession. 
Vehicles and personal articles that are impounded, detained for 
safekeeping or as evidence may be subject to an inventory search.
    USBP also uses canine teams to detect undocumented individuals and 
illegal drugs by conducting a quick exterior canine sniff at an 
immigration checkpoint while the roadblock inspection is on-going. An 
alert by a Border Patrol canine constitutes probable cause to search. 
USBP canine teams are specially trained to detect the odors of 
controlled substances and concealed humans at checkpoints and other 
Border Patrol operations. As part of CBP's layered enforcement 
strategy, canine teams provide an unmatched level of security and 
detection capability.
    When there is probable cause or consent, Border Patrol Agents may 
also use detection technology such as non-intrusive inspection (NII) 
systems and X-ray equipment to view the interior of a vehicle. However, 
if Agents have probable cause to believe that people are hidden inside 
a vehicle, agents will proceed with a physical search to minimize the 
risk of radiological exposure to humans.
    The purpose of a Border Patrol checkpoint is to apprehend recent 
undocumented entrants and smugglers; however, as noted, in the 
performance of these operations, Border Patrol Agents may develop 
suspicion of a range of criminal activity. Agents may be exposed to 
dangerous materials. To ensure the rapid detection of radiological 
materials, CBP policy mandates that all personnel assigned to primary 
inspection at Border Patrol checkpoints be issued a personal radiation 
pager and must ensure it is activated while on duty. A radiation pager 
is a portable gamma-ray radiation detector for use by law enforcement 
officials in the interdiction and location of nuclear materials.
                effectiveness, performance, and metrics
    While there is still work to be done, the Nation's long-term 
investment in border security between the POEs has produced significant 
and positive results. In fiscal year 2015, USBP apprehensions--an 
indicator of illegal migration--declined to 337,117 Nation-wide 
compared to 486,651 in fiscal year 2014. CBP also has a critical 
counter-narcotics role; in fiscal year 2015, CBP seized or disrupted 
the movement of more than 3.3 million pounds of narcotics and more than 
$129 million in unreported currency at and in between the POEs. These 
positive trends lend themselves to our Nation's whole-of-Government 
approach to border security efforts, which emphasize the importance of 
joint planning and intelligence sharing.
    The presence of USBP Agents along strategic routes reduces the 
ability of criminals and potential terrorists to easily travel away 
from the border. Given that fewer resources (law enforcement personnel, 
equipment, and technology) are required to operate a checkpoint, 
checkpoint operations are an efficient and effective security mechanism 
used to interdict criminal activity and restrict the ability of 
criminal organizations to exploit roadways and routes of egress away 
from the border. In fiscal year 2015, at checkpoints alone, USBP 
apprehended 8,503 individuals and seized over 75,000 pounds of drugs, 
while intercepting thousands of dangerous attempts at human and drug 
smuggling. Many of the drugs seizures at checkpoints are a reflection 
of the effectiveness of USBP's multi-layered strategy. The shipments 
seized at checkpoints are often referred to as ``consolidation loads,'' 
meaning that they are not shipments being moved directly from the 
border into the interior, but rather they are a combination of several 
small cross-border shipments that had previously entered the United 
States, and are now being moved to major distribution points in the 
interior of the country.
    For example, just a few weeks ago, agents from the Rio Grande 
Valley Sector working the Sarita Checkpoint, arrested a driver who had 
been attempting to smuggle immigrants in his vehicle. When a USBP 
canine alerted to his vehicle, the driver attempted to flee; however, 
after a brief pursuit, the driver was apprehended. Seven migrants were 
discovered in the trunk with no means of escape.\2\ Also this past 
June, Border Patrol agents from the Laredo Sector assigned to the 
Interstate Highway 35 Checkpoint encountered a Kenworth tractor towing 
a cargo tank at the primary inspection lane.\3\ While the driver was 
being questioned, a service canine alerted to possible concealed humans 
or narcotics within the vehicle. After the driver was referred to 
secondary, the agents performed an X-ray scan of the trailer and 
discovered several anomalies within the cargo tank area. A total of 216 
bundles, of what was later determined to be marijuana, were removed 
from the tank with a total weight of 5,734.3 pounds and a street value 
of $4,578,440.00.
---------------------------------------------------------------------------
    \2\ ``Rio Grande Valley Agents Rescue Immigrants, Smuggler Flees 
Checkpoint.'' August 23, 2016. https://www.cbp.gov/newsroom/local-
media-release/2016-08-23-000000/rio-grandew-valley-agents-rescue-
immigrants-smuggler.
    \3\ ``Significant Seizure Caught at Border Patrol Checkpoint.'' 
June 17, 2016. https://www.cbp.gov/newsroom/local-media-release/2016-
06-17-000000/significant-seizure-caught-border-patrol-checkpoint.
---------------------------------------------------------------------------
    In August 2009, the Government Accountability Office (GAO) issued a 
report, Border Patrol Checkpoints Contribute to Border Patrol's Mission 
but More Consistent Data Collection and Performance Measurement Could 
Improve Effectiveness, (GAO-09-824) and made recommendations to improve 
checkpoint governance. To effectively manage and account for checkpoint 
performance measures, USBP created a Checkpoint Program Management 
Office (CPMO). The duties of the CPMO include reviewing checkpoint 
activity reviewing staffing and checkpoint resources; working policy 
and legal issues with divisions and departments at Headquarters; 
coordinating external reviews; coordinating with facilities maintenance 
and engineering on facility updates; and conducting liaison with 
sectors on checkpoint issues. The CPMO also collects and maintains 
statistical information, including traffic counts and arrest statistics 
per location to demonstrate that a particular checkpoint is effective 
in interdicting undocumented individuals and to justify the intrusion 
on the traveling public.
    Through strategic placement and operation, Border Patrol 
checkpoints are not only effective for enforcing immigration laws and 
detecting smuggled contraband, but they are also extremely beneficial 
in thwarting human smugglers. Smugglers often conceal immigrants in 
unsafe and even life-threatening conditions in an attempt to circumvent 
detection. The USBP works closely with our interagency, State, Tribal, 
territorial, and local partners to urge immigrants not to put their 
safety at risk by attempting to illegally enter the United States or 
circumventing a checkpoint.
                      the border safety initiative
    Border Patrol Agents work around the clock to detect, deter, and 
disrupt illicit cross-border activity in all types of terrain and 
environmental conditions in support of our law enforcement mission; 
however, an inherent and essential component of our security mission is 
the responsibility to protect the safety of the public. Every year, 
USBP is involved in the rescue of thousands of people--more than 3,200 
this fiscal year alone--who are victims of human smuggling and other 
undocumented immigrants who find themselves in dangerous or distressing 
situations while attempting to cross into the United States from Mexico 
between the ports of entry. Historically, the summer months are the 
deadliest. Nearly 4,000 migrants have tragically lost their lives in 
the last 10 years from exposure to the unforgiving elements, suffering 
heat stroke, dehydration, hyperthermia, and drowning in canals, 
ditches, and the Rio Grande River.\4\
---------------------------------------------------------------------------
    \4\ Southwest Border Deaths, By Fiscal Year. https://www.cbp.gov/
sites/default/files/documents/
BP%20Southwest%20Border%20Sector%20Deaths%20FY1998%20-%20FY2015.pdf.
---------------------------------------------------------------------------
    CBP's deployment of specialized personnel, area-specific 
technology, and public awareness campaigns are all key elements in the 
effort to prevent the unfortunate loss of life. USBP currently has more 
than 4,150 first responders, 730 Emergency Medical Technicians and 70 
paramedics, all of whom are Border Patrol Agents who also have the 
capability to treat any individual with immediate medical needs in the 
field.
    CBP recently released the first in a series of 60-second Spanish 
language video testimonials\5\ of Central American immigrants who 
voluntarily share their horrifying 1,600-mile journey north in the 
hands of human smugglers. The immigrant testimonials are a continuation 
of Spanish language messaging campaigns CBP has launched in recent 
years in Central America, Mexico, and in key Central American 
communities in the United States. Through these efforts, CBP hopes to 
prevent the loss of human lives and to raise awareness of the real 
dangers and hazards Mexican and Central American immigrants and their 
families face in the hands of unscrupulous human smugglers.
---------------------------------------------------------------------------
    \5\ Migrant Testimonial Series (produced by the DHS Joint Task 
Force--West). https://www.cbp.gov/newsroom/national-media-release/2016-
05-31-000000/cbp-launches-series-spanish-language-central.
---------------------------------------------------------------------------
    In conjunction with the launching of the testimonials series, CBP 
announced the expansion of Border Safety Initiative (BSI) messaging 
outreach to key Central American communities in California, Texas, 
Florida, New York, and Washington, DC metropolitan areas regarding the 
dangers of attempting to illegally cross the Southwest Border. The BSI 
focuses on the deployment of life-saving technology, emergency response 
personnel, as well as binational information campaigns aimed at 
reducing the numbers of immigrant deaths. BSI also strives to rescue 
immigrants who fall prey to unscrupulous human smugglers who have no 
regard for their life and safety.
    Partnerships and collaborative efforts such as the BSI enhance our 
Nation's overarching capability to address the threat of human and drug 
smuggling, increase front-line intelligence and enforcement operations, 
and enhance the safety and security of the public we serve.
                               conclusion
    The function of checkpoints is to conduct immigration enforcement 
operations in strategic locations on routes leading away from the 
border. However, checkpoint operations are also a critical enforcement 
tool for interdicting dangerous materials, narcotics, and human 
smugglers. Checkpoint operations, paired with FOBs, effective Border 
Patrol canine teams, and sophisticated technology continue to deter the 
activities of human smugglers and disrupt the flow of illicit 
contraband from entering our communities.
    The border environment is dynamic and requires adaptation to 
respond to emerging threats and changing conditions. I appreciate the 
partnership and support USBP has received from this subcommittee, whose 
commitment to the security of the American people has enabled the 
continued deployment of resources and capabilities USBP needs to secure 
the border.
    The continued focus on unity of effort, in conjunction with 
checkpoint and other strategic and layered enforcement operations, 
better enables USBP to enhance its ability to detect and respond to 
threats in our Nation's border regions. CBP will continue to 
strategically deploy resources, technology, and front-line personnel in 
order to keep our borders secure, and the communities along it, safe.
    Chairman McSally and Ranking Member Vela, thank you for the 
opportunity to testify today. I look forward to your questions.

    Ms. McSally. Thanks, Chief Morgan.
    I now recognize myself for 5 minutes for questions.
    So as the relatively new chief of the Border Patrol and one 
that wasn't an agent first, you mentioned in your opening 
statement that you have taken time and toured the different 
sectors and just taking a fresh look as to the mission that 
they have, the challenges that they have.
    So based on that and the topic of this hearing, which 
checkpoints is one element of it, but really, we are looking at 
the full defense-in-depth strategy, can you share, what did you 
learn about the defense-in-depth strategy, and do you agree 
that this should continue to be the approach that we take, 
especially in rural communities?
    Chief Morgan. Yes, ma'am. So I think I first learned that I 
am probably going to stop referring to it as defense-in-depth 
strategy. I think there has been a perception, that means we 
are actually ceding, intentionally ceding ground and territory. 
I don't think that is what I am seeing. I think what I am 
seeing--and after 2 months, you are right, I still have a lot 
to learn. I am still taking a hard look at this and I am asking 
a lot of questions. I think what I am observing is the strategy 
really is, as I said in my statement, is trying to come up with 
a comprehensive, multifaceted, layered strategy that prevents 
us from having a single point of failure. That really is my 
concern. Now, there are lots of different ways that maybe that 
can be achieved, and we need to take a look at that and 
continue to grow.
    I think the Border Patrol is going in the right direction, 
being that threat-based, intelligence-driven, operationally-
focused organization that is supported with infrastructure, 
technology, and personnel. But also that I think part of that 
strategy--we know that regardless of, as we continue to grow on 
that threat-based, intelligence-driven, operationally-focused 
approach, supported by infrastructure, technology, and people, 
things are still getting across. That is what I saw too and 
that is what I am learning. We are getting better. We are not 
where we need to be yet, but we are getting better. But things 
are getting across.
    So as I am looking at that, what do we do to prevent the 
things that do get across and do get by us? How do we have a 
strategy that gives us a second look at that, gives us a second 
chance at that, to eliminate that single point of failure? I 
think that is what I am seeing with respect to the strategy.
    Ms. McSally. So thanks, Chief. You know, during your time 
and your discussion and your visits, I mean, were you able to 
see or do you agree that, again, if you see the vast majority 
in the Tucson sector, anyway, of apprehensions that are taking 
place north of 5 miles from the border, that the illicit 
activity does have some serious repercussions to border 
communities and residents?
    Chief Morgan. Yes, ma'am, I absolutely agree. I have been 
to Del Rio. I have been to RGV. I have sat with the ranchers. 
One night I had dinner with the local ranchers there. It was a 
great barbecue. They--I sat and I talked with them. The 
elements that you mentioned in your opening comments are 
exactly what they are saying as well. I think they are 
absolutely, unequivocally legitimate in everything that they 
say.
    If I was a rancher and I hear that they talk about the 
things that they do, from what others may see as small, a gate 
left open, it is not small to a rancher. Cattle can get out. 
Right. That can have devastating impacts. They have seen people 
that have passed on their property. Their property is getting 
broken into. Things are being stolen.
    Yes, ma'am. So it is absolutely a serious issue. I can say, 
my tour and being out in the field, especially along the 
Southwest Border, I have not met a Border Patrol Agent yet that 
doesn't understand that and take that equally as serious.
    Ms. McSally. Great. Thanks. As part of your assessment, do 
you think we have enough Agents to secure the border? My 
understanding is we are now below 20,000 Agents Nation-wide.
    Then I guess the other question, again, related to the 
strategy is, of the agents that you have, are you taking a look 
at where they are assigned? We hear a lot from the Agents 
themselves about those that are being detailed away and not 
enough are mustering actually to be out patrolling on a daily 
basis. Those percentages, as we have done some, you know, just 
different visits and talking to people, seem to be a little bit 
lopsided as far as those that are out in the field versus those 
that are in other assignments. So are you taking a look at 
that, and what have you learned from the number of agents and 
where they are actually assigned?
    Chief Morgan. Yes, ma'am. So I think all elements you just 
said absolutely, unequivocally I am taking a look at that 
across the board. There are a couple of things.
    So first, to answer your question: Do we have enough? My 
first immediate answer is, I don't know yet when it comes to 
the personnel, because I think we have to do, also what you 
said, is take a look at the resource allocation and where are 
they at. I think also it is a layered approach. I think to 
answer that question honestly, it is a little premature, I 
think, for me to be able to do that and to have that confidence 
before I give you those numbers. Because, again, part of that 
is increasing our ability to identify and understand the threat 
and have a situational awareness to be able to continue to 
grow, being intelligence-driven, and then focusing our 
operations toward that threat. It is also a combination of 
infrastructure and technology. Through the use of 
infrastructure and technology, it could impact the need for the 
number of Agents. So I am taking a look at that.
    I think you hit the other element right on the head, is 
that, basically, are the Agents where they need to be? I don't 
know. I don't know. I am taking a look at that. I am asking 
those questions.
    If you look at the history, as you mentioned as well, you 
know, Hold the Line, Gatekeeper, if you look at the history of 
the Border Patrol, you know, resources had to be shifted as the 
threat shifted. I think that is hard for an organization that 
is static in nature, meaning people have to move and buy homes 
and et cetera, but also being agile and mobile enough to be 
constant, having that constant ability to be able to go where 
the evolving threat is. We are taking a look at that. We have 
mobile response teams.
    So, you know, some sectors may see some Agents leave. I 
don't know. You know, may see agents leave the Tucson sector, 
for example, but they may be going to RGV, which they are just 
getting hammered right now with the inflow and influx of folks 
crossing. So we have to take a look at that, I think, in a 
holistic approach. But absolutely, we are taking a hard look at 
that.
    Ms. McSally. OK, thanks. One more quick question on the 
checkpoints and then we will get another round, because I want 
to go deeper into it. So we have got these permanent 
checkpoints on most roads in Arizona and I know across the rest 
of the border. I mean, look, if you are a hardened cartel 
operative and you drive through a known Border Patrol 
checkpoint, you should get the Darwin award. OK? So, I mean, as 
I have talked to Agents and I have talked to your predecessor, 
you are picking up the low-level criminals who maybe don't know 
any better or don't have good intel themselves, think somehow 
they are going to be getting through, but not the serious 
cartels.
    The understanding, the way it has been described, is you 
intend that the serious cartels, the transnational criminal 
organizations are going to go around the checkpoints, and that 
pushes them into our communities. We will hear from the second 
panel about some of the impacts of that. So we won't be able to 
have that sort of dialog so I want to make sure we get this 
discussion out in this first panel.
    So--and then we talked to Agents who say they don't have 
enough manning to actually go out and patrol the walkaround. So 
this is impacting, if Agents are at the checkpoints, but they 
are not out there fanning out for those that are going around 
it, then you are still not intercepting them, yet they are 
being a public safety threat to the communities that are around 
the checkpoints.
    So can you just talk a little bit about that checkpoint 
strategy, the fact that they are fixed versus roaming, they 
close down when the rain comes? So, you know, the bad guys just 
line up during monsoon season. They know exactly when to go 
around them. Just like, you know, what your assessment is of 
how we can improve or take a fresh look at the use of these 
checkpoints.
    Chief Morgan. Yes, ma'am. First of all, I want to say 
absolutely we should take a look at this, 100 percent. I am and 
we are absolutely looking for every opportunity we can improve. 
I think that is how great organizations get better. I think the 
Border Patrol is a great organization, but I think the way we 
get better is to continue to challenge ourselves and to ask 
ourselves, is what we are doing working, is it effective, and 
can we get better? So absolutely, I will be asking those 
questions.
    Now, more specific, I will have to do a little bit more 
work to be able to provide you a solid answer whether, you 
know, specific cartels are using the checkpoints. I can tell 
you from my experiences 20 years in the FBI as well as what I 
have seen thus far in the Border Patrol, is that serious drug 
cartels do use lower-level mules to do transportation. I think 
last year alone the checkpoints, I think it was around 75,000 
tons of drug seized. This year, we are about on track to do 
that via the checkpoints. So they are getting serious amounts 
of drugs.
    Now, the change of TTPs, sometimes the loads are smaller, 
but that doesn't mean necessarily it is not coming from a 
serious drug trafficking organization. They are just changing 
their TTPs.
    The other part with respect to pushing around the 
community, I think I am seeing there is some truth to that. 
What I am seeing Border Patrol's part of the strategy is they 
do have roving patrols around those checkpoints for that and 
they base that on intelligence and the traffic flow. They also 
can set up intermediate or temporary checkpoints as well to try 
to stop the flow of people going around. So I think they do 
have a strategy to try and address that. Holistically, how 
effective is that? I still need to get some more data on that 
to be able to provide you a good answer.
    Ms. McSally. OK. I will come back during Round 2, but I 
will tell you that at some checkpoints in Arizona, they don't 
have the manning to do the roving patrols. So these are all 
hand-in-hand. Where is the Border Patrol manning going and, you 
know, do you have the manning to be able to address those 
issues? Then the impact again on the private property and the 
local communities when the bad guys are going around.
    So I am going to go ahead and yield to my Ranking Member 
here, Mr. Vela, for his opening questions.
    Mr. Vela. So are you making a distinction between the 
effectiveness of the checkpoints in terms of catching people 
versus catching loads of narcotics?
    Chief Morgan. I am not sure, sir, what you mean by making a 
difference.
    Mr. Vela. Well, I guess what I am curious about is we see 
statistics when we cross these checkpoints in terms of, you 
know, pounds of cocaine, you know, that has been detected and, 
you know, so much marijuana. I am just trying to get an 
assessment as to what your sense of how effective the 
checkpoints are with respect to apprehension of narcotics 
versus apprehension of people.
    Chief Morgan. I think at this point I am seeing the 
checkpoints that are an effective part right now of the 
strategy to prevent us from having a single point of failure. I 
am seeing that. I am not saying that there are not alternatives 
that we should look at or we could look at, again, as part of 
the strategy to prevent us from having a single point of 
failure. But currently, as the structure right now, the 
statistics are showing that they are effective at the 
immigration enforcement of which their primary purpose is. Last 
year, the checkpoints across Southwest Border I think was about 
8,000. This year, I think we are on track for that same number 
as well. So on its face, they appear to be effective as that 
part of the strategy to prevent us from having a single point 
of failure.
    Now, ancillary, in addition to that, yes, they have been, I 
would categorize it as very successful with respect to drug 
seizures. I think they have also been somewhat successful in 
catching people, criminals, that have outstanding warrants, 
State/Federal/local warrants for some pretty violent, heinous 
crimes, as well as those that have been convicted of violent 
crimes in the past. That is also happening at the checkpoints 
as well.
    Mr. Vela. Yes. I didn't mean the question to be critical. I 
was just trying to get your assessment of the effectiveness of 
the checkpoints with respect to those different tasks that the 
agency has at the checkpoints.
    Chief Morgan. Yes, sir. So I think right now, I would say 
they appear to be effective, especially with the resources that 
are actually dedicated to the checkpoints. It is actually a 
very small amount of the Border Patrol resources that are 
dedicated to checkpoints overall. I would say that the 
statistics that are being produced by those checkpoints, I 
would say at this point, knowing what I know now, I would 
categorize them as being successful.
    Mr. Vela. So back on the issue of morale, just to give you 
an idea of how entrenched the Border Patrol has been in south 
Texas and in my life there, your agency served as pallbearers 
at my father's funeral.
    So when I talk to Agents--it happened last weekend at a 
golf tournament. I had, by coincidence, ran into two Agents 
that came up to me, and they had the same story, and it was, 
you know, how deeply things had changed from their perspective 
in the Border Patrol, and not for the good, right, not from a 
morale standpoint. What I have found--and this is not just a 
statement on the Border Patrol or Department of Homeland 
Security but with respect to Federal agencies in general and 
the disconnect between the offices up here in Washington, DC, 
and what is going on on the ground.
    You know, I guess what I am--I know you just started and I 
know that these assessments that you have made are your initial 
assessments, but what can you tell us about where you are 
headed with respect to improving morale? For that matter, these 
conclusions that I have come to aren't based on statistics that 
I have read and these notebooks that we are handed or what 
staff has told me. These are real-life conversations that I 
have, you know, with the people that work for you, right. So I 
am just kind of curious. Are you getting the same sense I am or 
is it different?
    Chief Morgan. Yes, sir. Well, first, I would absolutely 
love to maybe do an off-line and get more in depth of what you 
are actually hearing from the line agents, because I think, as 
the chief of Border Patrol, that is exactly what I need to 
hear, if I am going to take a look at issues and be able to 
really make the impact that I need.
    I go out there and my stump speech, part of what I tell 
them is part of one of my key roles as the chief is to be their 
relentless advocate. I think part of being their relentless 
advocate is understanding what they are feeling each and every 
day. That is really one of the main reasons why on Day 3 I 
decided that I was going to go out to the field and I am going 
to visit every single sector, all 20 sectors, and I am not 
going to stop until I complete it. Since I have been out there, 
I have stood in front of musters of 300, and I have talked to 
two mechanics in the garage and I have listened to them.
    So I am hearing issues about morale. Morale is not where it 
needs to be, but there are a lot of reasons for that and it is 
very complicated. I can say--so the FEVS survey, the Federal 
Employee Viewpoint Survey that went out is that it really kind 
of told us and identified that there are some morale issues and 
there are some challenges, but that is only one point of 
context.
    So what the Border Patrol did is they actually commissioned 
an outside entity to come in and take a look at the basic 
information from the FEVS survey. They went out, they went out 
to 13 sectors, talked to over 900 personnel from the Border 
Patrol chief of the sector all the way down to the mechanic, 
and from that they came up with these basic 8 core areas. Then 
we brought back additional people to do a deeper dive to really 
get to the core root of the issues. Then the plan is--my plan 
is to really do some targeted teams on those issues to really 
try to address those issues to improve morale.
    Those are specific things, but I think there is also some 
bigger things that we need to take a look at too. I think we 
have mentioned some of those as well. That is the second thing 
that I tell them as part of my job that I think will impact 
morale is, as the chief, to get them the resources, the 
training, the tools, and the technology to do their job 
effectively and safely. I think this goes to the heart of the 
hearing, as a matter of fact, is is our strategy right? Are the 
things that we are using correct? We need to take a look at 
that. We do. Everything.
    Sitting as a new chief, I can tell you I am not accepting 
anything that I see as it is the right thing. I am not doing 
that. I am asking questions and I am asking for explanations. 
Why are we doing this? Is this the right thing? Are there 
alternatives to prevent us from having a single point of 
failure, or is checkpoints the only thing that we can do? I 
think that is important going forward.
    Mr. Vela. Well, look, I look forward to working with you on 
that issue and many others. What I can tell you is that I am 
sure the surveys are real nice and everything, but between Mr. 
Hurd and Congressman McSally and, you know, Mr. Higgins, who 
represents the Northern Border, and those of us who interact 
with your agencies every day, not to mention the people that we 
have working for us back in our offices--I mean, I was at my 
office back in the district 2 weeks ago and, you know, Agents 
were coming in.
    So our offices have a significant degree of interaction 
with the people that work for your agency and, you know, use us 
as a tool, because I think that we can help bridge some of 
these gaps, given our interaction with your agency, you know, 
with your agents on the ground day-to-day. But thank you for 
being here.
    Chief Morgan. Yes, sir. I would absolutely like to take 
advantage of that. Absolutely.
    Ms. McSally. Great. Thank you.
    The Chair now recognizes Mr. Duncan from South Carolina for 
5 minutes.
    Mr. Duncan. Thank you, Madam Chairman. Thanks for this 
hearing as well.
    Chief, thanks for being here. Congratulations. I enjoyed 
working with your predecessor, Chief Fisher, when I was a 
little more engaged with the Subcommittee on Oversight and 
Management Efficiency.
    I have been on this committee for 6 years and this topic 
never seems to go away. You have got quite a challenge ahead of 
you because of the bureaucracy that you work for. I am glad you 
are asking the questions and I hope we can make those changes 
as you seek answers, and I look forward to working with you.
    I think you will find a willing Congress, at least a 
willing committee, to help you. It is not just the border 
States and their delegations that are interested. Immigration 
issues affect everyone, drug issues affect everyone, National 
security issues affect everyone, even in South Carolina.
    So coming on the heels of 9/11 15 years later, a lot of 
reflection over what happened, mistakes made and all that, I 
have done a lot of radio interviews and I have told folks that 
I don't know that we are any safer today by combining all these 
agencies under DHS, and our border is still insecure.
    I say that in that we still have illegals and contraband 
and drugs and illicit activity happening that is coming across 
our border. That is no fault of yours and that is no fault of 
your personnel. I applaud you and I support you and I want to 
keep working with you. But the facts are the facts, that we 
have illegals coming in this country. We have another element 
coming into this country illegally, walking across our border, 
and that is a DHS term of OTMs, other than Mexicans. These are 
personnel that aren't just the Hispanic origin folks that are 
coming to take the jobs in agriculture, horticulture, 
hospitality, you name it. These are people who we really don't 
know their intent because the apprehension rates of folks that 
have crossed our border are speculative. I say that in that Jeh 
Johnson has said, well, we take the number that we catch and 
then we kind of extrapolate that and figure out how many we are 
not catching. That is alarming when you really think about 
that.
    So do you know the percentages of OTMs that are apprehended 
on the border? These are people from Africa, the Middle East, 
you know, Asia. What is that percentage, based on your 
knowledge?
    Chief Morgan. Yes, sir. I don't know that exact percentage 
of OTMs.
    Mr. Duncan. OK. There's no problem. America just needs to 
know----
    Chief Morgan. Yes, sir.
    Mr. Duncan [continuing]. That there are people crossing our 
border that aren't just from Latino, Latin descent, and Mexico 
or Guatemala or whatnot, coming to take jobs, coming to bring 
their unaccompanied children here or whatnot; that they are 
folks that have traveled great distances, oftentimes using 
false or fake passports and a lot of money, traveling through 
the tri-border region of South America, transiting up through 
Latin America and coming into this country. Some may have goals 
of providing for their family, I don't discount that. But I 
believe some may have nefarious goals, and on the heels of 9/11 
I am going to be very, very cognizant of that.
    So Congress in 2006 passed the Secure Fence Act. I wasn't 
here. I applauded it as a State legislator in South Carolina, 
but then Congress failed to appropriate the dollars to complete 
the job. I don't know how many miles have been completed now. I 
believe in more fencing. I believe it works because I believe 
there are areas--I know there are areas you can't fence. 
Nogales sector, the mountains are high. But what it does is it 
puts the bad element, I guess, into corridors that makes your 
personnel more effective. So I see it as a force multiplier.
    But we all know that a taller fence just means a higher 
ladder or a higher fence means a taller ladder and elements are 
going to cross over that fence. That is where electronic 
surveillance, that is where other force multipliers actually 
come in. I appreciate that.
    But if you go and look and you go to my Facebook page, Jeff 
Duncan, I put it up there last week, 2 weeks ago, there is a 
video in San Diego. San Diego News, which isn't the most 
conservative news source, but they were talking about the fact 
that people were coming into this country, they were 
apprehended by you guys and let go, because they are claiming 
asylum. It also says that this isn't a policy that is bottom-
up, this is from the very top guy sitting down here on 1600 
Pennsylvania Avenue saying, let them go.
    I will tell you, in South Carolina, we are not very happy 
about that, about folks that have crossed our border, broken 
our laws, violated American sovereignty--we are a sovereign 
Nation--and they are let go. So--and I don't blame you for 
that. These are problems we have got to work on together. I am 
acknowledging that. I am offering help to work on it together 
as Congress.
    We have been told in the 6 years I have been here by folks 
that work within DHS, that we have operational control of the 
border.
    I can't get a good definition of what that operational 
control means, Madam Chairman, but I would ask the chief, in 
your opinion, what does operational control mean and have we 
achieved operational control of our Southern Border? The 
Northern Border is for another topic, another day. The Southern 
Border is where I am focused.
    Chief Morgan. Yes, sir. So I will start with the latter, 
operational control. Two months in, I am taking a look. I am 
not sure--again, I caveat that with 2 months in. I am not sure 
operational control is the right way to look at this. I am 
questioning that term, to be able to provide everyone that 
should with that definition.
    I think I go back to the strategy of being threat-based, 
intelligence-driven, operationally-focused, supported by 
infrastructure, technology, and personnel. With that as the 
framework, I think the goal is, is that we are striving to have 
confidence levels through our situational awareness. So I am 
asking folks, what are your confidence levels from zone to zone 
within a station, within a sector, throughout an entire 6,000-
plus land border miles and 2,000 coastal we are responsible 
for. I pulled a little bit of that from my FBI experience as we 
went through in the aftermath of 9/11, we are trying to figure 
out and ask ourselves the same question.
    So I want to be able to get to a sector chief, to him or 
her, and say, what are your confidence levels with respect to 
the situational awareness that you have in your sector? Tell me 
about that. Talk to me about that. How did you get that? Talk 
to me about your threats. Talk to me about the intelligence 
process. Talk to me about your partnerships. Talk to me about 
the use of infrastructure, technology, and personnel that you 
used to get to that. We need to have a defined set of matrix 
and factors that we all go in that goes into a sector chief 
being able to determine their confidence level. Then, based on 
that, that is how we allocate those resources. I think that is 
the direction that we need to go, but I am asking those 
questions.
    So, again, I would say I am not sure operational control. 
One of the reasons why I am not sure operational control is a 
right frame is because the TTPs change too quickly. Again, as 
you mentioned, ma'am, in your opening comments about Gatekeeper 
and Hold the Line, those are great examples of how we did all 
this, and the stuff shifted. So at one moment we could say we 
have operational control in the area and the next minute it 
will change. But if we have that process that I described, 
having situational awareness, I think that is going to position 
us better to be able to do what we need to do.
    I would like to talk a little bit and respond to what you 
mentioned about people are coming here and they are being 
allowed to then come into the United States. I think that is 
also something that we need to talk about and take a look at. 
Because when we talk about resources, specifically manpower, 
what I see that we are being asked to do--and please don't get 
me wrong, we are going to do whatever we are going to be asked 
to do. The political decisions or the policies of the U.S. 
Government, that is not our role to get involved in. Whatever 
you decide, we are going to do.
    What we are being asked to do right now, I think you could 
phrase it a little bit as a humanitarian mission. For example, 
some of what you referred to, sir, is the unaccompanied 
children that are coming across. I stood in the Rio Grande 
Valley on one of the cut roads where a smuggler had told some 
children, once they made landfall, to go on the cut road until 
you came in contact with a United States Border Patrol Agent. I 
was there and I watched that. I watched the little 6-year-old 
girl holding the hands of her 11-year-old brother, and they 
made the trek all the way from Honduras.
    Now, personally, I wanted to take that little girl home 
with me, I did. That is something that will probably stick with 
me my entire life. But as the chief of the United States Border 
Patrol, which I think we have a National security interest in 
this country, we have a law enforcement threat in this country, 
I think when I look at that 6-year-old, she is not a National 
security threat or a law enforcement threat, with respect to 
what I see my job as the chief of the Border Patrol. But I am 
taking a lot of resources, a lot of resources dedicated to what 
I would say is a humanitarian role, and I am taking them off 
the line.
    So I think there needs to be discussion and I am asking 
questions, what are some alternatives we could do instead of 
taking Agents that have been trained that have a National 
security mission, should be on the front line, I am taking them 
off that front line a lot to process a 6-year-old and an 11-
year-old as part of the humanitarian mission. So I think that 
is a challenge.
    Mr. Duncan. Let me just finish up by saying I appreciate 
your position on the children. That pulls at our heartstrings 
and it is the right thing for America to do to try to figure 
out this. But the issue is exacerbated, Madam Chairman, by all 
the other things we have talked about.
    When you think 49 percent of all illegals in this country 
didn't come across that Southern Border or Northern Border, 
they came with a permission slip. America gave them permission 
to come to this country. We trusted them, and they have 
violated that trust by overstaying that visa and remaining in 
this country. That is low-hanging fruit for enforcement. That 
is a different division, I get that.
    But going back to the point, that exacerbates the problem 
of being able to deal with her. So visa overstays, border 
enforcement, dealing with the criminal element within this 
country, then dealing with the other illegals that happen to be 
in this country and what we do if they are gainfully employed 
and that sort of thing, and the children you are talking about, 
whether it is the unaccompanied children that are coming across 
or whether it is the children of people that have come here 
known as dreamers. But you have got to take it in priority, I 
think, because it all gets so convoluted as a total immigration 
reform package that we are not able to have an adult civil 
conversation about her, right.
    So you mentioned structured technology and personnel. I am 
with you. But if they evade that fence, you pick them up with a 
ground sensor and a camera or a drone, you send the personnel 
to pick them up, and they are let go 2 hours later? We are 
wasting a heck of a lot of money with structured technology and 
personnel. OK? We have got to stop letting them go.
    With that, Madam Chairman, great committee hearing, I would 
love to bring him back when he is not just here for 2 months, 
when he has got a little bit a sense of the agency, and have an 
in-depth conversation about----
    Ms. McSally. We will.
    Mr. Duncan. This may be for the next Congress, but we ought 
to have an operational control hearing to delve more into what 
that looks like.
    So thank you so much. I yield back.
    Ms. McSally. Absolutely. On that note, we had a hearing 
with your previous acting chief where we were trying to address 
the issues of situational awareness and operational control. 
Part of the challenges that we have had is how do we measure 
effectiveness, and those numbers have shifted over the years, 
when we went from 2010 to measuring operational control to 
measuring number of apprehensions as some measure of whether 
you are being successful, which I have never understood. Let me 
just be clear. I mean, if number of apprehensions go up when 
you don't know what the denominator is, then is that a good 
thing or is that a bad thing? So we addressed this issue in a 
hearing a couple of months ago.
    I know these are complicated issues, but I do want to 
follow up on the operational control discussion. From my 
perspective--again, it is formed and shaped by my experiences 
in the military--there are two major measurements that I would 
be looking for as a subcommittee chair here. The first is, you 
know, what percentage of the Southern Border do you have 
situational awareness of real time, not change detection after 
the fact but real time? So if something is coming up to the 
international boundary and is attempting to go over the border, 
we actually see it real time, whether that is with a person or 
with a camera or with an airborne asset, manned or unmanned, 
whatever it is. What percentage do we have situational 
awareness of?
    Now, you may not be able to get to it right away, that is a 
second issue, but what do we actually, if it moves, we see it? 
Again, these are complicated issues, but coming from a simple 
fighter pilot point of view of what is your situational 
awareness?
    Then the second question being, of those that you see, what 
can you intercept? That is operational control. So first is if 
it moves, you see it. Second is if you see it, you can get it. 
Right? So then you have a sense of the denominator, because you 
know, like, we saw it but we didn't get it, so it got away. So 
that is part of, you know, the success rate impact. When we 
pressed on this issue and some of the challenges we have with 
our constituents, quite frankly, in this National dialog is, 
because the measurements have been sort of shifting and number 
of apprehensions is meaningless to most people, they don't have 
a sense of like what level of confidence do we have. What 
percentage of the Southern Border, which we are focusing on, 
actually do we have situational awareness and operational 
control?
    The answer we got out of the previous acting chief was a 
little bit over 50 percent. Fifty-six percent, I think, was the 
number of real-time situational awareness. If it moves, you see 
it, you know something's coming. Now, that needs to improve, 
obviously. We have got to get ourselves in parallel to a place 
that you can see it and then you can actually do something 
about it, right, to be able to intercept it with the right 
assets that you need, with the appropriate vehicles, whether 
that is foot patrol, horse patrol, vehicles, ATVs, helicopters, 
whatever it takes, you know, to be able to actually intercept 
that, ideally on the south side of our constituents' ranches, 
not on the north side or 100 miles inland.
    I think that is some of the challenges that bring us to 
kind-of where we are here today. Obviously, if we were able to 
see what moves and intercept what moves as close to the border 
as possible, from my perspective, spending time with the Border 
Patrol Agents, spending time with the residents and ranchers, 
if we were able to do that, not only would you be able to do 
the mission closer to the border as possible, which will impact 
all the discussions we will have in the second panel, but also 
it impacts the humanitarian element, quite frankly. You are not 
having to go deal with someone out in the desert 80 miles north 
who is on the verge of dehydration and death, right, because 
you are intercepting them right at the border. So all the 
things that are being referenced, and then less would be 
needing to be picked up at the checkpoints, in theory, right?
    I mean, we have got a number of narcotics coming through 
the checkpoints, but if we were able to push the line of 
scrimmage to the border, then less would be actually making it 
around the border and into the communities and then going into 
the checkpoints. Does that make sense?
    So, I mean, you know, the part of our discussion is what 
can we do and what resources do you need to have intelligence-
driven operations, like you have talked about, threat-based, 
nimble, on your feet, as soon as we are effective they are 
going to shift their tactics? They are innovative, they are 
entrepreneurs, these cartels. So what can we do to make sure 
you have the resources, the policy, the manpower, which is a 
win-win for everybody? This is a win-win for the agency, the 
country, the agents, the ranchers, the residents, I mean, all 
the way around.
    One of my frustrations often is that I feel like sometimes 
people are pit against each other in this discussion. Like, 
what the border residents and ranchers are looking for is not 
what the Agents or the agency is looking for. We are all in 
this together. I mean, we can find where our common interests 
are to protect our country and to keep our community safe, 
right, and give the tools to the Agents that they need that do 
that, and then that impacts the communities and the residents 
all the way around. I mean, this is the fundamental 
conversation that we have been having, you know, since I have 
been in Congress, in the time that I was running and now, you 
know, now that I have been in this position in the subcommittee 
chair.
    So, you know, based on all that and wanting to get in this 
place, which I think we have a common interest, I am trying to 
get to this place where we keep the community safer, we see 
more, we catch more, we give the tools to the agents that they 
need and push that line of scrimmage closer to the border, the 
question is, what else do you need in order to do that? What 
else do you need from us to provide those resources? We are not 
just going to throw money at the problem. Right? Is it more 
integrated fixed towers? Is it more manned and unmanned assets? 
Is it tactical drones? Is it, you know, agent--like what is it 
that you need in order to push this to the border so that if we 
were to do that, you would see less and less coming through 
checkpoints, less and less incursions and public safety issues, 
because we are going to push that line of scrimmage south to 
the international boundary. What else do you need?
    Chief Morgan. So, ma'am, first of all, I agree with 
everything you just said. Specifically on the situational 
awareness, I completely agree. That kind-of goes exactly to 
what I was saying about the confidence levels. I also want to 
challenge the leaders that when they tell me what their 
situational awareness is, tell me about what your confidence is 
with respect to that. Let's have those discussions. So I think 
you are spot on and I think we do have absolutely the same 
goal.
    The goal is absolutely, let's try to interdict everything 
that we can right at the border.
    Ms. McSally. Right.
    Chief Morgan. Absolutely, that is the goal. It is a 
challenging and a complex thing, but it is also an exciting 
thing as well, because it is about strengthening our 
counternetwork ability. It is about reaching out to our 
partners--not just within the United States but our 
international partners, Canada, Mexico, et cetera. It is not 
about just being in a position to interdict them when they hit 
the border, it is about bringing the fight to them before they 
get to the border. It is about identifying those TCOs. It is 
about dismantling those TCOs through a threat-based, 
intelligence-driven process before they get to the TCO. It is 
about setting up solid infrastructure, a whole-of-Government 
approach, whether it is through corridor initiatives, whether 
it is through the joint task forces that are established, to 
make sure that we are working together, that we are gathering 
intelligence, we are sharing the intelligence, and we are doing 
joint operations based on that intelligence to utilize our 
limited resources.
    So there is a whole apparatus about let's take the fight 
before they even get to the border. Then once they get to the 
border, as you laid it out, I agree, it is totally how you laid 
it out. You are right. Our goal would be is if we are that 
effective, we don't need additional stuff.
    Now, I would say, from my position, I don't know what--I 
think it could be unrealistic to say that no matter how good we 
are, that we are going to catch everything at the border. So I 
would always say part of the strategy should always be 
something in place that prevents us from having a single point 
of failure. I am not saying checkpoints will always be that 
issue, but I think you understand what I mean. So, yes, so we 
have to continue to do that.
    The last part, what do I need? I need to continue that 
threat-based, intelligence-driven, operationally-focused 
approach. I need to make sure that we have the resources to 
drive intelligence, to gather intelligence, to disseminate 
intelligence, to continue to drive those operations, to 
hopefully, as a counternetwork approach, take the fight before 
they get to the border. So definitely looking at our 
intelligence resources. 132 intelligence analysts. Do we need 
more? My gut says we do.
    With the rest of the resources, I don't think there will 
ever be a chief that sat before you said we wouldn't need more 
resources. I am not going to be any different in that area. But 
I think I need some more time so that we do take care of the 
precious taxpayers' money to be able to really tell you what it 
is we need with respect to the infrastructure, the technology, 
and the manpower.
    On the humanitarian side, absolutely. The border, please, 
don't--the Border Patrol Agents, when I walked up, they didn't 
even know I was there. They were treating these kids with 
dignity, respect, and compassion like they were their own.
    Ms. McSally. Right.
    Chief Morgan. We will do that, absolutely. But I am just 
saying that there may be an alternative. Like, for example, 
when I was a police officer for Los Angeles Police Department, 
I would be working the streets of south central L.A. I would 
catch a felon, I would hand him off to a jailer to process. I 
would go back out on the street. So I don't know, can maybe we 
do something similar so that when we get one of the 
unaccompanied children, that we turn them over to somebody else 
that can do the processing? Then we get the agents back out on 
the line faster. That is something I am taking a look at. I 
would ask your support for that, because obviously, that will 
take some funding and some push to do that.
    The technology, that is an element too. You mentioned like 
the integrated fixed towers. You know that well. That is going 
to be a great resource in some areas. It doesn't work in other 
areas. You go to the Buffalo sector with the hills. That 
technology is not going to work. So we need to constantly look 
at additional technology, and so I would probably be looking 
for support when we come up for additional technology.
    Ms. McSally. OK, great. Thanks.
    I do want to go back to the agents and how the agents are 
used. We have heard from a couple of different sources that--in 
the Tucson sector we keep hearing the number about 25 percent 
of the agents are not assigned to patrolling the border. They 
are assigned to doing other things, you know, vehicle officers, 
you know, just other things that are not--it goes back to what 
you were just talking about. We train them to do a job and we 
ought to make sure that we keep the vast majority of them out 
there doing that job, right? Because that is what they are 
responsible for. That is what is going to build their morale, 
by the way, and their esprit de corps, is they are out there 
doing the job they were trained to do and not all these 
additional duties and details and other things that are really 
not their core responsibilities.
    Is that 25 percent number across the board or do you have 
better clarity on how many or what percent of the Agents are 
actually not patrolling?
    Chief Morgan. So, ma'am, I have not seen or been provided 
the 25 percent number, so it is premature for me to weigh in on 
that. What I would say is it really depends on who you are 
talking to and their perspective. For example, as we talk about 
that threat-based, intelligence-driven process, I am pushing 
folks, leaders out in the field to put more people into task 
forces, right, to leverage that kind of whole of Government 
approach. We should be integrated into the JTTFs, into the BEST 
teams, into the DEA-led strike forces. We need to be in the 
JTF-West and East and et cetera. So we do need to push 
resources out there.
    Another thing that could be seen is that sometimes a 
sector--and I believe Tucson sector was impacted by this--when 
another sector, like RGV, is getting slammed with an increase, 
we will mobilize the mobilization team and they will go to 
another sector to assist. So some people may have the 
perspective, they see that and they think they are being taken 
off the line when really they are just being reallocated to a 
line somewhere else that we have a higher priority threat going 
on that we have to do.
    But, again, I am taking a look at that. I am asking the 
questions. The specialty units, you know, do we have the right 
allocation? How many people, you know, do we have off the line 
and what are they specifically doing? Absolutely asking those 
questions. That is a fair question that should be asked.
    Ms. McSally. Chief, I know this is just a snapshot in time, 
but could you get back to us with, you know, of the Agents that 
you have, just, you know, with basic percentages of numbers, 
how many are generally out there on the line? How many are part 
of other taskings and other things? Just, you know, 
percentages.
    I get that from being in the military, you know, you need 
people in the operations center and all that kind of stuff in 
order to push good information. But if we could get a good 
sense from you and an answer back of where we are on those 
percentage-wise, and then continue the conversation of where it 
needs to be adjusted to.
    Chief Morgan. Yes, ma'am. I actually want those numbers for 
myself as well.
    Ms. McSally. Great. Thanks.
    One last question related to the--on the second panel, we 
will hear from Dr. Golob from the University of Arizona about 
the 2014 study they did with a series of recommendations to 
enhance, really, the data collection and determining the 
success of whether the checkpoints are working and whether they 
are manned correctly and what things can be done to improve 
that. Have any of those recommendations been implemented, and 
do you agree or disagree with those recommendations?
    Chief Morgan. Yes, ma'am. So I do know, in part--again, 
that is something I still need to do a little bit deeper dive, 
but it has improved dramatically. We are tracking the number of 
seizures. We are tracking the number of apprehensions. We are 
tracking the number of man-hours that is spent at checkpoints 
and et cetera. So there are numerous data points that are being 
collected so that we can try to get closer to coming up with a 
really solid way to measure the effectiveness of the 
checkpoints.
    Ms. McSally. OK. But those specific recommendations from 
the U of A study, I don't know if you are familiar with them 
off the top of your head. But can you follow up on whether 
those specific--I mean, they put a lot of effort, taxpayer 
money into studying, as a follow-up from the 2009 GAO study--I 
think it was 2009--about, hey, how can we improve our 
understanding of the effectiveness of the checkpoint?
    So can you follow up with us on those specific 
recommendations, do you agree or disagree, and how many have 
been implemented or how many are in the process of being 
implemented?
    Chief Morgan. Yes, ma'am.
    Ms. McSally. Great. Thank you.
    All right. The Chair now recognizes Mr. Duncan from South 
Carolina for a second round.
    Mr. Duncan. Thank you.
    I really don't have another question. I just wanted to tell 
the chief, I apologize that there is not more active 
participation today. You know, we have OGR with Hillary 
Clinton's emails, and there is just a lot going on on the Hill. 
I don't want you to leave here going, ``Golly, there was only 
two Members of Congress, and I had to answer all the Chairman's 
questions,'' and all that and think there is not interest in 
this topic, because I can assure you that there is.
    You know, Mr. Hurd came briefly. Barletta is very 
interested in visa overstays. Of course, all the way around, 
with the former chairwoman and others, even on the Democrat 
side, there is interest in this issue. I think, at some point 
in time, having another hearing, having you come back would be 
awesome.
    But I just didn't want you to leave here going, ``There is 
not any interest in Congress about what I am doing.'' There 
absolutely is. It is just the way things go on the Hill 
sometimes. Just know that folks from my State, the Palmetto 
State, South Carolina, are very interested in this. We don't 
have a border. We have an international border I guess you fly 
in, but--anyway.
    Thank you very much. God bless. Godspeed. Thank you to you 
and your men, women that are serving this country in that 
capacity. I look forward to meeting with you again. I wouldn't 
mind setting up something, you know, privately to just get to 
know you a little better, because we want to work going 
forward.
    Thanks, Chairman.
    Ms. McSally. OK. Thank you.
    The gentleman yields back.
    This wraps up this portion of our hearing.
    Thanks, Chief, for your testimony. There are potentially 
some questions that are going to come out of the second panel 
that we need to follow up with you on. There may be other 
Members of the committee that have questions for you. So we 
would ask, when we submit those, if we could get those back in 
writing. Thanks for your testimony today. You are dismissed.
    The clerk will prepare the witnesses for the second panel.
    Thanks, Chief Morgan.
    I would like to thank the witnesses of our second panel 
today. I will first introduce them, and then we will start with 
the testimony.
    Mr. Gary Brasher, fifth-generation Arizonan, currently 
residing in Arizona's Santa Cruz Valley. Throughout his career, 
Mr. Brasher has established many local businesses, including a 
full-service brokerage company, a water and sewer company, a 
communications company, and a grocery store. Mr. Brasher is a 
past president of the Santa Cruz Valley Citizens Council, the 
Tubac Chamber of Commerce, and currently serves as the vice 
chair of the Green Valley Chamber of Commerce.
    Good to see you.
    Ms. Peggy Davis is a rancher and farmer from the Southern 
Border area of Arizona, where she has resided for over 40 
years. She currently serves as a clerk for the Whitewater Draw 
Natural Resource Conservation District, which assists local 
farmers and ranchers with projects to keep them informed of the 
most current methods and technologies available to sustain 
their farms and ranches for future generations. In recent 
years, she has become active in bringing a greater awareness to 
issues in her community associated with border security and 
illegal immigration.
    Dr. Elyse Golob is the executive director of the National 
Center for Border Security and Immigration, or BORDERS, 
headquartered at the University of Arizona. Funded by the 
Department of Homeland Security, BORDERS provides crosscutting 
technology and basic research to enhance the Nation's security. 
Dr. Golob's expertise includes cross-border trade, economic 
development, and border management policy. She is currently 
conducting a joint research initiative with Frontex, the 
European Union border security agency based in Warsaw, where 
she recently organized a 2-day workshop for European border 
guards on artificial intelligence for screening and decision 
support at border crossings.
    Mr. Christian Ramirez is the director of the Southern 
Border Communities Coalition and also serves as the human 
rights director of Alliance San Diego. Since 1994, Mr. Ramirez 
has been active on issues related to U.S. immigration policy 
and its impact on Southern Border communities. He has presented 
in international and National gatherings on the state of human 
rights on the U.S.-Mexico border. He is a Nationally-recognized 
spokesperson on immigration and border enforcement issues.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Mr. Brasher for 5 minutes to 
testify.

         STATEMENT OF GARY P. BRASHER, PRIVATE CITIZEN

    Mr. Brasher. Thank you, Chairman McSally, Ranking Member 
Vela, and Members of the committee. My name is Gary Brasher. I 
won't go into a lot of detail on my background simply because 
the Congresswoman has already touched on that briefly. My 
written testimony, of course, will be in the record, so I have 
offered the opportunity for you to look at it in detail.
    I have lived in the Santa Cruz Valley for 34 years now as a 
businessman. As the Chairman expressed, I have a variety of 
businesses down there. It gives me the opportunity to be in the 
community and to really listen to what people are saying, not 
just my own experiences but the experiences of others.
    I can tell you that the defense-in-depth strategy has had--
and, just a moment ago, we heard the chief say it is a multi-
layered approach to the defense of our border. It has also had 
a variety of layers of impact on our communities both south and 
north of that checkpoint.
    I can tell you that when the checkpoint is moved 25 miles 
north of the actual border or, as it was referred to earlier, 
the line of scrimmage is moved, it creates--instead of 261-mile 
border to defend--you can quickly see the math--it creates a 
6,500-square-mile area that the chief and his officers have to 
now defend. That exponentially increases the manpower needed 
and the area that they have to defend, exponentially.
    It has created, unfortunately for those of us south of the 
checkpoint, what we call kind of a no-man's-land, an area south 
of the fixed checkpoint but north of the actual border. Once 
individuals involved in bringing illegal immigrants or bringing 
illegal contraband into the United States, once they get across 
that actual border, they for the most part have a pretty free 
run within that 25-mile area. The unfortunate thing for those 
of us that live there is that that is where we live, that is 
where we work, that is where our children go to school. So that 
area that we call the no-man's-land is where we live every 
single day of our lives.
    As was pointed out earlier, without question, the flanking 
of that checkpoint takes place in the Santa Cruz Valley, 
without question. There are a number of routes, and I put a map 
on my testimony so that you can look at these routes formally. 
But there is a gas line down that runs north and south to the 
Santa Cruz Valley around the checkpoint. There is a power line 
that runs north and south around the checkpoint. There is the 
Santa Cruz River, which provides a great deal of canopy and 
cover for anybody involved in illegal activity to circumvent 
the checkpoint, to get around it.
    Again, that is where our communities are, that is where our 
subdivisions are, that is where our businesses are, and people 
live in those areas. So this policy of actually putting people 
in direct contact with those who are involved in illegal 
activity is, frankly, mind-boggling to me.
    We have to deal with it every day. I have had people show 
up at my home. I live in a subdivision just west of the 
checkpoint, a little bit west of the gas line. I have had 
individuals show up at my front door who are bleeding all over, 
who have been shot. They were apparently in some kind of an 
altercation with rival gangs, trying to steal the drugs they 
were bringing across.
    I have talked to businessmen time after time about people 
who are just simply concerned about coming south of the 
checkpoint. In many cases--and I know this sounds--there might 
be some that are skeptical about this, but there are people who 
won't come down to our particular area because they think they 
need a passport to get, ``back into the United States.''
    Or they are afraid to go through the checkpoint simply 
because they are not used to that level of, I will use the term 
``militarization.'' Someone from Wisconsin who comes down to 
the Tubac Golf Resort, as an example, to play golf or play in a 
golf tournament or have a luncheon or go to a convention, and 
they have to go back through the checkpoint, for the first time 
for most of them in their lives, they are exposed to drug-
sniffing dogs, they are exposed to people with semiautomatic 
weapons strapped across their chests, they are exposed to maybe 
having to go to secondary and have their car looked at more 
carefully. So, when they are making a determination on where to 
go for an event, where to go for a conference, where to go even 
for a wedding, and they think about having to go back through 
that checkpoint, or their guests, many of them are just opting 
not to even come down. They are just going to stay north of the 
checkpoint at some point.
    I fully recognize what the chief said earlier. They have a 
tough job. I want to reiterate that the vast majority of people 
in the Santa Cruz Valley fully support our Border Patrol, fully 
support the tough job that they have to do. They have a very 
difficult job and one that carries with it a lot of risk.
    However, having said that, this multi-layered, multi-tiered 
checkpoint strategy has had tremendous negative impacts on 
those communities both north and south of the border. The 
staging that takes place once they get across the border, 
meaning staging up to decide how they are going to flank that 
particular facility, puts them in our communities on oftentimes 
a long-term basis, not minutes or hours but days. Then the 
activity of actually flanking the checkpoint puts them 
oftentimes in direct contact with those of us who do business 
or who live there--another risk.
    I don't want to miss our friends to the north of the 
checkpoint, primarily in the communities of Green Valley and 
Sahuarita. They, too, have an impact. When those involved in 
illegal activity flank the checkpoint, come around, then they 
reload in those communities. That is where they reengage with 
their rides going further north. That reconnecting puts people 
at risk.
    I know one hotelier in the Green Valley area, just as an 
example, who has lost tremendous amounts of business. 
Unfortunately, there is large wash directly behind his hotel 
that is one of these reconnection points. You can imagine, as 
people are sitting in their hotel room looking down, observing 
all of this activity going on, they have, again, just decided 
not to come to that particular facility.
    The high-speed chases that oftentimes are the result of 
Border Patrol trying to do their job, trying to catch those 
involved in illegal activity, circumventing the checkpoint.
    So, whether you are in the area south of the checkpoint, in 
the area where things are staged, whether you are in the area 
immediately surrounding the checkpoint, where those involved in 
illegal activity are flanking, or whether you are north of the 
checkpoint, where those that have gotten past the checkpoint 
then reconnect with their rides, it has created a tremendous 
number of consequences for those of us that live in that 
community.
    I had said earlier, or I said in my written testimony----
    Ms. McSally. If you could wrap it up. We are over time.
    Mr. Brasher. Absolutely. I am sorry.
    Ms. McSally. It is OK.
    Mr. Brasher. With that said, I will just simply say that I 
appreciate the opportunity to be here today and to speak with 
you. The impacts, whether intended or not, are very real for 
those of us that live in the area.
    Thank you.
    [The prepared statement of Mr. Brasher follows:]
                 Prepared Statement of Gary P. Brasher
                           September 13, 2016
                              introduction
    Chairman McSally, Ranking Member Vela, and Members of the 
committee, my name is Gary Brasher and I am the regional president and 
associate broker with Russ Lyon/Sotheby's International Realty in 
Tubac, Arizona. I am also the president and part owner of several other 
businesses serving Santa Cruz County including a water company, a 
grocery store, a communications company providing internet and cable 
services, and a recreational facility. In short, I am a private 
businessman who has lived and served in the community for over 34 
years.
    By way of background, I am a 5th generation native Arizonan married 
to my wife, Tracey, and together we have 4 children and 6 
grandchildren, all of whom live in the Santa Cruz Valley. Prior to my 
real estate career, I worked for the Federal Bureau of Investigation in 
both the Denver and Phoenix field offices.
    After leaving the Bureau, I moved to the Santa Cruz Valley in 1983 
and began my business career. During my 34 years in the Valley I have 
served as president of the Tubac Chamber of Commerce, president of the 
Santa Cruz Valley Citizens Council, and am currently serving as vice-
chair of the Green Valley Chamber of Commerce, a position I have held 
for the last 7 years. I was appointed by the Governor and am serving as 
co-chair of the Arizona Mexico Commission Real Estate Committee for 12 
years, as well as serving on the Groundwater Users Advisory Board for 
Santa Cruz County for the last 6 years. I was also on Congresswoman 
Gifford's Checkpoint Study group that was established years ago to work 
with the Border Patrol (BP) on the very issues I am testifying on 
today.
    I share this background only to highlight several things: My 
family's roots run deep in Arizona, the State I love. My history in the 
Santa Cruz Valley has been in large part formed by community service, 
working with partners on both sides of the border to generate trade and 
good working relationships. Finally, I want to underscore that I'm 
certainly in favor of strong law enforcement.
    Over the years my partners and I have invested significantly in 
building homes, developing lots, and serving a variety of community 
needs through our businesses. Having a safe, pro-business/tourism 
environment is critical to our communities in the Santa Cruz Valley. 
Towards that end, I'm grateful for the opportunity to share this 
testimony with this distinguished committee.
    Having lived, worked, and been involved in the community for over 3 
decades I have had the opportunity to observe the ``defense-in-depth'' 
strategy promoted by the Border Patrol leadership on a first-hand 
basis. I want to say at the outset that I recognize the BP has a very 
difficult job and one that includes many risk factors. In short, they 
have a tough job! I know I speak for our entire region when I say that 
we collectively appreciate what the BP does and, for the most part, the 
manner in which they do it.
    That said however, there are a number of areas where I know the BP 
strategies have had significant negative impacts on the communities 
they serve. Perhaps these strategies simply have unintended 
consequences. However, unintended or not, the consequences of the 
defense-in-depth strategy to those of us who live and work in the 
region is significant.
                defense-in-depth the checkpoint strategy
    The Arizona Tucson Sector has approximately 261 linear miles of 
border with Mexico which the BP has indicated cannot be secured. Their 
response to the purported impossibility of defending this 261-mile line 
is the ``defense-in-depth'' strategy. I have spoken to BP personnel on 
many occasions and this strategy has been communicated to me using the 
following ``football'' analogy.
    The defense-in-depth checkpoint strategy is a three-tier defense 
strategy. Using their football analogy this strategy involves BP 
placing resources: (a) At the border (front defensive line), (b) near 
the border patrolling the area in mobile units (linebackers), and (c) 
at permanent or mobile checkpoints (defensive backs). BP leadership has 
indicated this approach gives them the best opportunity for success.
    To respond to this analogy and from my personal experience as a 
defensive back for the 1976 Big Eight Champion Colorado Buffalo 
football team, the defense-in-depth strategy is like asking your 
defensive backs to stand in one location with their arms stretched out 
and hope the offense will run right into them. When I asked my former 
coach and former head coach for the Minnesota Vikings for his thoughts 
regarding this strategy, he said, ``An NFL coach would not last a week 
in the league implementing an approach like this.''
    In the initial portions of this testimony, I will discuss the 
ramifications of the defense-in-depth strategy from my personal 
observations, as well as from listening to the experiences of others 
who live and work in the communities south of the checkpoint. In my 
final portion, I will address some of the current approaches which the 
BP is undertaking with positive results. If expanded, I believe these 
approaches and strategies will better secure our border by placing more 
resources at the border.
 ramifications of the defense-in-depth strategy staging, flanking, and 
                               re-loading
    The defense-in-depth strategy is essentially a moving or relocation 
of the border to a checkpoint 25 miles north of the actual border with 
Mexico. This new ``line of scrimmage'' increases the area the Tucson 
Sector BP must defend from the 261 linear miles of actual border with 
Mexico to over 6,500 square miles. You can clearly see the challenge 
this creates by expanding or moving the ``line of scrimmage.'' For 
every mile of movement north, it exponentially increases the affected 
area. (25 miles to the checkpoint261 miles of border=6,525 square 
miles of territory to secure).
    When checkpoints are established such a great distance from the 
actual border, it creates a ``no-man's land'' between the real border 
and the checkpoint. In other words, those involved in illegal 
activities making it across the real border are now in the United 
States with relative freedom and time to ``stage'' their next move, 
which is taking the illegal contraband and/or drugs around the 
checkpoints. By flanking the checkpoints they are able to move their 
contraband to points further north. Unfortunately this ``no-man's'' 
land is where we live and work and our children go to school.
    If you look at Exhibit A in your packet you will clearly see there 
are a number of paths around the Interstate-19 (I-19) checkpoint, along 
with many more that are not so obvious. The clear routes around the 
checkpoint are the railroad tracks, the Santa Cruz River, the power 
line and the El Paso Natural Gas line. These routes all provide an 
opportunity for those involved in illegal activities to move north and 
stay off the major transportation corridor, I-19.
    The less obvious routes used to circumvent the checkpoint are the 
numerous back roads, ranch roads, paths, and trails through the 
Coronado National Forest and surrounding Bureau of Land Management and 
private lands. The ``flanking'' activity takes place in the communities 
between the border and checkpoint--the ``no-man's land'' that I 
referred to earlier.
    Unfortunately the areas used to flank the checkpoint are also the 
very communities, developments, and subdivisions where our residents 
live and work. In these areas, because of the flanking activity, we 
have experienced too many instances of shootings, high-speed chases, 
and school lockdowns. Sadly, this is an intentional outcome of the 
checkpoint strategy.
    Several years ago, Chief Gilbert, sector chief for the Tucson 
Sector, indicated at a public meeting that part of the strategy of the 
checkpoints was to ``force'' those involved in illegal activities into 
the surrounding areas where they would be easier to catch.
    In fact, GAO (2005) confirmed the BP strategy of pushing illegal 
activity around the checkpoint.

``The Border Patrol uses interior traffic checkpoints as a third layer 
of defense and deterrence against potential terrorists and their 
weapons, contraband smugglers, and persons who have entered the country 
illegally.
``According to Border Patrol, permanent and tactical checkpoints are 
part of an integrated, multi-layered enforcement strategy intended to 
achieve two key law enforcement objectives:
    1. to increase the likelihood of detection and apprehension of 
        illegal entrants of all types and thereby to deter other 
        potential illegal entrants from attempting to enter the 
        country, who might otherwise believe that successfully crossing 
        the border would mean that there were no further barriers to 
        them and
    2. to deter illegal entrants from transiting through permanent 
        checkpoints on major roadways, through fear of detection and 
        thereby to cause them to use less traveled secondary roads on 
        which the Border Patrol is able to stop all or almost all 
        vehicles making illegal entrants more visible and easier to 
        detect and apprehend.'' (pp. 15-16)

    These ``secondary roads'' and other areas are where we live and 
work! This places civilians in the direct path of smugglers and the law 
enforcement agencies pursuing them!
    I have to say, I have never experienced a law enforcement strategy 
which purposely puts people involved in illegal activity in direct 
contact with law-abiding citizens and actually calls such an action ``a 
cogent strategy.''
    I can testify first-hand to the consequences of the flanking 
activity by drug cartels using these secondary roads and trails to move 
their contraband.
  <bullet> I have had individuals, who were shot by rival gangs as they 
        moved drugs north through my neighborhood, show up at my front 
        door seeking medical attention.
  <bullet> I have found a dead body in this area--that of an individual 
        who was shot in a deal that apparently went bad while trying to 
        ``stage up'' before moving drugs around the checkpoint.
  <bullet> When our daughters were growing up, I frequently experienced 
        that knot you get in your stomach as a parent when your 
        children are coming home late at night, alone in their 
        vehicles. That's because I learned that late night is when many 
        of the cartels come alive and start their flanking activities. 
        For me, it got to the point where I told our daughters that I 
        would meet them, no matter the time, off the freeway 
        interchange near our residence and have them follow me home to 
        insure their safety.
    Areas north of the checkpoint are also placed at risk because of 
the defense-in-depth checkpoint strategy. These are the areas where the 
``re-loading'' takes place, the process by which the smugglers ``re-
connect'' with their rides to continue their travel north of the 
checkpoint once they have successfully flanked it.
    Being the vice-chair of the Green Valley Chamber for over 7 years 
has given me a new appreciation for and insight into the tremendous 
challenges faced by our neighbors north of the checkpoint. Businesses 
and homeowners in these northern areas have reported ``high speed 
chases'' in their neighborhoods when BP tries to interdict the flanking 
and re-loading activity.
    I know of one hotel owner in Green Valley whose property borders a 
wash that has become a major pick-up point north of the checkpoint. He 
reports a loss of business because his clients state they don't want to 
stay in an area so near to drug activity.
    In another instance, a high speed chase resulted in the pursued 
vehicle steering off the road to avoid arrest and eventually driving 
right into the bedroom wall of a home. Had the vehicle crashed into 
this home a foot or so differently, it would have surely hit the 
residents who were in their bedroom asleep at the time.
    These personal stories and experiences are told by others in the 
community and are also documented in several in-depth examinations of 
the effectiveness and impacts of the BP's defense-in-depth checkpoint 
strategy, a strategy that calls for moving or re-locating the border 25 
or so miles from the actual border by using fixed checkpoints like the 
one on I-19.
    Residents of the communities affected feel this strategy 
underestimates the intelligence of the enemy we are fighting. The 
assumption that these criminals will not circumvent fixed checkpoints 
and traverse through our neighborhoods, ranches, communities, and 
public lands is not based in reality.
          government studies question checkpoint effectivness
    GAO continues to report concerns over Border Patrol's lack of 
sufficient data resulting in its inability to examine the effectiveness 
of its defense-in-depth checkpoint strategy (GAO, 2009; GAO, 2012).
    In 2009, GAO reported that Border Patrol was proceeding with 
checkpoint construction without adequate information on the 
effectiveness of checkpoints and its adverse impacts on the public 
safety and quality of life for Southern Arizonans. GAO found that there 
were ``information gaps and reporting issues'' because of insufficient 
data. Thus, the agency was unable to compare the cost-effectiveness of 
checkpoints to other strategies. Further, it reported that Border 
Patrol had misrepresented its checkpoint performance.
    Again in 2012, GAO reported that because of data limitations the 
Border Patrol was unable to compare the effectiveness of how resources 
are deployed among sectors. Each sector collects and reports the data 
differently thus precluding comparison. Policy makers and Border Patrol 
leadership are unable to effectively assess the effectiveness of 
tactics such as checkpoints and yet Border Patrol continues to call 
checkpoints critical to their defense-in-depth strategy.
    In spite of concerns for the comparability of the data among 
strategies or sectors, GAO (2009) reported specific data for the I-19 
checkpoint.
  <bullet> ``94% of all apprehensions of illegal immigrants in the 
        vicinity of the I-19 checkpoint occurred in the areas 
        surrounding the checkpoint, while only 6% took place at the 
        checkpoint itself.''
    These statistics make it clear the checkpoint is driving criminal 
activities into the area surrounding the checkpoint.
               impacts on real estate values and business
    In September 2014, the Udall Center for Studies in Public Policy at 
the University of Arizona, working on behalf of the National Center for 
Border Security and Immigration, published its study on the impacts of 
the I-19 checkpoint on the surrounding communities. They found the I-19 
checkpoint is having a significant impact on the property values of the 
community surrounding the I-19 facility.
    Researchers reported: ``After the checkpoint canopy was installed 
property values in Tubac/Rio Rico decreased approximately $2,769 per 3-
month period or $11,076 per year'' (p. 31) when compared to the values 
of properties north of the checkpoint over the same time period.
    Given that the checkpoint was operational in 2008 and this report 
was completed in 2014, you can see the significant effect this annual 
reduction in Tubac/Rio Rico property values has had and frankly 
continues to have to this very day.
    Tourism is a major economic driver in Arizona. The Arizona Office 
of Tourism reports that tourism spending generates $3.6 billion in 
economic activity annually and employs over 30,000 individuals in 
southern Arizona alone.
    Tubac, a rural community 20 miles from the border and only about 3 
miles south of the I-19 checkpoint, has been a major tourist 
destination due to its abundant historical, cultural, artistic and 
recreational resources. However, we know of many visitors and potential 
residents who have cancelled vacations or real estate purchases due to 
concerns about the permanent checkpoint.
    There are literally hundreds of personal stories about individuals 
who were thinking about coming to Tubac for everything from a simple 
dinner to a wedding or convention, yet decided to go elsewhere because 
they didn't want to experience the ``militarized'' checkpoint. For 
them, it's the daunting thought of returning home from Tubac only to be 
stopped 3 miles north on the major inter-State highway at a Department 
of Homeland Security checkpoint. The driver and others in the car are 
asked by a uniformed officer if they are U.S. citizens while drug-
sniffing dogs smell the exterior of the vehicle as it moves along. On 
the right, suspicious vehicles are dismantled and searched while the 
driver and occupants watch while they are detained nearby.
    As the former president of the Tubac Chamber of Commerce I can 
attest to the number of phone calls the Chamber has received over the 
years asking everything from, ``Is it safe in Tubac?'' to, ``Will I 
need to bring my passport to get back in the United States?"
    Some of the concerns expressed by those wishing to visit the area 
are so subtle. Just recently I came to learn about a young woman who 
had recently had a small child. The young woman's mother invited her to 
have lunch with her at the Tubac Golf Resort, located about 2 miles 
south of the checkpoint.
    The daughter joined her for lunch, but was worried sick about what 
was going to happen when she went back through the checkpoint. She 
didn't know if she should bring her child's birth certificate or if she 
was going to have to prove citizenship some other way? I understand 
stories such as this might be met with skepticism by some, but my point 
is that the impacts on our community in some cases are tangible and 
statistical and easy to see, while others are subtle and insidious and 
not nearly so obvious, but just as harmful to the overall economy of 
the area.
    In addition to the clear negative impacts of the checkpoints on 
tourism, property values, business, and overall commerce in the area, 
the flanking and circumventing of the checkpoints also impact 
significantly on our farming and ranching communities as well as our 
public lands. The defense-in-depth strategy has caused considerable 
interruption for ranching and farming operations, including:
  <bullet> Ranch fences are cut
  <bullet> High-speed chases occur across private land as BP tries to 
        apprehend individuals going around the checkpoints
  <bullet> Livestock are buzzed by low-flying helicopters operated by 
        the BP.
    Furthermore, many of our National Forest and BLM areas are speckled 
with signs that read, ``Drug smuggling activity in the area. Please use 
caution.'' Can you imagine the impact this sign would have on a group 
who may wish to come to the area to enjoy some of our most treasured 
natural, open spaces such as Madera Canyon or Patagonia State Park? Or, 
imagine a Boy or Girl Scout troop who wants to come to the area for an 
outing. What scout leader in their right mind would take a group of 
young people into an area posted with signs such as this?
    I'd like to make a final personal observation on this matter. As 
just one voice in a crowd of voices on this topic and one who is proud 
of our country and all for which it stands, I believe one of the 
greatest threats we face as a Nation, if not THE greatest threat, is 
the accumulating debt the United States incurs each year and the 
interest being calculated on this debt. With our National debt clock 
nearing $18 trillion and rising at an unprecedented pace, it seems we 
are way past the time to look carefully at every dollar spent and every 
resource expended in order to make sure we are getting the greatest 
gain for our dollars.
    I can think of few greater goals than protecting our Nation's 
borders. However, I don't believe any agency is above having to sharpen 
their pencils and make sure we as a Nation are getting the greatest 
benefit for the money with which they are entrusted.
    From reading the various GAO reports referenced in this testimony, 
it appears the BP has not been held to the same standard that any 
family or business in this country has to face every day. Do the number 
of personnel, vehicles, technology, and other resources being spent at 
the I-19 Checkpoint justify the results? With only 6% of all 
interdictions of those who enter the country for an illegal purpose 
being caught at the checkpoint, speaking as one citizen, I believe it 
is time to ``redeploy'' resources and compress our interdiction efforts 
as close to the border, if not at the border. In a word, I believe it 
is time to move the ``line of scrimmage'' back to our border with 
Mexico.
                  potentially promising bp strategies
    I believe the foregoing begs the question, ``What can be done to 
better secure our border while making the best use of our resources?''
    It seems the BP has seen positive results by utilizing a variety of 
different enforcement tactics at the actual border. Though skeptics may 
question claims of success given BP's track-record on data collection, 
I and others in our communities believe these strategies hold 
significant promise and can be expanded throughout the Sector. Further 
to this point, these tactics have the potential for a much less 
negative impact on our communities than the current three-tier 
strategy.
    Components of these tactics include, but are not limited to, 
utilizing:
    1. Areal drones for observation and communication with enforcement 
        officers on the ground.
    2. Vehicle barriers at the border to block likely paths utilized by 
        smugglers with all-terrain vehicles crossing the border.
    3. Roving and/or non-permanent checkpoints at pre-determined 
        locations.
    4. Forward Operating Bases (FOBs)--continuing the use of FOBs for 
        those areas of the border that are particularly rough or 
        possess difficult terrain.
    5. Enhanced communications--enabling agencies (Sheriff's Office, 
        ICE, BP, and police) to share intelligence AND communicate with 
        one another in the field using the same radio frequency.
    6. Enhanced infrared technology at the border including the use of 
        virtual fencing.
    In other words, I urge you to take the resources devoted to the 
``stationary,'' third-tier checkpoint that accounts for only 6% of all 
apprehensions, and devote them toward building a stronger, more robust, 
more ``mobile'' second-tier in which 94% of all apprehensions occur. 
Eventually, with success and compression of efforts toward creating a 
defendable single-tier strategy, we can once again stand confident in 
our ability to secure our borders at the border.
                                summary
    Members of the committee, thank you for the opportunity to briefly 
share with you today my thoughts, observations, and experiences 
regarding the defense-in-depth strategy. As I shared at the outset, I 
am a supporter of the BP. Having a law enforcement background, myself, 
and coming from a military family (my father retired as Major General) 
I understand the need for strategy and policy. However, as a private 
businessman I also understand the need to be open to new ideas, to 
remain fluid, and to remain aware of your competition or, in this case, 
our country's enemies, whether they are terrorists trying to enter the 
United States or those who continue to erode our culture and society 
with drugs.
    We are united in our collective goals to provide a safe environment 
for ourselves, our families, our employees, and our fellow citizens. We 
can disagree on policy and approach, but at the end of the day we all 
want a safer and more secure border and a better America. It is from 
that perspective that I offer this testimony. Again, thank you for 
allowing me to appear here today.
                                sources
J. Jenkins, J. Proudfoot, J. Marquardson, J. Gans, E. Golob, and J. 
Nunamaker. (September, 2014). Checking on checkpoints: An assessment of 
U.S. Border Patrol checkpoint operations, performance, and impacts. 
National Center for Border Security and Immigration (BORDERS): 
University of Arizona.
U.S. Government Accountability Office (GAO), (July, 2005). Border 
Patrol: Available data on interior checkpoints suggest differences in 
sector performance. Report to Congressional Requestors, GAO-05-435.
U.S. Government Accountability Office (GAO), (August, 2009). Border 
Patrol: Checkpoints to contribute toward Border Patrol's mission, but 
more consistent data collection and performance measurement could 
improve effectiveness. Report to Congressional Requestors, GAO-09-824.
U.S. Government Accountability Office (GAO), (December, 2012). Key 
elements of new strategic plan not yet in place to inform border 
security status and resource needs. Report to Congressional Requestors, 
GAO-13-25.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. McSally. Great. Thanks, Mr. Brasher. We will get more 
in the discussion, but thanks for the testimony.
    The Chair now recognizes Ms. Davis for 5 minutes.

           STATEMENT OF PEGGY DAVIS, PRIVATE CITIZEN

    Ms. Davis. Yes, Chairman McSally, Members of the committee, 
I thank you for the opportunity today.
    Border checkpoints are not always staffed, and they are not 
always open. If the resources used to staff them were directly 
at the border, then they would interdict illegal activity 
before it actually reaches the interior.
    Our ranch is 25 miles north, and our family has been in 
Cochise County since 1867. We have always had some illegals, 
but in 1986 we saw hordes of them and a change in their 
attitude. They began to be destructive. They cut fences, 
drained waterlines, killed animals, robbed homes, stole 
vehicles, trampled grass, and left tons of trash.
    In the trash, we have found plastic, backpacks, blankets, 
diapers, hypodermic needles, medicines, human waste, and 
pregnancy tests. Trash from Mexico is hazardous to us and has 
killed cows because they eat blankets and plastic bags. By 
1995, the trash was out of control, so the county hauled away 
16 dumptruck loads just from a small area on our ranch. That is 
just one example.
    Environmental damage is extensive on the border. Illegals 
came through by the millions. They trampled grazing land, 
destroyed foliage, drained millions of gallons of water used by 
wildlife. The damage has changed the landscape. Footpaths 
caused soil erosion when the rains came. Wildlife waters were 
destroyed because of human waste.
    The Tucson sector chief at the time, David Aguilar, was the 
architect of the defense-in-depth strategy. In 2000, he 
actually came to our home and explained that Operation Hold the 
Line in El Paso focused on intercepting and preventing illegal 
entries at the border, and Operation Gatekeeper in San Diego 
proved to be very effective. This forced the illegal activity 
into the rural areas of Arizona. The plan was designed to 
secure the cities, where they have seconds or minutes to catch 
illegals, but instead of putting agents near the border in the 
rural areas, they would be deployed 25 miles or more north of 
the border to allow hours or days to catch them.
    If the El Paso plan worked so well, then why doesn't the 
Border Patrol do the same thing in the rural areas, I ask. 
Residents along the border have begged for agents to be on the 
border for over 15 years. Even though the success of Hold the 
Line and Gatekeeper were due to stopping the flow of illegal 
traffic directly at the border, we have been told that it would 
not work or that it was too dangerous. If the border is too 
dangerous for agents, then why is it not too dangerous for 
residents?
    Chief Aguilar made the following statement to the Arizona 
Republic: ``The border it not a defined line but a corridor 
between the U.S. and Mexico.'' This corridor is at least 30 
miles inside the interior. How can a Government official state 
that the border is not a boundary?
    We hear repeatedly that agents are on the border, but when 
Border Patrol refers to agents on the border, they are actually 
referring to the 30-plus-mile corridor instead of the 
international boundary.
    In 2010, our friend Robert Krentz was murdered on his own 
property 30 miles north of the border. Rob stopped to help an 
illegal pretending to be injured. As he stopped, the man shot 
him.
    The checkpoint nearest to me is 15 miles north and is open 
only if weather permits. Another is rarely open. Being the 
checkpoints cannot be manned 24/7, those agents should be 
deployed very close to the border instead.
    John Ladd's ranch is on the border with 10 miles of 13-foot 
metal wall fencing and $42 million of government 
infrastructure. Drug cartels frequently cut the fence and drive 
their loads 3 miles north to the nearest highway; then they 
drive back through the opening in the fence. Sometimes they 
even weld it back in place. In a 26-month time period, 54 
trucks have accomplished this task and only 1 was caught.
    The Brian Terry station was only 4 miles away. Brian Terry 
was also inside Aguilar's corridor when he was killed. Cartel 
scouts camp on mountains within Aguilar's corridor and report 
Border Patrol activities to the drug cartel.
    The San Pedro River runs out of Mexico into the United 
States, and across the river is a 3-mile strand barbed wire 
fence. Occasionally, one agent is watching this quarter-mile 
area. For 3 to 4 months in the summer, floodgates are raised in 
the border fence to allow floodwater out of Mexico into the 
U.S. Border Patrol covers the holes in the fence with just 
three strands of barbed wire, and anyone can walk in.
    Signs, such as this one, are not uncommon in the corridor. 
I am aghast that our border is so poorly protected that these 
signs are necessary.
    Diversionary fires in Aguilar's corridor have been set by 
drug runners. They have destroyed hundreds of thousands of 
acres of forest, grassland, wildlife, and homes. Also, land 
values have dropped to about half of their previous value.
    In closing, checkpoints would not be necessary if the 
Agents were on the border. I have additional comments and 
examples in my written record. I thank you for your time.
    I just want to say that I do respect the Border Patrol and 
the daunting task that they have on a daily basis. I just think 
that it is time to move on and change the strategy.
    Thank you.
    [The prepared statement of Ms. Davis follows:]
                   Prepared Statement of Peggy Davis
                           September 13, 2016
    Since 1924 the men and women of the U.S. Border Patrol have been 
asked to protect the United States border from all enemies, foreign and 
domestic. This is the first line of the Holding the Line in the 21st 
Century USBP handbook. While I realize it is a stretch to say that 
illegal traffic from south of the border are enemies, my argument 
remains that these people are no less than invaders. My statement is, 
and always will be that if you enter this country illegally, your very 
first act is an unlawful one. By breaking the first law of the land, 
how would we expect these people to respect any other law in America? 
Many of them don't.
    The Border Patrol checkpoints, while they probably catch some 
illegal drugs are not always staffed and are not always open. If the 
resources used to staff the checkpoints were directly AT the 
international boundary it stands to reason that they would deter or 
interdict the drugs before they actually get into the interior.
    Our family ranch is 12 miles southeast of Tombstone, Arizona and 
lies 25 miles north of the Mexican border. My husband's family has been 
in Cochise County, Arizona since 1867. For many years we lived 
peaceably with people from Mexico who traveled through from time to 
time. We had a mutual respect for each other and showed compassion when 
either of us needed help. However, after 1986 we began to see a 
significant change in the attitudes of the people illegally coming 
north. They began to be disrespectful of our property and sometimes 
confrontational. They cut fences, drained water tanks, killed animals, 
robbed our home, slept in our barn, stole a vehicle, trampled the grass 
for our cattle, and left literally tons of trash. In this trash we find 
plastic bottles, backpacks, plastic bags, blankets, clothing, diapers, 
feminine hygiene products, cell phone chargers, rotting food, 
hypodermic needles, medicines, human waste, and pregnancy tests. 
Abandoned cars and van seats are regularly left in pastures or along 
the roads. There has been every gender and age that crossed through our 
property. Picking up this trash was a health hazard for us and 
ingesting it is not healthy for our livestock. More than once we have 
found dead cows because they tried to eat plastic bags or acrylic 
blankets. When cattle try to eat these things, they can't digest them 
so they die a long and miserable death.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In 1995 the trash left by illegal aliens in southern Arizona was 
out of control. At our ranch alone we have a draw that was a major path 
that they took on their way north. Because it was a low place that 
wasn't easily seen, illegal aliens used it as their trash dumpster. 
Cochise County sent some at-risk kids to pick up trash. They hauled 
away 16 dump truck loads in one session. Every other rancher has a 
similar story to tell. Keep in mind that our ranch is 25 miles north of 
the international boundary. The trash left behind is a health hazard 
for everyone, not just our cattle. My family has personally picked up 
countless truck loads, not knowing what kind of health hazards we might 
face.
    Because of the volume of illegal traffic across our property from 
1986 to the present, the environmental damage in the borderlands has 
been extensive. Illegal crossers came through southern Arizona by the 
millions. In their wake they trampled valuable grazing land, destroyed 
fragile foliage and cacti, drained tens of thousands of gallons of 
stock water used by wildlife, cut fences and left tons of trash. The 
damage left behind has changed the landscape in many places. Foot paths 
caused soil erosion when the rains came in the summer. Some of the 
water holes for wildlife were left unusable because of human waste.
    In 2000 David Aguilar, then Tucson Sector Chief and who later 
served as the U.S. Chief of the Border Patrol from 2004-2010, had 
reached out to the ranchers in our area who had been experiencing daily 
illegal traffic and vandalism for several years. He brought with him 
two of his superiors from the San Diego Sector to our home. They 
explained that Operation Hold the Line in El Paso in 1993, which 
focused on intercepting and preventing illegal entries at the border, 
and Operation Gatekeeper in San Diego proved to be very effective in 
curtailing the flow into their areas. This forced the illegal activity 
by alien crossers into the rural areas of Arizona. Chief Aguilar was 
the architect of the Holding the Line Strategic Handbook which outlines 
the Defense-in-Depth Strategy. The Chief explained that the plan is 
designed to secure the cities, which are the most populated areas. In 
the cities they only have seconds or minutes to catch illegals before 
they disappear into society. This forces illegal traffic into the rural 
areas. However, instead of putting agents near the international 
boundary in the rural areas, they would be deployed 25 plus miles north 
of the border to allow hours or days to catch those who crossed the 
border illegally! I distinctly remember Chief Aguilar asking me what I 
thought about this plan. I replied that I thought it was the dumbest 
idea I had ever heard. I shared my thoughts with him about how 
nonsensical it was to allow aliens to get well inside of the actual 
border instead of catching them right at the boundary line like they 
had been doing in El Paso. I asked, if the El Paso plan worked so well, 
then why doesn't the Border Patrol do the same thing in the rural 
areas? I received no answer. Time has proven that aliens will go 
anywhere they need to go to avoid detection. This failed strategy has 
forced illegal aliens into the rural areas of Arizona where ranchers 
and other rural residents have become the first line of defense because 
the majority of the Border Patrol agents are north of where we live! 
Ranchers and residents along the border have begged for agents on the 
border for over 15 years. Even though the success of Hold the Line and 
Gatekeeper were largely due to stopping the flow of illegal traffic 
directly at the border, we have been told repeatedly for the last 15 
years that ``it would not work''. Later in 2011, Border Patrol Council 
President T.J. Bonner admitted to several ranchers on a Congressional 
conference call that the council did not want Agents to patrol at the 
border because it was too dangerous. I submit to Congress that if the 
border is too dangerous for agents, then why is it not too dangerous 
for residents? We have become sacrificial lambs.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In 2010, Chief Aguilar made the following statement to the Arizona 
Republic newspaper: The border is not a defined line, but a corridor 
between the United States and Mexico. This ``corridor'' Chief Aguilar 
eludes to is 30 to 100 miles inside the interior of the United States. 
How can a Government official have the audacity to state that the 
border is not a boundary? We hear repeatedly that agents ARE on the 
border, when we know that isn't a fact. When Border Patrol refers to 
agents on the border, they are actually referring to the 25-30 mile 
``corridor'' instead of the actual international boundary. I maintain 
that Mexico definitely has a boundary and their immigration laws are 
tougher than ours.
    In 2010, our good friend, Rob Krentz was murdered on his own 
property 30 miles north of the border. Rob was a humanitarian and 
stopped to render aid to an illegal that was pretending to be injured. 
As he stopped to try to help, the man shot him and his dog. Evidence 
showed that the man was an illegal drug runner who had robbed at least 
two nearby residents on his way south. At one place he stole a gun, 
which he used to shoot Rob. Further on, he stole food. The food 
wrappers were found at the murder location. The day of Rob's murder 
there were no Border Patrol Agents nearby. It took the Sheriff's 
department over 12 hours to find his body.
    My personal opinion is that rural residents are expendable to those 
in power. We aren't many votes and our land and livelihoods are not 
important to most of the population. Keeping the cities and highways 
patrolled allows for the majority of the population to feel safe, thus 
securing more votes.
    Border Patrol checkpoints, while they may catch some illegal drugs 
are not very valuable as a deterrent tool. For example, the checkpoint 
which is nearest to me is about 15 miles north. At this checkpoint 
there are no less than 10 Border Patrol vehicles on any given day 
parked there. There are usually two or three agents stopping cars and 
sometimes there is also a drug dog. The checkpoint is open only if 
weather permits! If there are high winds or rain, the checkpoint is 
immediately closed. Drug traffickers only need to look at the weather 
report to determine if it is safe to avoid detection.
    On Highway 191 30 miles north of Douglas there is a checkpoint 
which is rarely open, even when the weather is good. We travel through 
this a few times per week, and we estimate that it is open less than 
25% of the time. We are told that they are understaffed. In order for 
checkpoints to do any good, they must remain open 24/7, and they 
shouldn't close because of inclement weather. When we asked about why 
they close when it is rainy or windy, we were told it was because it 
was a danger to the Agents. I fail to see how. In short, perhaps if the 
checkpoints cannot be manned 24/7, those Agents should be deployed at 
the border instead of having checkpoints.
    That being said, there is NOT a checkpoint at all on Highway 80 
traveling north of Douglas, Arizona through the San Bernardino Valley; 
a remote area of southern Arizona which is the main drug trafficking 
route out of Sonora, Mexico. This is also the area where the Krentz 
Ranch is located and where Rob was murdered. Residents in this area are 
vandalized and threatened on a regular basis. There are very few agents 
on the international boundary stopping illegal crossers from entering, 
so they have a free ride into the interior. After they drop their load, 
they rob and vandalize on their way back south. One homeowner near 
Portal had been robbed over 100 times. At this point their home had 
lost so much value that they couldn't sell it. They had to walk away 
and abandon it. In addition, drug traffickers on their way back south 
after they have dropped their load are told to rob as many residents as 
they can. With the majority of the agents north of them, they are free 
to do whatever they want on their way back across the border. We are 
told that they are threatened by the drug cartel that if they fail to 
steal as much money and firearms as they can, members of their families 
will be killed. This makes them very desperate, which was probably the 
case with the man who murdered Rob Krentz.
    The large checkpoint station on Interstate 19 from Nogales to 
Tucson is a sore subject for those people living nearby. There is a lot 
of traffic out of Nogales. Drug runners know that they will be stopped 
there, and it forces them into the outlying areas. I know people who 
live there and sometimes they find cartel members sitting in their yard 
furniture waiting for a ride.
    My son was robbed by drug traffickers who were on their way back 
south to cross back into Mexico. They took nearly everything he owned. 
They even pried up the boards on the floor of the house. After eating 
all of his food, they used his electric clippers, shaved their hair and 
left the hair in the entry way as a calling card. There were no agents 
nearby. The County Sheriff said that the hair that was left was sort of 
a message that they could come and go as they please, and to try to 
stop them would mean consequences.
    My husband found a dead body on our ranch in July 2012. The 
Sheriff's Department determined that it was the body of a drug runner. 
The man had on brand new Nike shoes and new clothes. His wallet 
contained a Bally's Fitness card. The cause of death could not be 
determined, but his backpack was empty. It is possible that he was not 
traveling alone and his companion took the drugs and/or money and left 
him for dead. All of my rancher friends have found one or more dead 
bodies on their property. Allowing them to come into Arizona instead of 
stopping them at the international boundary has created a humanitarian 
crisis for them. If they knew they couldn't cross illegally, then they 
wouldn't put their lives at risk.
    In January of 2001, my husband and I were out of the State, so our 
daughter came home from Tucson where she attended college at the 
University of Arizona, to check on our home and to feed our horses. It 
was snowing so she fed in a hurry and went back to our house. In a few 
minutes our dogs began to bark violently and she looked out the window 
to see what they were barking at. A man was standing in the front yard. 
He was wearing a nice leather bomber jacket and he yelled at her in 
English to open the door. Instead she cracked the window to ask him 
what he wanted. He replied that he and his friend, who he said was 
crippled, wanted a ride to town. She said that she couldn't give him a 
ride which made him angry. He said that his friend wanted to confront 
her when she was feeding the horses, but he wanted to wait to make sure 
she was alone first. This statement made her very nervous, so she said 
that she was not alone, but that her Dad was on another part of the 
ranch and was on his way home. At this point she told him that she 
could call the Border Patrol and he got even angrier. He began waving 
one arm and yelling at her, saying ``a Mexican would help me''. She 
picked up the phone to call for help and he left. She made three phone 
calls. The first one was to the Border Patrol who said they couldn't be 
there for about 45 minutes. Next she called the Sheriff's Department 
and she also called a friend who lived about 15 miles away. It was the 
friend who arrived first. The Sheriff's deputy arrived next, and the 
last to show up was the Border Patrol. After the Sheriff's deputy 
arrived, they concluded in their search of the outlying buildings on 
the ranch that a knife was missing from a butcher block. My daughter 
had noticed that the man wouldn't use but one arm while talking to her. 
The other hand he kept behind his back. We can only conclude that this 
man meant to do her harm when he got her alone. Obviously, both men got 
away. My daughter attended college with many people from the Middle 
East. Based on his statement that ``a Mexican would help me,'' and his 
appearance and accent, she concluded that he was not Mexican but from a 
Middle Eastern country.
    John Ladd's ranch is on the Mexican border. He has 10\1/2\ miles of 
border fence. On his ranch, the U.S. Government built a 13-foot metal 
wall with $42 million of infrastructure complete with cameras, lights, 
and sensors. Between April 2012 and August 2014, 54 times drug cartel 
members cut the fence with a saw or a torch, lay down the fencing, 
drove their drug load 3 miles north to highway 92 and drove back 
through the opening in the fence unmolested. If they had ample time, 
sometimes they would even weld it back in place. Only one was caught, 
and that was because the drug runner hit an embankment and deployed his 
air bag. It is important to note that the Brian Terry Border Patrol 
Station was only 4 miles away. If Agents were on the international 
boundary instead of 25 to 100 miles north these incidents would not 
have happened. Over the years, the Ladd Ranch estimates over half a 
million people have crossed his land. On their way through to a 
community near you, some of them cut his fences, killed livestock, left 
trash, and vandalized his home. Many ranchers feel as if they are 
prisoners in their own home.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Last year, fellow rancher Kelly Kimbro was driving from her ranch 
into Douglas, AZ along the border road. This is a very remote area. 
Suddenly she saw 13 men run out of the brush and into the road when 
they ran in front of her vehicle and forced her to stop. Needless to 
say, she was terrified. They jumped on the hood of her truck and into 
the back. She rolled her window down part way and spoke to them in 
Spanish. They answered her in English and explained they were from 
India, not Mexico, and they wanted her to call the Border Patrol so 
they could turn themselves in as refugees. Obviously there were no 
Agents on the border.
    On one occasion, my husband was out riding a horse on our ranch 
when he came upon 7 aliens. He told them in Spanish to stop. One of 
them ran up to him and grabbed his bridle reins, intending to pull him 
off of his horse. Confrontations like this are common among border 
residents.
    One time, a fellow rancher was driving his truck and horse trailer 
on his ranch road. When he stopped to open a gate, illegals jumped out 
of the brush, got in his pickup and drove off leaving him stranded with 
his truck, gun, phone, trailer, and horse stolen.
    One morning my husband went to our barn to do the chores and 13 
illegals were asleep in our barn. It wasn't uncommon to find one or two 
sleeping there.
    Last December near Animas, New Mexico drug runners kidnapped a man 
who worked for a local company who provided well service for ranchers 
in the area. They tied him up, threw him in the back of their truck 
with their load of drugs and forced him to guide them to Willcox, 
Arizona to deliver their load. When they were close to Willcox, he was 
blindfolded and left over night. The next day he was found and rescued. 
Had there been Agents near the border, this wouldn't have happened.
    Virtually every rancher I know who lives near the border has a 
horror story to tell similar to these. I don't know even one who has 
not been vandalized. I had to quit my job as a Mary Kay Sales Director 
because I needed to drive at night and the drug traffic made it unsafe 
to do so, and there is not adequate cell phone service where we live. I 
back my car in the garage so nobody can sneak in while I am closing the 
automatic door.
    Drug scouts frequently set up camp on the mountains of southern 
Arizona. They have sophisticated equipment that I am told puts ours to 
shame. Within Aguilar's ``corridor'' most of the Border Patrol is north 
of the scouts, but the few Agents in this area are easily located by 
the scouts and they pass on the information to the drug mules who can 
easily avoid the small number of Agents within this area. They know 
when shift changes occur, and this is usually the time when the drug 
runners have a green light to travel north.
    Another problem is that many of the Border Patrol stations are many 
miles north of the international boundary. Some are as much as 80 to 
100 miles north. Tucson, Casa Grande, and Willcox are three examples. 
More Forward Operating Bases are needed. A brand new one was built east 
of Douglas in an area that desperately needs it, but it is not in use.
    Those of us who live in proximity of the border see first-hand the 
failures of the Border Patrol. While we know the Agents would like to 
do their job, their hands are tied to bureaucratic and political 
decisions. Last year a few of us met with DHS Secretary Jeh Johnson. 
After recounting our examples he said that he knew we had problems. 
However, he also stated that he was appointed by the President and will 
support his policies. These policies do not help our cause; rather they 
increase the chance of further problems. Ranchers along the border have 
become the ``bad guys.'' We are labeled vigilantes and racists, which 
is far from the truth. I had personally provided shelter, food, and 
water, given medicine and care to hundreds of illegal crossers over the 
past 40 years. All of my fellow ranchers have done the same. I have 
never personally known a case of abuse by a rancher to an alien in all 
of those years. The Mexican people are our neighbors, but the strategy 
of our Government and the reluctance to enforce the law has created an 
atmosphere of animosity at times.
    I have read the entire Holding the Line Handbook, and I find it to 
be a fascinating work of fiction in places. For example, on Page 10 the 
Risk-Based Approach to apprehending illegal aliens is described as 
compared to NASA identifying the highest-risk areas near the 
International Space Station and how they can avoid space debris! These 
similarities are compared, even though space debris is hardly a living 
breathing human being. The comparison is not valid and insults my 
intelligence.
    One of the most troubling aspects of not patrolling the 
international boundary and putting the majority of agents 50 miles or 
more from the border, is the probability of Transnational Criminal 
Organizations and terrorists entering our country. The example on John 
Ladd's ranch of the 54 drug traffickers breaking through the wall is 
evidence that other unsavory characters and come and go as they please. 
On the San Pedro River, which runs out of Mexico and into the United 
States west of the Ladd Ranch, the 13-ft. wall ends and there is a 3-
strand barbed wire fence going across the river. During flash flood 
season there is often no fence at all. I have been there dozens of 
times and rarely is an Agent watching this quarter-mile area which 
almost never has water running through it. Anyone can simply walk in. 
Also, during this same season the flood gates are raised from mid-June 
until the end of September to allow flood water to flow out of Mexico. 
The Border Patrol covers those holes in the fence with 3 strands of 
barbed wire which isn't even stretched tightly.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    In parts of southern Arizona as far north as 100 miles there are 
signs which have been put up by the Government stating, ``CAUTION. 
Smuggling activity is common in this area, due to proximity of the 
border. Be aware of your surroundings at all times.'' I should not have 
to be advised by my own Government to beware of foreign drug smugglers 
in my own country. If my country were enforcing the immigration laws on 
the books, this wouldn't be an issue.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Diversionary fires in Aguilar's ``corridor'' have been set by 
illegal aliens and drug runners. They have destroyed hundreds of 
thousands of acres of valuable forest, grassland, wildlife, homes, and 
other resources.
    Many of the old-time family ranchers in the area have sold out to 
big companies with absent owners in order to get away from the 
vandalism problems and for their safety. Land values in our region have 
dropped to about half of their value in the 1980's simply because 
nobody wants to live in an area overrun by illegal aliens.
    It is a terrible lie when the Government tells America that the 
border is secure. It seems to be a calculated plan to not enforce 
immigration laws. A lot of powerful people have something to gain by 
allowing illegal aliens to invade our country. Meanwhile, the American 
public is suffering and our National security and sovereignty as a 
Nation is in jeopardy.
    For the checkpoints to be really affective, they should be open 24/
7. If there is not enough staff to keep them open round-the-clock, then 
perhaps they should be patrolling the border itself.

    Ms. McSally. Thank you, Ms. Davis. I appreciate it.
    The Chair now recognizes Dr. Golob for 5 minutes.

 STATEMENT OF ELYSE GOLOB, EXECUTIVE DIRECTOR, NATIONAL CENTER 
   FOR BORDER SECURITY AND IMMIGRATION, UNIVERSITY OF ARIZONA

    Ms. Golob. Chairman McSally and Members of the 
subcommittee, thank you for inviting me here to address you 
today.
    I am the executive director of the National Center for 
Border Security and Immigration, known as BORDERS, 
headquartered at the University of Arizona. From 2008 to 2016, 
we were designated a center of excellence by the DHS Science 
and Technology Directorate Office of University Programs. Since 
that time, we continue to receive funding from DHS, from DOD, 
IARPA, as well as other international agencies to conduct this 
work. We are a proud member of the new center of the excellence 
headquartered at the University of Houston.
    In 2009, the GAO came out with a report assessing interior 
traffic checkpoints and recommended that Border Patrol 
implement improvements in four different areas: The first area 
is data quality and integrity; the second area is to examine 
the impacts these checkpoints have on local communities; third, 
to determine how effective these checkpoints actually are, what 
is their performance effectiveness; and, fourth, to develop a 
managerial tool for better managing the number of lanes, the 
hours, and the resources allocated to these checkpoints.
    The University of Arizona was provided with $500,000 to 
conduct this study. During the course of the study, we worked 
closely with Border Patrol, specifically the Office of 
Strategic Planning, Policy, and Analysis. We submitted 
bimonthly reports. We were assigned a point of contact in the 
agency, and we provided regular briefings to headquarters 
personnel. So we did not operate in a vacuum; we walked hand-
in-hand with Border Patrol throughout this process.
    To conduct this study, we paid site visits to 7 sectors--6 
on the Southern Border and 1 on the Northern Border--to observe 
the checkpoint operations. At these checkpoints, we received 
briefings from the chief, we observed operations, and we 
interviewed agents there.
    We also were provided with apprehension data from the e3 
system, cleansed data without identifying factors, for a period 
of 2008 to 2011, as well as checkpoint activity reports.
    For community impacts, we conducted interviews with local 
community members near the border, specifically law 
enforcement, resort owners, business owners, school officials, 
as well as citizens.
    For the performance measures, we did an in-depth review of 
various strategies for measuring effectiveness. For the 
managerial tool, we developed a checkpoint simulation model.
    To our findings.
    Specifically in the area of data quality and integrity, the 
gold standard for data quality is accuracy, consistency, and 
comprehensiveness of the data. In analyzing droves of e3 
apprehension data, we determined there were still a lot of 
errors and inconsistencies and data that was entered 
incorrectly. We were assured by Border Patrol that measures 
have been taken to improve data collection. We provided them 
with a list of recommendations, including agent refresher 
training courses, drop-down menus, automatic alerts, and other 
measures to prevent these data issues.
    In the area of community impacts, we found that, 
interviewing community members, their concerns fell into three 
general areas. The first area was inconvenience factors--wait 
times at the checkpoints, missed meetings, and so forth. The 
second factor was circumvention impacts because of illegal 
activity, trying to circumvent the checkpoint. Neighboring 
communities voiced that they experienced public safety issues 
and high-speed chases through their neighborhoods. Finally, 
economic harm. We found that there was a wide-spread perception 
that there was harm to the local community based on loss of 
tourism and depressed housing prices because of a public 
perception that the border was a dangerous area.
    In terms of recommendations for community impacts, we 
analyzed circumvention data around the I-19 corridor, which we 
used as our case study, and found that, indeed, communities 
south of the checkpoint, such as Tubac, had more circumvention 
apprehensions than communities north of the border. So this is 
one area that we recommended that Border Patrol continued to 
monitor, the circumvention and neighboring activities.
    As far as real estate prices, we looked at housing prices 
for communities south of the checkpoint, Rio Rico and Tubac, 
and north of the border in Green Valley and found that, while 
the data indicated there was some loss in the prices south of 
the checkpoint in Tubac, that they were not statistically 
significant enough to definitively say that the checkpoint 
caused the difference. This was complicated by the fact that 
our real estate data collection overlapped with the housing 
crisis and the general U.S. economic crisis 2008 to 2010, so 
further research is needed on the area.
    I will conclude with talking about the effectiveness of 
checkpoints, since this is an issue that Chairman McSally 
raised.
    Right now, checkpoints are measured by their apprehensions 
and their seizures. I can't stress strongly enough that this is 
an activity measure, it is not an effectiveness measure. If you 
don't know how much illicit activity is getting through, you 
don't know how effectively you are performing. You know, if 100 
apprehension are made a day and 101 people try to get through, 
you are doing pretty well. If 100 apprehensions are made a day 
but 1,000 people are trying to get through, then you are only 
10 percent effective.
    We provided specific recommendations to Border Patrol that 
the most practical, efficient, and non-biased way of measuring 
checkpoint effectiveness is by conducting red-teaming efforts, 
which refers to a team of agents from different Federal 
agencies who would, in effect, play-act the role of smugglers 
or illegal immigrants attempting to get through a checkpoint, 
carefully trained with a specific script. Then an evaluation 
could be made of how many members of the red team Border Patrol 
catches at the checkpoint.
    This interdiction data can provide a proxy for what the 
base level, what the denominator of illegal activity is getting 
through and can be used by checkpoints to measure their 
effectiveness level.
    Ms. McSally. Great. If you wouldn't mind wrapping up, and 
then we can maybe get more into that in the Q&A.
    Ms. Golob. Certainly.
    Ms. McSally. Thank you.
    Ms. Golob. In terms of performance models, we developed a 
simulation model measuring current and predicted traffic flows 
and resource allocations at Border Patrol that they could use 
to determine the adequate levels.
    I would be happy to answer questions during the next 
period.
    [The prepared statement of Ms. Golob follows:]
                   Prepared Statement of Elyse Golob
                           September 13, 2016
    Chairman McSally, Ranking Member Vela, and Members of the 
subcommittee, thank you for giving me the opportunity to testify 
regarding Border Patrol's defense-in-depth strategy with a focus on 
interior checkpoints. My name is Elyse Golob and I am the executive 
director of the National Center for Border Security and Immigration 
(BORDERS) headquartered at the University of Arizona. As a DHS Center 
of Excellence from 2008-2015, BORDERS was funded by the Science and 
Technology Directorate, Office of University Programs. As a Center 
Emeritus, we continue to conducted research on border security, trade 
and immigration with funding grants from DHS, NSF, DOD, IARPA, the 
Canadian Border Services Agency (CBSA) and Frontex, the European Union 
border management agency.
    In 2011, the U.S. Border Patrol asked BORDERS to evaluate a U.S. 
Government Accountability Office (GAO) review ofthe agency's traffic 
checkpoints. Our findings and recommendations were published in the 
2014 report, ``Checking on Checkpoints: An Assessment of U.S. Border 
Patrol Checkpoint Operations, Performance and Impacts''.\1\
---------------------------------------------------------------------------
    \1\ Jenkins, J., J. Proudfoot, J. Marquadson, J. Gans, E. Golob, J. 
Nunamaker, 2014. Checking on Checkpoints: An Assessment of U.S. Border 
Patrol Checkpoint Operations, Performance, and Impacts. http://
borders.arizona.edu/cms/sites/default/files/checking-on-
checkpoints_2014-09-09.pdf.
---------------------------------------------------------------------------
                               background
    The U.S. Border Patrol operates traffic checkpoints on interior 
U.S. roads to interdict and deter unauthorized immigration, contraband 
smuggling, and terrorism. In 2009, the GAO evaluated checkpoint 
operations \2\ and, as a result, recommended that the Border Patrol 
implement improvement in four areas:
---------------------------------------------------------------------------
    \2\ See Checkpoints Contribute to Border Patrol's Mission, but More 
Consistent Data Collection and Performance Measurement Could Improve 
Effectiveness, U.S. Government Accountability Office, GAO-09-824, 
August 2009, www.gao.gov/products/GAO-09-824.
---------------------------------------------------------------------------
    1. Data Integrity and Quality.--Establish internal controls and 
        management oversight to ensure the accuracy, consistency, and 
        completeness of checkpoint performance data.
    2. Community Impacts.--Examine the impact that checkpoints have on 
        the quality of life in local communities.
    3. Performance Models and Measures.--Evaluate the usefulness of a 
        checkpoints by comparing rates of apprehension and seizures to 
        undetected illegal activity passing through the checkpoint.
    4. Managerial Tool Development.--Determine the optimal number of 
        inspection lanes needed at checkpoints based on current and 
        predicted traffic volumes, and assess required staffing needs.
    In 2010, U.S. Border Patrol asked BORDERS to conduct an independent 
and objective assessment of checkpoint operations to respond to GAO's 
comments. We received funding of $500,000 to undertake this study. Our 
research team consisted of 3 faculty members and 6 doctoral students.
    During the course of the study, we were assigned a point of contact 
at Border Patrol, Office of Strategic Planning, Policy, and Analysis, 
submitted bi-monthly reports and met periodically with headquarters 
personnel for briefings, clarification, and feedback.
    The final report was released in 2014.
                              methodology
    To conduct a comprehensive checkpoint assessment, we gathered and 
analyzed information from several sources:
    Site visits.--We visited 17 checkpoints in 5 Border Patrol Sectors 
on the Southern and Northern Borders, including permanent and tactical 
stops.\3\ These included the San Diego, Tucson, El Paso, Rio Grande 
Sectors on the U.S.-Mexico border; and the Swanton Sector on the U.S.-
Canada border.
---------------------------------------------------------------------------
    \3\ Along the U.S.-Mexico border, we visited 5 checkpoints in the 
San Diego Sector (located at Temecula I-15, Rainbow, San Clemente I-5, 
Hwy 94, and I-8), 4 in the Tucson Sector (Arivaca Rd, I-19, SR 80, and 
SR 90), 4 in the EI Paso Sector (I-10, White Sands Hwy 70--MM 198.5, 
Alamogordo Hwy 54, and US 180), and 2 in the Rio Grande Sector 
(Falfurrias and Kingsville), Along the U.S.-Canada border, we visited 2 
checkpoints in the Swanton Sector (I-87 and the Massena Station 
tactical checkpoint).
---------------------------------------------------------------------------
    At each site visit, the sector chief briefed us on the current 
threats and developments. We also examined the checkpoint's layout, 
infrastructure, and technology; observed on-going operations, including 
primary screening and secondary screening; and interviewed agents.
    Apprehension data.--The Border Patrol provided us with cleansed 
apprehension data from its e3 data-collection system (2006-2011) and 
from the Checkpoint Activity Report (CAR) system (2007-2011).
    Specifically, we received data for 26 variables (a subset of the 
data in the e3 system) related to apprehended individuals, including: 
(a) Location and time of arrest; (b) manner, time, and location of 
entry into the United States; and (c) citizenship of the individual 
arrested, whether the individual was smuggled in, and, if so, the cost 
to the individual to be smuggled in. We received several data sets from 
the CAR system containing checkpoint profiles, referrals, apprehension 
counts, seizure counts, and operation hours.
    Community data.--We conducted interviews with community members and 
stakeholders in surrounding areas to identify the quality of life 
impacts of checkpoints. We analyzed circumvention rates and real estate 
sales data (2009-2012) in communities north and south of the checkpoint 
to determine its impact on local communities.
    Performance Measures.--We undertook an in-depth review of potential 
methodologies to estimate illegal flow and provide a baseline for 
checkpoint effectiveness.
    Managerial Tool Development.--Using commercially-available 
software, we developed a simulation model of a checkpoint to assess 
resources and staffing needs to meet current and future traffic 
demands.
                      findings and recommendations
1. Data Integrity and Quality
    Data integrity and quality are measured by the accuracy, 
consistency, and completeness of the collected data. To evaluate the 
data collection protocols at checkpoints, we examined data from the e3 
system and the Checkpoint Activity Report (CAR) module. The e3 is an 
internal system used by agents to process and record data about 
apprehended individuals, such as apprehension location, smuggling 
information, and the date and time of apprehension. The CAR report 
contains checkpoint operational and infrastructure data, including 
checkpoint profile reports, number of apprehensions and seizures, 
operational hours, and personnel. We also used the information gathered 
during the site visits to better understand data collection processes.
    Findings.--We found that while data integrity and quality have 
substantially increased since the 2009 GAO assessment, there were 
aspects of data collection and management that still need improvement.
    Specifically, we found that the e3 data had errors in the data 
fields for apprehension latitude and longitude, entry manner, smuggling 
method and cost, distance from port of entry (POE), and entry date and 
time. In the CAR data set, we found errors in the checkpoint profile 
records. (See Appendix A).
    Recommendations.--To address these shortcomings, we recommend that 
the Border Patrol implement changes in agent training, correct past 
errors in data entry, and improve the current e3 system to include 
real-time alerts for questionable data, drop-down menus and automate 
data entry of certain fields.
    Agent training.--We recommend that the Border Patrol provide 
        refresher courses on how to enter data and why data quality is 
        important.
    Correct past errors.--We recommend that Border Patrol run automated 
        scripts on these data to correct transposed apprehension 
        latitude-longitude data and inconsistent labels for entry 
        manner.
    e3 system.--We suggest several improvements to the current 
        interface:
    a. Automatic alerts.--Available if the apprehension latitude-
        longitude entry is not within the agent's assigned sector, the 
        smuggling cost is exorbitantly high, or the miles from POE is 
        abnormally high.
    b. Drop-down selection box.--Available for for fields such as 
        ``entry manner.''
    c. Automated data collection.--Allowing agents to transfer the 
        apprehension latitude and longitude from their GPS devices 
        directly to the e3 system, and automatically calculating the 
        distance from POE based on latitude and longitude data.
2. Community Impacts
    While our aim was to identify and measure the impacts of 
checkpoints on nearby communities, it quickly became apparent that no 
one checkpoint could encapsulate all possible effects. Since the type 
and magnitude of impacts differ by the local factors such as size, 
population, economic base and terrain, we sought a case study that 
could provide a generalizable approach. We selected the checkpoint 
along U.S. Interstate 19 (I-19) between Tucson and Nogales, Arizona, as 
a case study (see Appendix B), as it captured several major factors 
including traffic volume, proximity of communities, economic diversity, 
and a mountainous topography.
    Located on a 25-mile north-south artery, the I-19 checkpoint 
affects both commercial and personal traffic. It bisects several long 
established communities to its south and north. To the south, lie Tubac 
(4 miles), Rio Rico (10 miles) and Nogales (on the border) with a 
combined population of 41,000. To the north, are the communities of 
Amado, Green Valley, and Sahuarita with a total population of 55,000. 
The principal economic engines ofthe region are real estate, tourism, 
mining, farming, and ranching. The corridor is located in a mountainous 
region, with mountains to the east and west.
    For the study, we interviewed representatives from the Santa Cruz 
County Sheriff's Office, Tubac Golf Resort and Spa, Esplendor Resort, 
Fresh Produce Association of Americas, various Tubac business and 
community representatives; residents of Tubac, Green Valley, and 
Sahuarita; and local schools officials. We found consistency in the 
perspectives of this wide range of individuals with regard to the 
checkpoint.
    These concerns can be grouped into three broad categories: (1) 
Circumvention impacts with attendant public safety and law-enforcement 
costs; (2) inconvenience impacts deriving from unpredictable wait times 
and risk of secondary screening for those who travel through the 
checkpoint; and (3) economic harm impacts deriving both from changing 
public perceptions about the dangers of the border region, including a 
decline in housing prices and tourism.
Findings
    1. Circumvention impacts.--The presence of the checkpoint may cause 
        those engaged in illegal activity to attempt to circumvent the 
        checkpoint. This circumvention, often referred to as flanking, 
        pushes drug and human smuggling into neighborhoods and creates 
        public safety problems in communities both south and north of 
        the checkpoint. Community members have experienced high-speed 
        chases through neighborhoods, Blackhawk helicopters deployed 
        near population centers, school lockdowns, and similar 
        disruptions. Our statistical analysis of apprehension data 
        before and after the I-19 checkpoint began operations (2009-
        2012) showed that while circumvention impacts are experienced 
        by communities north and south of a checkpoint, they are 
        disproportionately borne by communities that lie south of the 
        checkpoint.
    2. Inconvenience impacts.--Virtually all community members south of 
        the checkpoints reported missed meetings or airline flights due 
        to the unpredictable wait times. Others believed that Hispanic 
        citizens were subject to racial profiling . . . In many 
        instances, it was difficult to quantify these impacts. Further 
        research is needed.
    3. Economic harm impacts.--Residents expressed concern that the 
        checkpoint's presence contributed to the perception that the 
        border region is dangerous, which in turn negatively impacts 
        tourism and hurts real-estate values. Regarding tourism, it was 
        difficult to disentangle the effects of the general economic 
        downturn, negative publicity from SB1070, and the impacts of 
        the checkpoint itself.
    A regression analysis of real estate price data in communities 
south (Tubac-Rio Rico) and north (Green Valley) of the checkpoint, 
provided marginally statistically significant evidence of downward 
pressure on housing prices. However, since the available data was 
limited and it was difficult to isolate the checkpoint's impacts from 
those of the housing crisis and other economic conditions, these 
results must be seen as suggestive, rather than definitive.
    Recommendations.--Our analysis identified a variety of quantitative 
measures of a checkpoint's impacts on surrounding communities, and we 
recommend that Border Patrol consider regularly examining them. These 
include:
    Analysis of apprehension data relative to the roads or highways on 
        which a given checkpoint is located, which provides a 
        statistical measure of circumvention activity.
    Analysis of real estate prices in adjacent communities to gauge the 
        impact of the checkpoint on the housing market.
    Analysis of local law enforcement referrals to Border Patrol, which 
        provides an additional indication of circumvention activity 
        around a checkpoint.
    Analysis of enforcement activity around schools including data on 
        school lock-downs, which provides a measure of circumvention 
        activity specifically affecting children.
3. Performance Models and Measures
    The GAO report recommended that Border Patrol develop a model that 
compares apprehensions and seizures to the total level of illegal 
activity passing through checkpoints undetected. Since this baseline is 
unknown and cannot be extrapolated from available data, we explored 
proxy measures of total flow that could measure checkpoint 
effectiveness.
    Findings.--We found that most practical, accurate, and unbiased 
approach to get an realistic approximation of the checkpoint's 
effectiveness in deterring illegal activity is through ``red teaming.''
    A red team is ``a group of subject-matter experts of various 
appropriate disciplinary backgrounds who provide an independent peer 
review of plans and processes; acts as the adversary's advocate; and 
knowledgeably role-play the adversary, using a controlled, realistic, 
interactive process during operations planning, training, and 
exercising''.\4\ Red teaming has been successfully deployed in other 
agencies, including the Federal Aviation Administration (FAA), the 
Department of Defense (DOD), and the National Nuclear Security 
Administration. It is currently used at Border Patrol checkpoints to 
measure the accuracy of radiation detectors.
---------------------------------------------------------------------------
    \4\ Homeland Security Exercise and Evaluation Program, 2007, 8-26.
---------------------------------------------------------------------------
    In a checkpoint context, red teaming would be carried out by actors 
knowledgeably role-playing the adversary in an attempt to bypass 
checkpoint security carrying false documents, illegal drugs, radiation 
(i.e., proxy for nuclear weapons), or other illegal items. The rate at 
which red team actors are detected at checkpoints will allow the Border 
Patrol to calculate an interdiction rate for illegal activities.
    Red-teaming would provide the Border Patrol with valuable 
information, including: (a) Accuracy rates of detecting illegal 
activities during red-teaming, (b) measurable indicators of how 
resource allocation influences this accuracy rate, (c) objective and 
quantitative baselines of a checkpoint's detection accuracy rate to 
gauge improvement over time, and (d) focused areas of improvement for 
checkpoint operations.
    Recommendations. We recommend that the Border Patrol:
  <bullet> Calculate an interdiction rate of illegal activity through 
        red-teaming.--Our report provided guidance to ensure valid and 
        reliable red-teaming including red team composition, 
        maintaining objectivity and confidentiality, generating a 
        statement of evaluation objectives, determining the frequency 
        of red-teaming attempts, selecting checkpoints for red-teaming 
        and understanding safety issues.
4. Managerial Tool Development
    The 2009 GAO report emphasized the need to consider traffic volume 
and needs assessment in allocating resources to checkpoints. To address 
this, we created a checkpoint simulation and visualization tool to help 
the Border Patrol make informed resource allocations, conduct workforce 
planning needs assessments, and determine the number of open inspection 
lanes (see Appendix C).
    Findings.--The simulation tool that we built is a realistic 
computerized representation of an actual checkpoint that models common 
components, including pre-primary screening, primary screening, 
secondary screening, violation processing, traffic flows (actual or 
anticipated), screening times for different types of vehicles, number 
of inspection lanes, number of agents, secondary screening capacity, 
number of backscatter machines, and other checkpoint components.
    Using the simulation model, the Border Patrol can assess the 
required resources and staffing to meet current and future traffic 
demands and predict how making resource changes to a checkpoint would 
influence important outcomes such as wait time, screening time, traffic 
flushing, queue length, resource utilization, screening capacity, and 
arrests.
    Recommendations.--We recommend that the Border Patrol: Adopt a 
checkpoint simulation model to analyze current and expected traffic 
volumes to determine the number of inspection lanes at checkpoints; and 
determine workforce needs.
                                summary
    Our report addressed the recommendations made in GAO's 2009 report. 
Specifically, it addressed recommendations that can aid Border Patrol 
in: (1) Continuing to improve the consistency, accuracy, integrity, and 
completeness of data in the e3 and CAR module systems; (2) better 
assessing the impact of checkpoint on surrounding communities; (3) 
evaluating the performance of checkpoints on detecting illegal 
activity; and, (4) making more informed resource allocation decisions.
                              attachments
Appendix A. Data Integrity and Quality


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Appendix B. Community Impacts


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Appendix C. Managerial Tools Appendix

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. McSally. Thank you, Dr. Golob.
    The Chair now recognizes Mr. Ramirez for 5 minutes.

   STATEMENT OF CHRISTIAN RAMIREZ, DIRECTOR, SOUTHERN BORDER 
                     COMMUNITIES COALITION

    Mr. Ramirez. Thank you very much, Madam Chairman and 
Members of the subcommittee. Thank you for allowing me the 
opportunity to testify. I represent the Southern Border 
Communities Coalition, which brings together over 60 community 
organizations in the 4 Southern Border States.
    I was born in the borderlands. They are my home. I know the 
subcommittee will agree that the Southern Border is one of our 
Nation's most beautiful, vibrant, and unique regions. It 
includes remarkable desert landscapes, the scenic Rio Grande 
River, distinctive mountains, and extraordinary valleys.
    Several important binational metropolitan areas make up the 
borderlands, and hundreds of thousands of acres of sensitive 
habitat protect endangered species. Ancestral indigenous 
communities have called the borderlands home since before the 
physical structure divided their people. Ancient roots are now 
dissected by modern borders. Nearly 12 million people call our 
precious borderlands home.
    The Southern Border is also an economic engine for North 
America. Fifty-six crossing points provide critical gateways to 
our third-largest goods trading partner, where nearly 300,000 
vehicle crossings occur daily. U.S. trade with Mexico totaled 
$583 billion in 2015.
    The border landscape also includes a heavy presence of 
Federal law enforcement, making the Southern Border one of the 
most militarized regions in the Western Hemisphere. In the year 
2000, there were 8,600 Border Patrol Agents. By 2014, the 
number more than doubled to almost 21,000.
    Border enforcement spending increased seven-fold from 1980 
to 1995 and then more than tripled from 1995 to 2003. 
Appropriations for Border Patrol have grown steadily from $1 
billion in fiscal year 2000 to over $13 billion in fiscal year 
2016.
    However, this dramatic increase of CBP personnel and 
equipment has not been accompanied by commensurate 
accountability, oversight, and transparency mechanisms, leading 
to palpable mistrust between Southern Border residents and the 
CBP, the largest law enforcement agency in our Nation.
    Based on outdated rules created without significant public 
debate, DHS has interpreted section 287(a)(3) of the 
Immigration and Nationality Act to allow Border Patrol to 
operate interior checkpoints and engage in other enforcement up 
to 100 miles from land and maritime borders.
    Virtually everyone that I know has been subjected to 
questioning at checkpoints. In some communities, residents must 
pass through Border Patrol checkpoints to reach work, school, 
medical appointments, places of worship. This has an enormous 
economic and civil rights impact on our communities. Even I 
feel compelled to carry proof of citizenship at all times in 
order to prevent unnecessary delays or worse.
    Perhaps what is most hurtful is that my toddler son must 
also have a U.S. passport in order to clear the checkpoint. 
Whenever we drive east to visit his grandparents in Imperial 
County or if we decide to go north to go to Disneyland, my 
family must show our passports to prove U.S. citizenship. As 
you may know, U.S. citizens are not required to carry proof of 
citizenship. But we do so because Border Patrol Agents too 
often treat us as second-class citizens.
    For border residents, the land of the free that most enjoy 
has been converted into the land of checkpoints. In no other 
part of this Nation are people required to prove who they are 
as they go about their daily lives.
    As director of the Southern Border Communities Coalition, I 
see and experience first-hand the great impact CBP's excessive 
footprint has on residents along the border. In the small town 
of Arivaca, hundreds of community members have rallied against 
racial profiling of their neighbors at checkpoints that choke 
off their daily activities.
    In southern New Mexico, my good friend Jorge grew up 
commuting through Government checkpoints from his hometown in 
Salem to Las Cruces to grocery shop, to see a movie, and, most 
recently, to obtain a master's degree from New Mexico State 
University. Jorge is always respectfully confirming his U.S. 
citizenship to Agents, but Agents have interrogated him about 
where he was born and detained him for dogs to sniff his 
vehicle because he refused to consent to a search.
    In the RGV, residents have refused to evacuate their homes 
in water-related emergencies for fear that they will be 
apprehended by Border Patrol. My colleagues in Brooks County 
contend with hundreds of tragic migrant deaths each year 
because the Falfurrias checkpoint is placed 50 miles north of 
the actual border.
    CBP fails to assess the impact of defense-in-depth on human 
and civil rights and on our quality of life for border 
residents. Our friends along the Northern Border have also 
endured enforcement practices that undermine the trust between 
border residents and CBP. From Washington State, to the streets 
of Detroit, to up-State New York, border residents experience 
excessive use of force, racial profiling, and unconstitutional 
searches and seizures.
    No one is more concerned about the security of the homeland 
than border residents, but we are equally concerned about our 
quality of life. Congress should reduce the reach of CBP 
operations to a maximum of 25 miles from the land or maritime 
border and reduce the area where agents can enter private 
property without a warrant to 10 miles.
    DHS and CBP must immediately ban racial profiling and 
implement comprehensive data collection and public reporting on 
Border Patrol's activities. We urge CBP to implement 
Commissioner Kerlikowske's transparency and accountability 
reforms, including body-worn cameras, with a strong policy 
framework and an effective, responsive complaint system.
    Ultimately, border residents want what our fellow citizens 
already enjoy: The ability to move from point A to point B 
without excessive Government intrusion. I remain hopeful that 
one day my son will be able to visit his grandparents without 
the indignity of armed agents at a checkpoint interrogating him 
about whether he belongs in this Nation or not.
    I thank you for your time.
    [The prepared statement of Mr. Ramirez follows:]
   Joint Prepared Statement of Christian Ramirez, Director, Southern 
Border Communities Coalition; Jennifer Johnson, Border Policy Advisor, 
 Southern Border Communities Coalition; Karin Johanson, Director, ACLU 
  Washington Legislative Office; Christopher Rickerd, Policy Counsel, 
ACLU Washington Legislative Office; Vicki B. Gaubeca, Director, ACLU of 
  New Mexico, Regional Center for Border Rights; and Brian Erickson, 
   Border Policy Strategist, ACLU of New Mexico, Regional Center for 
                             Border Rights
                           September 13, 2016
                              introduction
    Advocates and residents throughout the border region comprise the 
Southern Border Communities Coalition (SBCC). SBCC brings together more 
than 60 organizations from San Diego, California, to Brownsville, 
Texas, to ensure that border enforcement policies and practices are 
accountable and fair, respect human dignity and human rights, and 
prevent loss of life in the region.
    For nearly 100 years, the American Civil Liberties Union (ACLU), a 
member of SBCC, has been our Nation's guardian of liberty, working in 
courts, legislatures, and communities to defend and preserve the 
individual rights and liberties that the Constitution and laws of the 
United States guarantee everyone. With more than a million members, 
activists, and supporters, the ACLU is a Nation-wide organization that 
fights tirelessly in all 50 States, Puerto Rico, and Washington, DC, 
for the principle that every individual's rights must be protected 
equally under the law. The ACLU of New Mexico's Regional Center for 
Border Rights (RCBR) stands with border communities to defend and 
protect America's Constitutional guarantees of equality and justice for 
all families to live freely, safely, and with dignity. The RCBR works 
in conjunction with ACLU affiliates in California, Arizona, Texas, 
Michigan, Washington, New York, and Vermont.
    SBCC and the ACLU submit this statement to provide the subcommittee 
with an appraisal based on border residents' perspectives to describe 
the civil liberties and quality of life effects of the Border Patrol's 
``Defense-in-Depth'' strategy that relies on roving patrols and 
numerous checkpoints far from the actual borders. CBP's checkpoints and 
patrols are massively intrusive yet ineffective interior enforcement 
operations. We are deeply concerned about how the Border Patrol 
conducts enforcement in the ``100-mile-zone,'' often infringing rights 
in such a vast area of the United States.
    Severely compounding this overreach is a lack of Border Patrol 
policies and practices that match best policing standards on matters 
ranging from body-worn cameras to data collection (see Appendix, 
Implementing Law Enforcement Best Practices for our Nation's Biggest 
Police Force).
    SBCC and the ACLU oppose CBP's currently exorbitant spending on 
border enforcement, expenditures which occur without the requisite 
transparency and oversight, or a proper holistic analysis of border 
communities' quality of life. Spending on enforcement, particularly at 
the Southwest Border, has increased dramatically this century without 
commensurate accountability measures, resulting in civilian deaths at 
the hands of CBP personnel, avoidable migrant deaths in the desert, and 
many other civil and human rights abuses at both our Nation's Southern 
and Northern Borders.
    From fiscal year 2004 to fiscal year 2012, the budget for CBP 
increased by 94 percent to $11.65 billion, a leap of $5.65 billion; 
this following a 20 percent post-9/11 increase of $1 billion.\1\ By way 
of comparison, this jump in funding more than quadrupled the growth 
rate of NASA's budget and was almost 10 times that of the National 
Institutes of Health. For fiscal year 2017, the administration's budget 
request for CBP is about $14 billion. U.S. taxpayers now spend more on 
immigration enforcement agencies ($19 billion) than on the FBI, DEA, 
ATF, U.S. Marshals, and Secret Service--combined. Border and 
immigration enforcement has cost more than $250 billion in today's 
dollars since 1986. House Appropriations Committee Chairman Hal Rogers' 
warning about the irrationality of border spending must be heeded: ``It 
is a sort of a mini industrial complex syndrome that has set in there. 
And we're going to have to guard against it every step of the way.''\2\
---------------------------------------------------------------------------
    \1\ Michele Mittelstadt et al., ``Through the Prism of National 
Security: Major Immigration Policy and Program Changes in the Decade 
since 9/11.'' (Migration Policy Institute, Aug. 2011), 3, available at 
http://www.migrationpolicy.org/pubs/FS23_Post-9-11policy.pdf.
    \2\ Ted Robbins, ``U.S. Grows an Industrial Complex Along The 
Border.'' NPR (Sept. 12, 2012), available at http://www.npr.org/2012/
09/12/160758471/u-s-grows-an-industrial-complex-along-the-border.
---------------------------------------------------------------------------
    SBCC and the ACLU urge the subcommittee to focus its efforts on 
ensuring that future border security is conducted humanely and in 
accordance with best police practices, leaving a greatly reduced 
footprint in border communities. Legislation and Congressional 
oversight should bring transparency and accountability--not war 
equipment or more boots on the ground--to CBP, our Nation's largest law 
enforcement agency.
   i. cbp is improperly acting as an interior law-enforcement agency 
within the unnecessarily large 100-mile zone, yet these activities are 
          ineffective in apprehending unauthorized immigrants.
    CBP's excessive enforcement footprint and mission creep have made 
it an interior police agency that conducts unaccountable roving patrols 
far from any border and maintains intrusive checkpoints that hurt local 
economies, unjustifiably profile Latinos and other people of color, and 
make few immigration arrests. CBP has become an interior law-
enforcement agency through its vast claimed authority to patrol within 
100 miles of all land and sea borders, an assertion of power based on 
outdated regulations issued in the 1950s that have not faithfully 
implemented the Immigration and Nationality Act's (INA) limitation to a 
``reasonable distance'' from a border.\3\ Moreover, CBP's practice of 
using its warrantless authority under the INA to enter private property 
(excluding dwellings) within 25 miles of a border is at times exercised 
irresponsibly, causing property owners uncompensated fence damage and 
other hardship like livestock lost through unclosed gates.
---------------------------------------------------------------------------
    \3\ For more on the 100-mile zone please see https://www.aclu.org/
constitution-100-mile-border-zone and https://www.aclu.org/aclu-
factsheet-customs-and-border-protections-100-mile-zone.
---------------------------------------------------------------------------
    CBP's zone of claimed authority therefore has no statutory basis 
and originated without scrutiny 60 years ago in now-outdated 
regulations. The area includes two-thirds of the U.S. population, 
entire States like Florida and Maine, as well as almost all of the 
country's top metropolitan areas. The CATO Institute and Reason 
Magazine/reason.com have led libertarian critiques of the 100- and 25-
mile zones.\4\ This breadth of authority has converted CBP, 
particularly Border Patrol, into an interior force that widely roams 
border communities. Other law enforcement agencies, such as Immigration 
and Customs Enforcement (ICE) and the Drug Enforcement Agency have 
responsibility for interior immigration and drug enforcement; CBP's 
enforcement far from any actual border is both duplicative and 
ineffective.
---------------------------------------------------------------------------
    \4\ See, e.g., Patrick G. Eddington, ``Homeland Insecurity: 
Checkpoints, Warrantless Searches and Security Theater.'' JustSecurity 
(Feb. 2, 2015), http://www.cato.org/publications/commentary/homeland-
insecurity-checkpoints-warrantless-searches-security-theater; Jacob 
Sullum, ``The Border Patrol's Unconstitutional Drug Dragnet.'' 
reason.com (May 25, 2015) http://reason.com/archives/2015/05/25/the-
border-patrols-unconstitutional-drug.
---------------------------------------------------------------------------
    The agency's own data have shown that a majority of criminal 
prosecutions emanating from checkpoint operations are of U.S. citizens 
for small quantities of drugs, including marijuana, even though 
checkpoints are not general crime-control operations but 
Constitutionally limited to brief immigration inquiries. Significantly, 
checkpoints also do not provide ``bang for the buck'' in terms of 
unauthorized immigrant apprehensions. Although CBP emphasizes that a 
negative cannot be proven with respect to deterrent effect, checkpoint 
numbers--which haven't been disclosed by the agency since 2013--show 
that very few migrants are apprehended given the resources committed to 
these operations. Two years ago CBP Commissioner Kerlikowske committed 
to ``a review to collect data on the number of arrests and drug 
seizures at each checkpoint to gauge how effective they really 
are,''\5\ but no public data or analysis have been released. Nor has 
the agency acted on the Government Accountability Office's 2009 
recommendation to implement ``quality of life measures . . . to 
evaluate the impact that checkpoints have on local communities,''\6\ a 
recommendation echoed and elaborated by the University of Arizona in 
2014.\7\
---------------------------------------------------------------------------
    \5\ Alan Gomez, ``Border Commissioner, facing heat, promises 
changes.'' USA Today (Oct. 30, 2014), http://www.usatoday.com/story/
news/nation/2014/10/30/customs-and-border-commissioner-interview-body-
cameras-use-of-force-checkpoints/18110249/.
    \6\ http://gao.gov/assets/300/294548.pdf (p.78).
    \7\ Jeffrey Jenkins, Jeffrey G. Proudfoot, Jim Marquardson, Judith 
Gans, Elyse Golob, and Jay Nunamaker, Checking on Checkpoints: An 
Assessment of U.S. Border Patrol Operations, Performance, and Impacts. 
Tucson: National Center for Border Security and Immigration (BORDERS), 
University of Arizona (2014), http://borders.arizona.edu/cms/sites/
default/files/checking-on-checkpoints_2014-09-09.pdf.
---------------------------------------------------------------------------
    Consider the last available agency data about the Tucson and Yuma 
sectors:
  <bullet> For fiscal year 2012 and fiscal year 2013, combined 
        checkpoint apprehensions for Tucson and Yuma Sectors accounted 
        for just 0.74 percent of those sectors' total apprehensions. In 
        fiscal year 2013, Tucson Sector's 804 checkpoint apprehensions 
        accounted for just 0.67 percent of the sector's total 
        apprehensions.
  <bullet> While CBP reported that its fiscal year 2012 Nation-wide 
        checkpoint apprehensions accounted for 2 percent of total 
        apprehensions, the data shows Tucson and Yuma Sectors' combined 
        882 checkpoint apprehensions represented only 0.7 percent of 
        those sectors' total apprehensions during the same period.
  <bullet> In calendar year 2013, 9 out of 23 Tucson Sector checkpoints 
        reported zero arrests of ``deportable subjects.'' Fifteen of 
        those checkpoints reported fewer than 10 arrests of deportable 
        subjects; only 6 reported more than 20 arrests, and only 2 
        reported more than 40--those 2 checkpoints accounted for 74 
        percent of the deportable subjects arrested at Tucson Sector 
        checkpoints in 2013.
  <bullet> The vast majority of those arrested at Yuma Sector 
        checkpoints are U.S. citizens: In calendar year 2013, 1,535 
        ``non-deportable subjects'' were arrested as compared to only 
        197 deportable subjects, a nearly eight-fold differential. In 
        2011, non-deportable subject arrests exceeded deportable 
        subject arrests by a factor of more than 11, 1,822 to 161. 
        (These numbers are consistent with FOIA data obtained by the 
        Center for Investigative Reporting which showed approximately 4 
        out of 5 drug-related arrests by Border Patrol involved U.S. 
        citizens.)\8\
---------------------------------------------------------------------------
    \8\ Andrew Becker, G.W. Schulz, and Tia Ghose, ``Four of five 
Border Patrol drug busts involve US citizens, records show.'' Center 
for Investigative Reporting (Mar. 26, 2013), http://cironline.org/
reports/four-five-border-patrol-drug-busts-involve-us-citizens-records-
show-4312.
---------------------------------------------------------------------------
  <bullet> Yuma Sector's Highway 95 checkpoint--the only checkpoint for 
        which identifying information was not redacted--reported only 1 
        non-citizen apprehension in 3 years. The Highway 95 checkpoint 
        is roughly 75 miles from the border and the subject of several 
        abuse complaints.\9\
---------------------------------------------------------------------------
    \9\ ACLU of Arizona, Record of Abuse: Lawlessness and Impunity in 
Border Patrol's Interior Enforcement Operations (2015), 14, http://
www.acluaz.org/node/5415.
---------------------------------------------------------------------------
    CBP has not published data to reflect the significant financial 
cost of Border Patrol interior operations, so taxpayers do not know the 
price tag, for example, for Yuma Sector's 200-300 annual checkpoint 
apprehensions, nor does the agency attempt to quantify the checkpoints' 
``deterrent'' effect. Still, the agency's data suggest that the limited 
enforcement gains of most interior checkpoints do not outweigh the many 
harms their operation inflicts upon border communities in the form of 
additional migrant deaths, wide-spread civil rights and civil liberties 
abuses, and negative impacts on local businesses and property values.
ii. cbp's interior enforcement activities lead to constitutional abuses 
                           and economic harm.
    CBP's interior enforcement activities are suboptimal uses of agency 
resources meant to further border-security goals, yet do enormous 
damage to the quality of life of those who live and work in the border 
region. Border community members report harassment, racial profiling, 
excessive force, and other unlawful treatment by CBP agents at 
checkpoints and during patrol stops.
    To get a sense of these experiences, take two examples of 
individuals very familiar to the subcommittee. In 2009, Representative 
Beto O'Rourke ``then an El Paso city council member, says he was 
stopped and sent into secondary screening while driving to visit his 
sister in Carlsbad, New Mexico. `I came through and was pulled over 
into secondary, which has never happened to me before. And then my 2-
year-old son was put into a holding cell while they searched my truck. 
I didn't have anything worth searching for,' said O'Rourke. `I remember 
how awful I felt being in that cell and how un-American that felt. I 
had not crossed an international border . . . yet was detained, 
questioned, and searched without probable cause. And that's a shitty 
feeling. And a lot of people experience that.' ''\10\ Second, ``Border 
Patrol Agents stopped Senator Patrick Leahy, Democrat of Vermont, 125 
miles south of the border, in New York. When Mr. Leahy asked what 
authority the agent had to detain him, the agent pointed to his gun and 
said, `That's all the authority I need.' ''\11\
---------------------------------------------------------------------------
    \10\ Daniel Denvir, ``Curbing the Unchecked Power of the U.S. 
Border Patrol.'' The Atlantic CityLab (Oct. 30, 2015), http://
www.citylab.com/crime/2015/10/curbing-the-unchecked-power-of-the-us-
border-patrol/413392/.
    \11\ Todd Miller, War on the Border, NY Times, Aug. 18, 2013, 
http://nyti.ms/1DM0jSo.
---------------------------------------------------------------------------
    CBP conducts operations, including checkpoints and roving patrols, 
far removed from the border. Encounters with non-border crossers, 
including U.S. citizens and permanent residents, result in regular CBP 
enforcement experiences during their day-to-day lives. People residing 
within 100 miles of a border are subject to both fixed and roving 
checkpoints, ostensibly to confirm immigration status but often leading 
to other law enforcement actions. In some communities, residents must 
pass through Border Patrol checkpoints to reach work, school, medical 
appointments, or other daily activities. The ACLU has filed dozens of 
complaints on behalf of border residents regarding checkpoint 
activities and roving patrols, along with publishing numerous reports 
that details abuses that result from this interior enforcement.\12\
---------------------------------------------------------------------------
    \12\ See, e.g., Arizona complaints (2013, http://www.acluaz.org/
sites/default/files/documents/
ACLU%20AZ%20Complaint%20re%20CBP%20Roving%20Patrols%20Oct%209%202013.pdf
; 2014, http://www.acluaz.org/sites/default/files/documents/
ACLU%20AZ%20Complaint%- 
20re%20CBP%20Checkpoints%20%202014%2001%2015.pdf; 2016, http://
www.acluaz.org/sites/default/files/documents/
ACLU%20Complaint%20to%20CBP%20OPR%20June%2028%20- 2016.pdf); ACLU of 
Arizona report, Record of Abuse, supra; ACLU of New Mexico report, 
Guilty Until Proven Innocent: Border Patrol Discrimination in Southern 
NM (2015), https://www.aclu-nm.org/guiltyuntilproveninnocent/2015/05/.
---------------------------------------------------------------------------
    Away from standing inspection points where all vehicles are 
stopped, Border Patrol must have ``reasonable suspicion'' of an 
immigration violation or crime to pull someone over and probable cause 
to search vehicles. To send a person to ``secondary'' at a checkpoint 
for a non-immigration inquiry also requires reasonable suspicion. 
However, Border Patrol Agents routinely ignore or misunderstand the 
limits of their legal authority.\13\ For example, ``[i]n an interview, 
CBP and Border Patrol Officials seemed unsure about what legal 
requirements, like probable cause, governed agents searching cars for 
possible immigration and general criminal violations. One finally 
stated that probable cause was not necessary to conduct an immigration-
related search. According to James Lyall, [at the time] an attorney at 
the ACLU of Arizona, that is false: Probable cause, consent, or a 
warrant is always necessary for a vehicle search not conducted at a 
port of entry. `They have no idea what the rules are, in part because 
they can so easily ignore them,' he says.''\14\
---------------------------------------------------------------------------
    \13\ For ACLU of Arizona's Know your Rights with Border Patrol 
advisory please see: http://www.acluaz.org/sites/default/files/
documents/ACLU%20Border%20Rights%20ENGLISH_- 1.pdf.
    \14\ Denvir, ``Curbing the Unchecked Power,'' supra.
---------------------------------------------------------------------------
    Northern border residents have reported Border Patrol Agents 
conducting roving patrols near schools and churches and asking 
passengers for their documents on trains and buses that are traveling 
far from border crossings.\15\ Incidents, such as the brutal 2015 
assault/Tasing of Jessica Cooke--a college criminology senior who had 
applied to work at CBP--at a checkpoint near Waddington, New York, have 
generated fear and distrust as well as millions of video views.\16\ The 
ACLU of Washington State brought and settled a class-action lawsuit to 
end the Border Patrol's practice of stopping vehicles and interrogating 
occupants without legal justification. One of the plaintiffs in the 
case was an African American corrections officer and part-time police 
officer pulled over for no expressed reason and interrogated about his 
immigration status while wearing his corrections uniform.\17\
---------------------------------------------------------------------------
    \15\ https://www.aclu.org/files/assets/
senate_hearing_ending_racial_profiling_- 
in_america_written_statement_romero.pdf (pp. 16-18).
    \16\ Chris Rickerd, ``Border Patrol Violence Must Stop.'' 
Huffington Post (June 5, 2015), http://www.huffingtonpost.com/chris-
rickerd/border-patrol-violence-must-stop_b_7523786.html.
    \17\ Complaint available at http://www.aclu-wa.org/sites/default/
files/attachments/2012-04-26--Complaint_0.pdf.
---------------------------------------------------------------------------
    In the Lower Rio Grande Valley of Texas, residents in mixed-status 
families say they are scared to evacuate their homes in weather-related 
emergencies for fear they will be apprehended by Border Patrol. These 
checkpoints inhibit U.S. citizen children from receiving critical 
medical care, as reported last year by the New York Times \18\ and 
echoed in Flint, Michigan's water crisis.\19\ Our colleagues in Brooks 
County, TX, contend with hundreds of tragic migrant deaths each year 
because the Falfurrias checkpoint is 57 miles from the actual border. 
Eduardo Canales, director of the South Texas Human Rights Center, 
reports that ``there has been a total of 45 bodies and remains 
recovered this year alone. These numbers only reflect what has been 
found. I would estimate that at least twice that number have also 
perished and remain scattered all over the brush terrain of Brooks 
County. These deaths are a result of Falfurrias checkpoint.''\20\
---------------------------------------------------------------------------
    \18\ Manny Fernandez, ``Checkpoints Isolate Many Immigrants in 
Texas' Rio Grande Valley.'' New York Times (Nov. 22, 2015) http://
www.nytimes.com/2015/11/23/us/checkpoints-isolate-many-immigrants-in-
texas-rio-grande-valley.html.
    \19\ Tina Vasquez, ``Flint's Undocumented Residents Go Without Care 
in Wake of Water Crisis.'' Rewire (Sept. 8, 2016), https://rewire.news/
article/2016/09/08/flints-undocumented-residents-go-care-water-crisis/.
    \20\ Correspondence with Eduardo Canales (Sept. 12, 2016) (on file 
with authors).
---------------------------------------------------------------------------
iii. cbp's ``vicinity of the border'' exemption from the department of 
    justice's guidance on racial and other profiling by federal law 
 enforcement must end, and cbp should collect data to evaluate whether 
                   it is engaging in biased policing.
    We are dismayed that CBP and the Transportation Security 
Administration (TSA) obtained ``exemptions'' from the Department of 
Justice's 2014 Guidance on the Use of Race, Ethnicity, Gender, National 
Origin, Religion, Sexual Orientation, or Gender Identity,\21\ and have 
not yet issued follow-up guidance of their own despite urging a year 
ago by the Congressional Progressive, Hispanic, and Asian Pacific 
American Caucuses.\22\ Often as a result of racial or religious 
profiling, innocent people are daily being stopped, interrogated and 
searched by Border Patrol without legal justification. As Jorge 
Rodriguez, a doctoral candidate in New Mexico whose young life has been 
filled with hostile checkpoint experiences, asks, ``Why is Border 
Patrol permitted to treat me, a U.S. citizen, differently due to the 
color of my skin?''\23\
---------------------------------------------------------------------------
    \21\ See SBCC, ``Federal Reforms Usher Open Season for Racial 
Profiling in Border Communities.'' (Dec. 8, 2014), available at http://
soboco.org/federal-reforms-ushers-open-season-for-racial-profiling-in-
border-communities/; Chris Rickerd, ``A Dangerous Precedent: Why Allow 
Racial Profiling at or Near the Border?'' (Dec. 8, 2014), available at 
https://www.aclu.org/blog/immigrants-rights-racial-justice/dangerous-
precedent-why-allow-racial-profiling-or-near-border.
    \22\ Letter of October 9, 2015, http://southernborder.org/cpc-chc-
capac-urge-dhs-to-end-discriminatory-profiling/.
    \23\ Jorge Rodriguez, ``Border Patrol Chief Must End Biased 
Policing to Restore Trust in Communities.'' (Sept. 12, 2016), https://
www.aclu.org/blog/washington-markup/border-patrol-chief-must-end-
biased-policing-restore-trust-communities.
---------------------------------------------------------------------------
    The Caucuses' letter emphasized that ``[t]he 2014 DOJ Guidance 
stresses that profiling the public based on intrinsic characteristics 
is `simply not good law enforcement.' It is also contrary to our 
Constitutional principles. In Montero-Camargo, the Ninth Circuit noted 
that `[s]tops based on race or ethnic appearance send the underlying 
message to all our citizens that those who are not white are judged by 
the color of their skin alone . . . that those who are not white enjoy 
a lesser degree of constitutional protection[,] assumed to be potential 
criminals first and individuals second.' Profiling degrades the dignity 
of individuals and groups singled out based on immutable traits.''\24\
---------------------------------------------------------------------------
    \24\ United States v. Montero-Camargo, 208 F.3d 1122, 1135 (9th 
Cir. 2000) (en banc).
---------------------------------------------------------------------------
    Both Northern and Southern Border communities are tired of CBP's 
opacity; as the Caucuses' letter makes clear, a profiling ban as well 
as data collection and publication are long overdue: ``Border 
communities eagerly await these improvements, for example, a recent 
editorial in the Watertown (NY) Daily Times calls for proper CBP data 
collection and expresses surprise that protocols are not already in 
place: `Given the questions raised over the past few years about racial 
and ethnic profiling by law enforcement agencies across the country, 
it's difficult to understand why documenting specific information about 
people who are stopped by border patrol personnel isn't being done . . 
. Detailing who is being stopped, why they are being stopped and what 
resulted from the stop would go a long way toward ensuring CBP Agents 
are staying within the law.' The Arizona Republic expressed concern 
that `[r]esidents of border communities south of Tucson have long 
complained about racial profiling and harassment at Border Patrol 
checkpoints. Their demands for information about the effectiveness of 
individual stops have been rebuffed.' ''\25\ Senator Kirsten Gillibrand 
has proposed a legislative response to this data-collection void after 
expressing dissatisfaction at CBP's lack of record-keeping.\26\
---------------------------------------------------------------------------
    \25\ ``Write it up: Bill requiring border patrol to document stops 
is long overdue.'' Watertown Daily Times (June 6, 2015), http://
www.watertowndailytimes.com/opinion/write-it-up-bill-requiring-border-
patrol-to-document-stops-is-long-overdue-20150606; ``You aren't above 
the law, Border Patrol.'' Arizona Republic (June 10, 2015), http://
www.azcentral.com/story/opinion/editorial/2015/06/10/you-arent-above-
the-law-border-patrol/71036582/.
    \26\ David Sommerstein, ``Gillibrand has `serious concerns' about 
border patrol checkpoints.'' North County Public Radio (June 4, 2015), 
http://www.northcountrypublicradio.org/news/story/28568/20150603/
gillibrand-has-quot-serious-concerns-quot-about-border-patrol-
checkpoints.
---------------------------------------------------------------------------
    Indeed, Border Patrol does not collect data on stops and searches 
that do not result in arrest, even though the President's Task Force on 
21st Century Policing urges Federal law enforcement agencies to 
``collect, maintain, and analyze demographic data on all detentions,'' 
and adds that ``[t]o embrace a culture of transparency, law enforcement 
agencies should . . . regularly post on the Department's website 
information about stops, summonses, arrests, reported crime, and other 
law enforcement data aggregated by demographics.''\27\ This data 
collection gap makes it difficult to detect and deter illegal or 
abusive treatment of the public at checkpoints and during patrol stops. 
CBP must also improve the effectiveness of Border Patrol service 
canines, which are not certified according to best law-enforcement 
standards and frequently issue false alerts.\28\
---------------------------------------------------------------------------
    \27\ President's Task Force On 21st Century Policing, Final Report 
of the President's Task Force on 21st Century Policing 69 (2015), 
(Recommendation 2.6, Action Item 1.3.1, and Recommendation 7.1), 
available at http://www.cops.usdoj.gov/pdf/taskforce/
TaskForce_FinalReport.pdf.
    \28\ ACLU Testimony for Senate Homeland Security and Governmental 
Affairs Committee Hearing on ``Dogs of DHS: How Canine Programs 
Contribute to Homeland Security,'' (Mar. 3, 2016), 6, https://
www.aclu.org/sites/default/files/field_document/senate_hsgac_canine_- 
hearing_aclu_statement-final.pdf.
---------------------------------------------------------------------------
       iv. case study: checkpoints in and around arivaca, arizona
    The communities of Arivaca and Amado, Arizona, located about 30 
miles from the border, live with a substantial Border Patrol presence 
in their midst--surveillance towers, drones, helicopters, and dozens of 
agents on roving patrols.\29\ Perhaps the most prominent feature of 
local Border Patrol operations is the 4 vehicle checkpoints located 
within 40 miles of Arivaca and Amado, through which residents must pass 
to go about their daily business.
---------------------------------------------------------------------------
    \29\ Michel Marizco, Living Life Under Federal Watch On The Border, 
Fronteras/NPR, Aug. 5, 2013, http://bit.ly/1EHuBaF; Miller, War on the 
Border, supra (quoting an Amado rancher, ``If you conduct business 
here, you live here, you're always being watched, you're always being 
stopped, and you're treated as if you're a criminal.'')
---------------------------------------------------------------------------
    Those checkpoints have been the source of numerous civil rights 
complaints, and one of them, the Arivaca Road checkpoint, led to a 
monitoring campaign by local residents demanding its removal. That 
campaign generated extensive media attention,\30\ resulted in 
litigation,\31\ and produced what appears to be the first and only 
objective data available on systemic racial disparities in Border 
Patrol checkpoint operations.\32\
---------------------------------------------------------------------------
    \30\ See, e.g., Fernanda Santos, Border Patrol Scrutiny Stirs Anger 
in Small Town, NY TIMES, June 27, 2014, http://nyti.ms/1EY9oca.
    \31\ Bob Ortega, Border Patrol Sued for Harassing at Arivaca 
Checkpoint, AZ REPUBLIC, Nov. 26, 2014, http://bit.ly/1Ec1k6n.
    \32\ Paul Ingram, Residents Claim Racial Profiling at Border Patrol 
Checkpoint, TUCSON SENTINEL, Oct. 19, 2014, http://bit.ly/1B52CeR.
---------------------------------------------------------------------------
    In July 2013, the Arivaca, Arizona-based organization People 
Helping People (PHP) sponsored a forum for local residents to discuss 
the Border Patrol presence in their community and its impact on their 
lives. The discussion centered on the Arivaca Road checkpoint, with 
many describing routine harassment and abuse by agents. The group later 
reported: ``[A]ll participants agreed on one point: that something is 
fundamentally wrong when the Federal Government enters a community and 
implements a policy by which no one, including children on their way to 
school, can leave without being stopped and questioned by armed Federal 
agents--and under which all residents are suspects simply by virtue of 
where they live.''
    PHP initiated a campaign to demand removal of the Arivaca Road 
checkpoint. The group began by documenting abuses of local 
residents.\33\ A petition calling for removal, signed by nearly half of 
Arivaca's residents and supported by Representative Raul Grijalva, was 
rejected by then-Tucson Sector Chief Padilla. Despite several 
statements by local Border Patrol officials that community concerns, 
including civil rights complaints, would be taken seriously, the agency 
has taken no public action in response to any such complaints. Those 
include a January 2014 ACLU complaint submitted to DHS oversight 
agencies on behalf of 15 Arizona residents, including several from 
Arivaca, which is still pending.\34\
---------------------------------------------------------------------------
    \33\ Community members' descriptions of their experiences at the 
checkpoint are posted to the group's website, http://phparivaca.org/
?page_id=210.
    \34\ ACLU of Ariz., Complaint and Request for Investigation of 
Abuses at Border Patrol Interior Checkpoints in Southern Arizona, 
Including Unlawful Search and Seizure, Excessive Force, and Racial 
Profiling (Jan. 15, 2014), http://bit.ly/1k73lqO.
---------------------------------------------------------------------------
    In February 2014, PHP initiated a checkpoint-monitoring campaign to 
collect data on checkpoint operations and deter further abuses. Border 
Patrol immediately responded to the monitoring campaign by creating a 
roughly 350-foot wide buffer zone around the checkpoint; agents 
repeatedly claimed that exclusive authority within the ``enforcement 
zone'' was conferred by a county permit--this was unconvincing to 
advocates, as Border Patrol policies explicitly exempt checkpoints from 
local permitting requirements. After twice more writing to Chief 
Padilla seeking to resolve the dispute, members of PHP filed a lawsuit 
in November 2014.\35\
---------------------------------------------------------------------------
    \35\ Jacobson et al. v. DHS et al., Case 4:14-cv-02485 (filed D. 
Ariz., Nov. 20, 2014), http://bit.ly/1NKI99a.
---------------------------------------------------------------------------
    Prior to filing suit, PHP released the initial results of its 
monitoring campaign. Based on more than 100 hours of observation and 
2,379 recorded vehicle stops, PHP's report found that Latino motorists 
were referred for secondary inspection 20 times more frequently than 
White motorists, and asked for identification 26 times more 
frequently.\36\ Meanwhile, monitors observed no arrests or seizures of 
contraband; Border Patrol officials subsequently admitted that arrests 
at the Arivaca Road checkpoint are extremely rare, and that its primary 
purpose is ``deterrence.''\37\
---------------------------------------------------------------------------
    \36\ Community Report: Campaign Documents Systemic Racial 
Discrimination at Arizona Border Patrol Checkpoint, Oct. 1, 2014, 
http://bit.ly/1NKChNh.
    \37\ Jacobson Complaint, supra, at 15  78.
---------------------------------------------------------------------------
    Two important lessons can be drawn from the experience of the 
Arivaca community. One is that CBP must expand its data collection to 
detect and deter abuse. To match best law-enforcement practices, such 
data must include critical information such as perceived race or 
ethnicity of those stopped, and the duration of and reasons for stops 
and searches. That information relates not just to the civil rights of 
border residents, but also has a direct bearing on the efficacy of 
operations (if agents are wasting time and resources violating the 
rights of innocent travelers, the agency's mission is compromised). As 
the PHP report concludes, ``The fact that a small volunteer 
organization can document evidence of discriminatory and unlawful 
conduct by agents shows that the Federal Government can and should do 
the same, while holding agents accountable to the rule of law. The 
government's continued failure to do so implies that it condones these 
practices.'' Secondly, CBP must be more transparent and responsive to 
community concerns, including allegations of civil rights abuses. 
Border Patrol's response to the PHP campaign--ignoring community 
complaints and then creating a checkpoint buffer zone, arbitrarily 
restricting residents from observing the treatment of friends and 
neighbors in their own community--demonstrates that the agency has a 
long way to go toward its promises of increased accountability and 
transparency.
                               conclusion
    CBP's interior enforcement operations run contrary to the reality 
of border communities, which are safe, diverse, and economically 
critical to this country. As Representative O'Rourke points out, ``El 
Paso is the safest city when you look at violent crime. There's no 
reason to cordon off the U.S. side of the U.S.-Mexico border from the 
rest of the country.''\38\ Border communities are forced to endure 
regular aggression, hostility, and intimidation from a significant 
percentage of CBP Officers and Agents. Border residents, like any 
community, should not have to live with fear and mistrust of law 
enforcement.
---------------------------------------------------------------------------
    \38\ Denvir, ``Curbing the Unchecked Power,'' supra.
---------------------------------------------------------------------------
    Border communities are a vital component of the trillion-plus 
dollars in trade between the United States and its neighbors, and the 
damaging effects of militarization on them must be addressed by serious 
oversight and accountability reforms to CBP. While the Federal 
Government has the authority to control our Nation's borders and 
regulate immigration, CBP officials must do so in compliance with 
National and international legal norms and standards.
    As employees of the Nation's largest law enforcement agency, CBP 
officials should be trained and held to the highest law enforcement 
standards. Systemic, robust, and permanent oversight and accountability 
mechanisms for CBP must be the starting point for any discussion on 
border security:
  <bullet> A DHS-wide ban on racial, religious, and other offensive 
        profiling that closes the ``vicinity of the border'' exemption 
        to DOJ's profiling guidance for Federal law enforcement;
  <bullet> Robust data collection and publication to ensure that CBP 
        operations comport with anti-discrimination law and guidance;
  <bullet> Equipping all CBP personnel with body-worn cameras, within a 
        policy framework including robust privacy protections;\39\
---------------------------------------------------------------------------
    \39\ See, e.g., National Immigration Forum, Body Cameras and CBP: 
Promoting security, transparency and accountability at our nation's 
borders (2015), http://immigrationforum.org/wp-content/uploads/2015/11/
Body-Cameras-and-CBP-Report-11062015.pdf.
---------------------------------------------------------------------------
  <bullet> Implementing enforceable CBP custody standards;\40\
---------------------------------------------------------------------------
    \40\ Ed Pilkington, ``Images from US Border Patrol facility reveal 
harsh conditions for immigrants.'' The Guardian (Aug. 18, 2016), 
https://www.theguardian.com/us-news/2016/aug/18/us-border-patrol-
facility-images-tucson-arizona.
---------------------------------------------------------------------------
  <bullet> Reforming DHS complaint systems to provide a transparent, 
        uniform, efficient process for filing complaints;\41\ and
---------------------------------------------------------------------------
    \41\ See Coalition Recommendations to DHS to Improve Complaint 
Processing (2014), https://www.aclu.org/files/assets/
14_5_5_recommendations_to_dhs_to_improve_com- 
plaint_processing_final.pdf; see also American Immigration Council, No 
Action Taken: Lack of CBP Accountability in Responding to Complaints of 
Abuse (2014), available at http://www.immigrationpolicy.org/special-
reports/no-action-taken-lack-cbp-accountability-responding-complaints-
abuse.
---------------------------------------------------------------------------
  <bullet> Rolling back the antiquated 100-mile zone to properly define 
        ``reasonable distance'' from the border as no more than 25 
        miles (10 miles for warrantless entry onto private lands).
    Such improvements would create a legacy of CBP reform in order to 
improve the quality of life and restore trust for this and future 
generations of border residents. We urge the subcommittee to prioritize 
accountability at CBP that transforms border enforcement in a fiscally 
responsible manner, respects and listens to border residents before 
imposing policy, and upholds Constitutional rights and American values.

    Ms. McSally. Thank you, Mr. Ramirez.
    The Chair will now recognize myself for 5 minutes for a 
first round of questions.
    I appreciate the testimony of the second panel. I will just 
share that, you know, my perspective as the Chairman of this 
subcommittee is oftentimes in Washington, DC, people are 
looking for areas of disagreement and divisiveness so that 
people can take their corners and put their jerseys on and 
figure out, you know, where we can find the biggest 
controversy.
    My intent in this leadership position and with this 
subcommittee hearing is to look for areas of agreement, look 
for areas where across the spectrum and from different 
perspectives we can find some understanding and common ground, 
which needs to be based on facts and needs to be based on the 
experiences of the people that all of you are represented and 
the facts, Dr. Golob, of, you know, the studies you have done 
related to the impact of the current strategy on our 
communities.
    So I appreciate all of your testimonies, both written and 
summarized in verbal, in order to present and highlight for the 
record the challenges that communities are having with the 
defense-in-depth strategy, which includes the checkpoints.
    I believe that we can, between Border Patrol leadership, 
Border Patrol Agents, and those that are residents in the 
border region, we can find where those Venn diagrams overlap, 
as all Americans, to identify solutions that are going to have 
the objective of keeping our country safe, keeping our 
community safe, preserving our civil liberties, and making sure 
that our border communities are not being impacted negatively 
economically, environmentally, across the board, all the things 
that have been presented here today. These are things that are 
not in contradiction with each other.
    I do appreciate that the perspectives of the second panel 
have shown where, again, we can, I think, come to places of 
agreement that there are negative impacts that need to be 
addressed. People across the political spectrum would agree 
that there are things that we need to do maybe better and 
differently in order to secure our border, keep our country 
safe, keep our communities safe, protect our civil liberties, 
and provide opportunity for individuals, small businesses, 
communities to be able to, you know, grow and prosper and meet 
their economic potential and not have negative impacts from the 
strategy that we currently have.
    So I really appreciate the different perspectives from 
everybody on the panel today.
    Follow-up questions: I know you all didn't get to some of 
the things that were in your written testimony. I will start 
with Mr. Brasher.
    Again, we have had conversations on multiple occasions 
about the impact in southern Arizona of specifically the 
checkpoints and the defense-in-depth strategy. So you are now 
Chief Morgan; you are now responsible for the mission of 
keeping these very communities that you are advocating for 
safe. You know, I know you have had multiple conversations and 
studies about this issue, but we want to make sure we also come 
with solutions, right? So if you are in charge, what would you 
shift the strategy to be?
    Because if we just today got rid of checkpoints but we 
didn't address the strategy, then, if you look at the numbers, 
I mean, that is not necessarily making us safer, right? That is 
not necessarily stopping the cartels. That is actually going to 
have, I think, a negative implication.
    So if you are in charge, you know, what would you do 
differently, and how would that happen, in order to address the 
issues that you have been able to address today in your 
testimony?
    Mr. Brasher. You bet. Thank you, Chairman McSally. Again, I 
agree with your comment just a moment ago. I think we are 
looking for that overlap.
    But to the point specifically that you asked, I think there 
is a variety of things, actually, that can be done, and I think 
some of them are already being employed by the Border Patrol to 
one level or another already.
    I think rebuilding the port of entry was a huge first step, 
by the way, so that there was more technology available at the 
border as trucks and others are coming across. So I think that 
was a big step.
    But I also think that--and it was referred to earlier by 
Chief Morgan--I think that the use of aerial vehicles, whether 
they be drones or helicopters, but I think there is technology, 
certainly, that can be giving real-time information to our 
agents on the ground about what is happening right now. So I 
think that is another technology that can be used.
    I think, in addition, the vehicle barriers that have been 
used with, I think, a great deal of success in areas that are 
likely for those involved in illegal activity to cross.
    So I think the drones, I think the vehicle barriers. I also 
think that, for those areas that are very rough and somewhat 
inaccessible along the border, I understand that the Border 
Patrol has used what they call the FOBs, or the forward 
operating bases, where they have agents actually out there on 
horseback and, in some cases, with backpacks, patrolling and 
monitoring those areas.
    I think something as simple, quite frankly, as sharing 
intelligence with local law enforcement, you know, the sheriffs 
and the police departments in Nogales, things of that nature. I 
know that there have been some hold-ups in the communication 
element so that these people of varying agencies can talk 
together on the radio in real time because they use different 
bandwidths and things. So I think that is an area that could be 
looked at.
    I also think--I know, some time ago, a virtual fence was 
looked into, and I know that technology had some challenges to 
it. But I think now we are far enough down the road that 
hopefully some of those challenges have been overcome and the 
use of virtual technology would play a more significant role.
    So I think there is no silver bullet, from my perspective, 
of one thing we can do, but I think using all those things in 
combination would help.
    Ms. McSally. Great.
    Ms. Davis, same question. You are now in charge of the 
Border Patrol--again, you have shared some of it in your verbal 
and your written testimony--representing the ranchers and the 
border residents in our community in southern Arizona. What 
would you recommend we do?
    Ms. Davis. I think that Chief Morgan is making a really 
good first step by doing exactly what he is doing right now, in 
that he is going to every single sector and finding out what 
their individual needs are. Because I have friends all along 
the border, from San Diego to Brownsville, Texas, and every 
sector is really different.
    I spoke with Mr. Morgan this morning briefly, and I said, I 
understand that each sector--it is bad all across the border, 
but it is different bad, which is not a very grammatically 
correct statement, but it is different bad. They are all 
different. He has to find out what is unique about each one and 
figure out what works better in that particular sector. Really 
just reaching out, building a personal relationship with all 
those sector chiefs.
    I think there is a disconnect, sector-to-sector, along the 
border. From 40 years of history with the border, I see that 
just in Arizona. There is not any cohesiveness, or it is not 
run the same way in each sector. So what happens, say, in Santa 
Cruz County or the Sonoita sector is not what happens in the 
Douglas sector and clear over in McAllen, Texas. There needs to 
be continuity along the border.
    I don't know how he accomplishes that. I know I am him 
right now, but I don't know how I accomplish that, except to 
communicate, communicate, communicate and just really outline 
the problems of each specific sector and how they relate to 
each other. Because they all neighbor each other along the 
border. You have to become good neighbors with those people and 
decide what is acceptable in this sector and what is acceptable 
in this one and make them cohesive.
    Ms. McSally. So not a one-size-fits-all----
    Ms. Davis. Right.
    Ms. McSally [continuing]. But also being adaptable and 
nimble, right?
    Ms. Davis. Exactly.
    Ms. McSally. Because the bad guys are going to be nimble as 
well, right?
    Ms. Davis. Right. They are going to move; they are going to 
do their thing. Like the little Dutch boy with his finger in 
the dike, wherever you stop it up, they are going to go around.
    Ms. McSally. Right.
    Ms. Davis. Let me just say that I do agree with Mr. Ramirez 
that none of us like to be profiled. None of us do. I don't, 
you know, necessarily appreciate having a police force presence 
either. But I know we have to have some strong leadership and 
backup, and, you know, I could see that happening if there is 
more communication.
    Ms. McSally. Great. Thanks, Ms. Davis.
    Dr. Golob, I don't know if you find yourself in a position 
to be able to answer that question, not just for the study on 
the checkpoints but all the research and the efforts that have 
happened at the university with the border center of 
excellence. Do you have any perspective, if you were in charge, 
how you would address things differently?
    Ms. Golob. Certainly. If I was wearing the green hat, I 
think there are some low-lying issues that would be relatively 
easy for Border Patrol to implement. Specifically, the data 
integrity and quality issues are fairly straightforward. You 
know, any smart master's or doctoral student could implement 
them in a short amount of time.
    I know, you know, getting the funds for technology change 
isn't as easy as it may sound and dealing with an agency's 
budget, but those are relatively quick, inexpensive changes 
that can be made. As well as the simulation model for 
checkpoints, for managing traffic and resource allocation, is a 
relatively easy thing to fix.
    The harder-level issues to address are, first, the 
efficiency and effectiveness issues. It is difficult for an 
agency to undergo a test and evaluation of how well they are 
performing. We have all had job evaluations that had us in a 
high sense of nervousness, but I think it is ultimately to 
Border Patrol and the Nation's benefit for an objective 
assessment of their performance effectiveness, be it by red-
teaming, as we recommended, or some other measure. We, as the 
citizens, need no know how well checkpoints are doing before we 
can decide what to do about them.
    Finally, community impacts. You know, that is a much 
messier issue to address because it encompasses so many 
factors, as the other panel members addressed. But, from my 
perspective, trying to see which data can be analyzed, you 
know, can be put in a quantitative form, such as housing 
prices, such as school lock-downs, such as incidences of 
profiling. By gathering that data, Border Patrol can present a 
more accurate and transparent picture to the border residents.
    Ms. McSally. Great. Thank you, Dr. Golob.
    Mr. Ramirez.
    Mr. Ramirez. Thank you, Madam Chairman.
    I would agree with Dr. Golob. You know, one of the things 
that we need to know is how effective are these checkpoints. 
Without that transparency, without that accountability, without 
that oversight, what it has created has been a mistrust between 
local residents and the CBP. I think that that should about our 
biggest concern.
    You know, we enjoy wonderful relationships with local law 
enforcement, and we know that the best way to provide public 
safety is by ensuring that local residents could call their 
local police station and say, you know, I see something that is 
suspect here----
    Ms. McSally. Right.
    Mr. Ramirez [continuing]. Can you come check it out?
    I will tell you, when it comes to Border Patrol, that is 
not the case. We have serious problems with corruption. We have 
a perception in the public that this agency operates with 
impunity, that it lacks transparency.
    But I think that the Commissioner has taken important steps 
in the last couple of years. We have been engaged in a very 
robust conversation with the Commissioner, Southern Border and 
Northern Border communities. I think that Chief Morgan, in his 
previous capacity at CBP, when he was heading internal affairs, 
you know, in an interim capacity, created the conditions for 
more transparency.
    Without those transparency, accountability, and oversight 
mechanisms that are urgently needed in CBP, it is very 
difficult to have communities say, you know what, I am going to 
call Border Patrol if I see something going on, because of the 
experiences that I described. We all have been mistreated. You 
know, what makes me a suspect is the color of my skin. Unless 
we reverse that and force DHS to follow the same guidelines the 
Department of Justice has done in terms of banning racial 
profiling, it will be very difficult to regain that trust.
    However, I do want to reiterate that the Commissioner has 
taken wonderful steps in the direction of added accountability 
and oversight. But we need to make sure that we implement those 
reforms as soon as possible so that we could narrow the gap 
between communities and CBP.
    Ms. McSally. Great. Thank you.
    The Chair now recognizes my colleague from Texas, Ms. 
Sheila Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Let me thank the Chairman very much.
    Let me specifically say to our witnesses, I appreciate very 
much your testimony. I was delayed because I was in a meeting 
on criminal justice reform, but I wanted to make sure that I 
had an opportunity to at least hear some of the very important 
testimony.
    I want to say to Ms. Davis and Mr. Brasher, that is the 
reason that we have what we call the People's House, for you to 
petition your Government. I have heard you. I am from Texas. I 
have spent a lot of time on the border, walking the border, 
traveling to the border, traveling over the border to Mexico, 
looking at the resources. I have been on the Homeland Security 
Committee where, in the few days after 9/11, I came on this 
committee in its formulation, when we formulated the Homeland 
Security Committee. If there was anything embedded in my heart, 
it was to protect the American people.
    So I want to just add some comments. When I co-chaired this 
committee, or was the Ranking Member, with Candice Miller from 
Michigan, the Northern Border, we wrote 1417, the Border 
Results Act of 2013. It was a bipartisan, comprehensive border 
security bill. Now, it insisted on 90-percent operational 
control--and I would always be eager to raise that number, but 
that was its initial writing--of the illegal border crosses. 
That is certainly far from where we are today. We are not at 
that.
    I think what was good about it is that it directed the 
Secretary of the Department to develop and report to Congress 
for approval a National strategy to gain and maintain 
operational control of the Nation's border. That is what I am 
hearing you say, and I am going to just ask a brief question 
about that.
    Because to live your lives, to have operational control 
would be great, that you could know what was going on, contain 
those who are illegally crossing. But it also gave the 
direction for advanced technology and from existing taxpayer-
owned Department of Defense technology being brought back from 
Iraq and Afghanistan. We have a lot of overlap and a lot of 
opportunities to use some of the talents and work that was 
already done.
    What I think what was important about this for Mr. Ramirez 
as well, it required our oversight agency--that is the General 
Accounting Office; that is the numbers guys--to do an 
independent investigative team or arm of Congress to verify the 
viability of the Department's strategy--were they meeting their 
goals, the implementation plan, the metrics, and results. That 
is what I hear all of you saying: Let's get something that 
works.
    So I just want to ask a brief question to Mr. Brasher, and 
then I have some questions for Mr. Ramirez. I want to thank Dr. 
Golob, because we need academics dealing with this issue.
    Mr. Brasher, you want something that works at the border. 
Is that my understanding?
    Mr. Brasher. Yes, Congresswoman.
    Ms. Jackson Lee. So there is discussion about moving the 
line of scrimmage, and, certainly, I think we need to listen to 
you.
    So my point would be, in making that determination, is the 
data--do you want us to listen to you but also to do that pilot 
or to implement, going forward on enhanced border security, but 
getting the data and making sure we are getting it right? Would 
that be helpful do you?
    Mr. Brasher. Yes, Congresswoman. Absolutely. I am not 
suggesting we go out, excuse the term, willy-nilly and just 
start changing things. I think to get the data, as Ms. Golob 
indicated, and then sitting down and having a cogent discussion 
about where that overlap is and what solutions exists.
    Ms. Jackson Lee. Ms. Davis, listening to you articulate--I 
want to immediately give you solutions, but the data, is that 
important to you so that we get the results that you need to 
have to continue your business and your life?
    Ms. Davis. Well, data is important, of course. I think it 
always is, you know. It is an important thing to know. When you 
see it change over the years, you know that something is either 
being helped or hindered. But I think, as we live day-to-day, 
those of us who live in the borderlands, we just--we feel it--
--
    Ms. Jackson Lee. Right.
    Ms. Davis [continuing]. More than anything.
    I think it is important to note that it is not just about 
my safety or my family's safety. I feel like this is my 
country, and National security is at risk.
    I think that you would have a more humanitarian approach if 
you stopped the traffic at the border. I don't think you would 
have the deaths. I mean, every rancher I know has found dead 
bodies----
    Ms. Jackson Lee. I know.
    Ms. Davis [continuing]. On their property.
    Ms. Jackson Lee. I have been there.
    Ms. Davis. It is disheartening when you find that. You feel 
for these people. I don't want people to think that we are not 
humanitarian, because I have taken care of a lot of illegals 
that have come through over the years with medicine and help 
and water and food and all of the above.
    But, while figures are important, I can see it and I can 
feel it on a daily basis whether it is working or not.
    Ms. Jackson Lee. Well, that was the underlying premise of 
the legislation that we drafted a year or 2 ago, which is 
actually action. It was at that time called the Border Results 
Act of 2013. So we want to do that as well.
    Let me go on to Dr. Golob. Then, if the Chairman yields, I 
would like to be able to ask Mr. Ramirez a question.
    Dr. Golob, the former Commissioner--and as I understand 
Commissioner Morgan's testimony, that he has just been here for 
a while, that he has to get his hands around the issue. He 
wants to determine whether the resources are being used in the 
right place. The previous Commissioner, Kerlikowske, committed 
to reviewing checkpoint data to assess their efficiency as a 
border security tool and to justify the use of resources.
    As we listen to Ms. Davis and Mr. Brasher, they have said 
results. In your academic analysis, would that be a good 
methodology for the Government to do to make sure these 
resources tell us what scrimmage line we should be at?
    Dr. Golob.
    Ms. Golob. Yes, with the caveat that we need to understand 
what data is being provided to us and what it is actually 
measuring. You know, as we discussed before, apprehension data 
in itself is only giving you a snapshot in time of what is 
happening.
    We have to understand how much activity is going through 
and what percentage of that unknown level of activity the 
apprehension data is capturing, and only till we know that and 
develop a proxy data for measuring the unknown quantity of 
illegal activity can we know how effective apprehension data 
is. Otherwise, the apprehension data and other similar 
snapshots can be interpreted or manipulated over time.
    Ms. Jackson Lee. Knowledge is actually power. I indicated 
how long I have been on this committee, and it was at a time 
when our Border Patrol Agents were at a very small number. We 
collectively, in a bipartisan manner, enhanced those numbers. 
But also, I was out on the border with Border Patrol Agents at 
night, and we gave simple things like night goggles, laptops, 
which a decade or so ago they did not have.
    So I am very cognizant of that, as I am cognizant I think, 
Doctor, that your work can also enhance Mr. Ramirez's concern, 
when we talk about making sure if we get the right information 
that we don't violate the civil liberties of individuals and 
certainly Americans. I thank you for that. Thank you for that 
instruction.
    I just want to move to Mr. Ramirez, if I can, and 
acknowledge the point of what you spoke, Mr. Ramirez. That is, 
of course, people who reside along the Southern Border, 
especially those Americans of Mexican ancestry or Hispanic 
descent that have resided in the United States for eons and 
certainly, as you well know, Texas, Arizona, New Mexico. 
Certainly, there are iconic families and we have worked 
together with the Mexican-American community for decades, 
centuries, on-going. It is important that those generational 
linkages bestows upon them and all citizens their civil 
liberties. I am concerned about the great work that you are 
doing.
    If I might just pose for a moment the question that I hope, 
one or two, that you can answer. The GAO has previously 
reported that a component of the strategy for checkpoints is to 
cause illegal entrants to use less-traveled secondary roads on 
which they are more visible. Moreover, GAO has reported that 
Border Patrol officials stated that other priorities sometimes 
precluded positioning more than a minimum number of Agents and 
resources when checkpoint circumvention occurs.
    Has the Border Patrol taken steps, in your working with 
them over the years, to minimize the danger to migrants who may 
seek to circumvent the checkpoints? Has it tried to minimize 
the impact on surrounding neighborhoods, ranches, and 
communities? What more must be done?
    Mr. Ramirez. Thank you very much, Congresswoman, for your 
comments and your question. As I mentioned earlier, the last 2 
years, Commissioner Kerlikowske and his team have been diligent 
about meeting with Southern Border and Northern Border 
communities. However, there is a huge mistrust between CBP and 
border communities, particularly people of color living on the 
Southern Border and increasingly so along the Northern Border 
with Canada.
    There are some commitments that the commissioner has made 
in terms of deploying, for instance, body-worn cameras, to 
ensure that CBP, the largest law enforcement agency in the 
Nation, complies with 21st Century policing best practices. 
That was a commitment that was made several years ago, and we 
have not yet seen the implementation of body-worn cameras. We 
have urged the Department of Homeland Security to follow the 
example of the Department of Justice in issuing guidance on 
racial profiling, and DHS still has not--is behind.
    So without having those basic policies in place, it is very 
difficult for CBP to continue to do its important mission 
without gaining the trust of families, as you mentioned, 
Congresswoman, who have been there even before the border was 
there. It is about time that the largest law enforcement agency 
in this Nation leads by example in the important conversation 
that we are having in this Nation about policing reform.
    Without those basic components, Congresswoman, I would say 
that it will be very difficult for CBP to gain the trust, not 
only of residents, but of our local and State elected 
officials. So in order for us to reevaluate the checkpoints, we 
need to make sure that local elected officials at school 
districts, at Tribal governments are also part of the 
conversation to look at what is the impact of checkpoints in 
our daily lives.
    We haven't had that conversation ever. The time to have 
that conversation is now. That is why I appreciate very much 
this subcommittee having an opportunity for us finally to have 
an important conversation about the impact that checkpoints 
have on our daily lives.
    Ms. Jackson Lee. Let me quickly wrap up and just make this 
point and ask two questions. First of all, I think the Chairman 
knows I am a strong supporter of comprehensive immigration 
reform that is a holistic view of access to citizenship, but 
also the strong handling of the border. I am not a person who 
runs away from that issue and I don't think you run away from 
it.
    I just noticed that the Border Patrol had a strategic plan, 
and probably under the previous commissioner, now going on 
Border Community Liaison Program, ranch liaison, and town hall 
meetings, which I hope that Ms. Davis and Mr. Brasher have been 
involved and I hope you have been involved. If not, this is 
something we want to encourage, because this is how they hear 
about the concerns on the ground.
    So I want to just pose these questions, because I don't 
hear any adverse viewpoint from you about the responsibilities 
of the Federal Government securing the border. But you are 
looking at the way to do it and the way to respect all of the 
citizens that travel.
    So would you share with me some of your civil liberties 
challenges and concerns with the stopping that is going on? 
Might I qualify this by saying, having worked with them, having 
spoken to them in large numbers, able, hardworking public 
servants Border Patrol Agents are. I know that. Many of them 
have to leave their family. They are posted somewhere else from 
where their family is. So let me publicly thank them for their 
service.
    What we are trying to do here is to make a matrix that will 
work. So if you would share that, and share as well the comment 
that you made about racial profiling, maybe you have an 
anecdotal assessment, so that we can look at how we use our 
Border Patrol checkpoints to make them effective for the law 
enforcement duties, but also comport with the very basic value 
of this Nation is the equality of all persons. If you could 
talk about the civil liberties that you see and the issue of 
racial profiling.
    Mr. Ramirez. Thank you very much, Congresswoman. Perhaps 
the biggest travesty in the border region and one that, 
regardless of where we stand on the issue of immigration 
reform, is the moral obligation we have as a Nation to stop the 
deaths of our brothers and sisters traveling across the border.
    Operation Gatekeeper and Operation Hold the Line were 
mentioned earlier with Chief Morgan. Those two policies are 
directly responsible for the deaths of thousands of folks. More 
than 20 years later, the time has come for us to reevaluate 
that moral weight that we have on our Nation's shoulders. So 
addressing that issue is important.
    We have worked with the commissioner to do things like 
deploy rescue beacons so that when folks are in distress, they 
can press a button, a signal will be sent, and we can then 
deploy the search-and-rescue elite team of the Border Patrol to 
prevent that death. That is perhaps the No. 1 civil rights 
atrocity that we are facing at the border, and all of us, I 
believe, have seen the ill effects that that has on our 
communities.
    When it comes to the issues of racial profiling, 
Congresswoman, I mentioned earlier, you know, I can't leave my 
hometown of San Diego without going through a checkpoint. If I 
want to visit my in-laws in the neighboring county to the east, 
I have to go through a checkpoint. I have to carry my U.S. 
passport with me and my child has to also carry his U.S. 
passport with him to visit his grandparents. If we want to go 
to Disneyland, it is the same thing, to the north.
    The time to end the shameful practice of racial profiling 
has come. The entity that must lead by example is the largest 
law enforcement agency in this Nation, which is Customs and 
Border Protection.
    The Department of Justice has issued guidance in that 
regard. The White House has issued guidelines for 21st Century 
policing. That is the No. 1 civil rights violation that we are 
facing as U.S. citizens in our own country. I have to show 
proof of citizenship when I want to take my child to visit his 
grandparents in the United States. We have never left the 
Nation.
    So that is perhaps the most dramatic impact that this lack 
of accountability and lack of transparency, heavy-handed 
enforcement has on our daily lives.
    I will conclude, Congresswoman, with saying that the issues 
of use of force in our region have been addressed adequately, 
first by Mr. Morgan in his previous capacity as head of 
internal affairs at CBP and hopefully now in his current 
tenure, but we still have unresolved issues of use of force in 
our community. We are talking about U.S. citizens. We are 
talking about children. We are talking about Mexican nationals 
standing on the Mexican side of the border who have been killed 
by CBP Agents and Officers. Those cases remain unresolved.
    In order for us to protect the homeland, we must ensure 
that we protect the basic values that we hold dear to our 
Nation, and those are the values of life, liberty, and the 
pursuit of happiness.
    I will tell you, Congresswoman, we will be happy the day 
that I am able to take my kid to see his grandparents and I 
don't have to be pulled over to question a 2-year-old's 
nationality. That is a shameful practice in this country and it 
must come to an end.
    Ms. Jackson Lee. I want to thank the witnesses. I want to 
thank the Chairman. She has been enormously kind. This is a 
passion of mine, and I am excited that I got to hear the real 
important people that were here on this panel.
    I just want to conclude by saying that, Madam Chairman, we 
had developed from 2012 to 2016 this outreach program, Border 
Community Liaison Program. I didn't get a chance to ask ranch 
liaison and town hall meetings. Maybe we will have another 
hearing where we bring additional representatives out of New 
Mexico, Texas, and to hear how those meetings are working.
    Then I do think Mr. Ramirez--and I have heard no contrary 
testimony--is very much worth listening to, developing the 
racial profiling matrix to try and deal with those citizens 
traveling about. I think he specifically, since he is from San 
Diego, talking about, as he said, going up north, but going up 
north in his State of California and having not crossed any 
border and then having to be subjected to that.
    So from Ms. Davis wanting results and making sure that 
checkpoints--there is action in checkpoints and that there is 
an effective checkpoint, I think what we have got here is a 
meeting of the minds that we have got to be reasonable. You 
were here, but I would encourage to look again at H.R. 1417 and 
however it could be updated, coalesced with our colleagues on 
both sides of the aisle. We drew bipartisan support. There were 
some bumps in the road about the 90 percent versus 100. I don't 
know if anyone can reach that number. But certainly, in keeping 
with Mr. Ramirez's admonition, we could look at this question 
again and find the reasonable common ground.
    I don't know whether, Madam Chair, I could encourage you 
with a smile to join me on comprehensive immigration reform, 
which is certainly still there. I think if we had that 
legislation, we wouldn't have a number that keeps going up and 
down, we are not sure, 11 million individuals who are seeking 
status here.
    But I think our work here is about border security, and I 
think these have been very instructive testimonies. To each and 
every one of you, I am so grateful that you came this morning. 
Thank you. I am going to get to work on the great suggestions 
that you have made.
    I yield back, Madam Chair.
    Ms. McSally. OK, great. Thank you. OK. I have a lot of 
other questions, but I first want to comment that, you know, we 
don't have the voice of the agents at the table today, and I 
think it is important. I have heard you all say, but it is 
important to reiterate that we have men and women out there 
that are putting on the uniform every single day to serve their 
country in a different way to keep our country and our 
community safe. Many of them are veterans and it is a 
continuation of their service.
    We recently lost Manuel Alvarez in the Tucson sector 
because of the dangers of the type of job that they do. We 
recently had a shooting incident at a port of entry, although 
that wasn't Border Patrol, it was CBP, but still, this is a 
dangerous job. We have men and women in our community that are 
saying, here am I, send me, I want to help keep our community 
and our country safe. As Chief Morgan mentioned, 7,542 assaults 
on agents happening.
    When I was in the military, when we would see challenges of 
any issues related to, you know, mission execution, we would 
always ask, as leaders, have we given them the guidance, 
resources, and training that they need in order to do the job 
and do it well?
    So we, I think, should be asking ourselves from this 
committee to the Border Patrol leadership in Washington, DC, 
guidance, resources, and training for them to be able to do the 
job. None of them get out of bed in the morning and say, let's 
not secure the border. Right? These men and women are doing 
what they are told to do with the training and the resources 
that they have been given. We are here to look at the bigger 
picture of what needs to change as far as the guidance, you 
know, the resources, the training, the policies equipping them.
    I mean, when I was out with them on a no-notice ride-along 
out there, didn't let anybody know we were going to be out 
there, a few months ago, they talked about how many of them are 
out by themselves patrolling at night without any night vision 
goggles. This doesn't make any sense.
    So I know, Mr. Ramirez, you talked about the increase of 
the resources that we are using toward border security, but we 
need to make sure--and this is part of our discussion today--
those resources are used well, it is the right amount of 
resources, the right amount of manpower to execute the correct 
strategy, to make sure that we are being effective, you know, 
implementing the right technologies. Again, we are taking care 
of the men and women to make sure that they are compensated, 
you know, for their service and all the elements that go with 
that. We are not investing in strategies that don't work, which 
gets to the discussion today of effectiveness. How do we know 
we are being effective with our resources unless we are 
measuring it well, and we can have a thoughtful discussion on 
how to adjust the strategy in order to get to the objectives 
that, again, we can all agree on. Keep the country safe, keep 
the community safe, protect civil liberties, you know, don't 
impact the daily lives and, you know, the economic situation 
and the security situation for our communities. I mean, those 
are things we can all agree upon.
    Ms. Jackson Lee. Madam Chair.
    Ms. McSally. Yes.
    Ms. Jackson Lee. I apologize. May I just put into the 
record ``Moving the Line of Scrimmage,'' ask unanimous consent.
    Ms. McSally. Without objection. Absolutely.
    Ms. Jackson Lee. Thank you.
    [The information follows:]
                      Statement From PHP, Arizona
                           September 13, 2016
                    ``moving the line of scrimmage''
This statement is regarding the Border and Maritime Security 
        Subcommittee Hearing on the U.S. Border Patrol's Defense-In-
        Depth Strategy.
    People Helping People in the Border Zone is a community 
organization in Arivaca, Arizona which supports local residents dealing 
with the negative impacts of the Defense-in-Depth strategy.
    Despite the 20 years of increasing militarization in and near our 
community (located 11 miles from the U.S./Mexico border), we know from 
first-hand experience that large numbers of migrants and refugees are 
still not deterred from crossing the border. The Defense-in-Depth 
strategy pushes migrants into grueling and often deadly treks into the 
United States through rural regions, and places local border 
communities under an undue level of military-style policing. The 
Defense-in-Depth strategy has put thousands of Border Patrol Agents in 
our communities, leading to the routine violation of our Constitutional 
and civil rights as they patrol far into the U.S. interior. In our 
small border community, we also witness the human tragedy caused by 
border militarization policies first-hand. All of us have encountered 
and continue to encounter lost, sick, and injured immigrants at our 
doors, and we live weighed down by the knowledge that many more 
uncounted persons have died, and are still dying, in the hills around 
our homes.
    The Defense-in-Depth strategy of interior checkpoints is something 
with which we, as border residents, must grapple every day. Our 
community is surrounded by interior Border Patrol checkpoints. The 
checkpoint we most frequently encounter is located 25 miles north of 
the border. In order to leave our community to go to work, to take our 
children to school, to visit friends, or to run errands outside of our 
small town, we must pass through a checkpoint. At these road blockades, 
armed Federal agents routinely question residents about their 
citizenship status, but also are known to engage in prolonged and 
excessive questioning, warrantless searches, harassment, and, at times, 
outright abuse. Our community has documented how racial profiling of 
local residents at that interior checkpoint is systematic. Through long 
experience, we have come to understand that interior checkpoints are 
not just for immigration enforcement--something they seem to do very 
little of. Instead, they place our small rural community under 
perpetual surveillance and directly contribute to the overall loss of 
Constitutional rights that we experience under the Defense-In-Depth 
strategy.
    The Border Patrol has refused to keep and/or make public (even to 
Government oversight agencies) the kind of data that would demonstrate 
the effectiveness or ineffectiveness of interior checkpoints as an 
immigration enforcement measure. Nonetheless, these southern Arizona 
checkpoints, which were originally billed as ``temporary and 
tactical,'' have been in place for over 9 years, operating 24/7.
    Given the absence of any evidentiary justification for the 
continued use of interior checkpoints, the lack of oversight of agents 
working at them, and the frequency with which our community members 
have endured harassment and abuse at the checkpoints, we in Arivaca 
have been forced to take upon ourselves the task of checkpoint 
monitoring in order to collect data and deter abuse. The Defense-In-
Depth strategy places an undue burden on small border towns to hold 
Border Patrol Agents to basic accountability standards. Without local 
initiatives such as citizen monitoring of checkpoints, the agency 
operates in remote rural communities with virtual impunity.
    While peaceably observing over 2,300 vehicle stops in 2014 at the 
Arivaca Road checkpoint near Amado, Arizona, monitors never once 
witnessed the apprehension of an undocumented person. Neither did they 
ever observe Border Patrol Agents interdicting drugs or contraband from 
any vehicle on Arivaca Road.
    These findings made clear to many in our community that the 
placement of interior checkpoints so far from the border does not 
significantly increase apprehensions of those crossing into the United 
States, but only serves to increase the length and difficulty of their 
journeys as they seek to circumvent the interior checkpoint system.
    During our monitoring efforts we also discovered that racial 
profiling is acute at these interior checkpoints. We found that Latino 
drivers are 26 times more likely to be prompted to show ID than white 
motorists. While comprising a small minority of motorists--some 11 
percent of traffic through the checkpoint--Latinos are 20 times more 
likely to be pulled into secondary inspection by Border Patrol Agents. 
This shocking evidence of racial profiling is undeniable.
    Defense-In-Depth border strategy needlessly targets borderlands 
residents through general policing operations which reach far beyond 
the jurisdiction of a Federal immigration enforcement agency. Because 
these policies are on-going in our rural community, we continue to 
monitor local Border Patrol checkpoints to deter abuse and collect 
data.
    In addition to leading to migrant deaths and racial profiling, we 
have seen the Defense-In-Depth strategy deteriorate the quality of life 
in Arivaca. The presence of checkpoints on all major roads in and out 
of our town makes the area appearing policed and dangerous to the 
public. As a consequence, we have seen property values plummet and 
local businesses close their doors.
    We have watched our children become accustomed to encountering 
armed Agents as they travel to school each day. Under Defense-In-Depth 
policing, Border Patrol helicopters now swarm low over our properties 
and drones watch us from high in the skies. Thousands of motion sensors 
have been buried in the lands around our homes and surveillance towers 
are perched nearby. Our Constitutional rights now take a back seat to 
vague claims of ``National security'' necessity. A supposedly temporary 
infringement of citizen rights has become permanent. All told, life in 
our rural community has been radically altered by Government policies 
which treat our communities as war zones.
    To many of us who have experienced first-hand 20 years of 
borderland militarization, it is clear that strategies such as 
``Defense-In-Depth,'' ``Prevention Through Deterrence,'' and 
``Consequence Delivery System'' have only increased the suffering of 
desperate people and exacerbated the difficulties faced by border 
communities. Military-style Federal law enforcement, either at the 
border or ``In-Depth,'' is a deeply ineffectual and harmful response to 
the forces that continue to propel undocumented immigration and the 
illicit movement of drugs and contraband. Decades of close experience 
with these policies have convinced us that militarizing the interior 
borderlands must no longer be used as a substitute for the economic and 
social policy reforms needed to address the root causes of border 
problems.

    Ms. McSally. So, again, I just want to, you know, remind 
ourselves that, even with the conversation that we have had, 
our intent needs to be to find where we can better equip these 
men and women that are out there serving with the guidance, the 
resources, and the training that they need, with, you know, the 
context of the information that we are presenting today. I know 
there have been many conversations at the local level, at the 
liaison meetings, the sector level. We have a new chief of the 
Border Patrol. So this is our opportunity again to take a fresh 
look with new leadership to find that common ground where we 
are good stewards of taxpayers' resources, we are providing the 
resources to the men and women who are serving, who are doing a 
very dangerous job. Right? We are having the right strategy 
that they are going to go out and execute on a daily basis in 
order to keep us safe. So I feel it is important to provide 
that context as we are, you know, moving forward in our 
discussion here.
    I will also say that we have got two bills, two of my 
bills, that passed unanimously in the House related to some of 
the things we are talking about. One of them is the Border 
Security Technology Accountability Act, which simply says let's 
make sure if there is an investment in technology, that it has 
procurement guidelines and oversight and accountability to make 
sure it is not wasting taxpayers' resources. We have seen a lot 
of wasted resources in the past. Passed unanimously in the 
House, being held up in the Senate.
    We have another one that is addressing the full new threat 
assessment of the Southern Border, the situational awareness, 
operational control, just a full fresh threat assessment so 
that we can have, again, a common understanding of what we are 
dealing with as we are addressing, OK, now that we understand 
what we are dealing with, what is the best way to adjust our 
strategy to address the threat? So I look forward to those 
bills passing through the Senate so we can move forward on 
these important issues.
    So I want to follow up with a second round with everybody 
of--again, we don't have Chief Morgan at the table with you. So 
last round, I asked you to be Chief Morgan. Now, you know, we 
have the opportunity to follow up with him, with questions from 
us to him, about the issues related to this current strategy.
    So what questions would you have to Chief Morgan that you 
would like us to ask him related to your testimony and related 
to addressing this defense-in-depth and interior checkpoints 
focus that we have today? Starting with Mr. Brasher.
    Mr. Brasher. Thank you, Congresswoman. You know, I think in 
terms of a question, maybe I would say it is a question and an 
invitation. I recognize--as we said earlier, I know he has got 
a tough job. He has got a whole border. I am focused more on 
Arizona's border right now.
    Ms. McSally. Right.
    Mr. Brasher. But I think he is on the right track by 
getting out in the communities. Frankly, with all respect to he 
and his leadership team, I think it would be wonderful if he 
would come and sit down with people such as ourselves in these 
actual communities and just start a dialog.
    The questions I might come up with right now may be similar 
or totally different to the questions that other people, you 
know, in our communities would bring up. So I know that is 
easier said than done. I know that oftentimes when people in 
leadership travel, it is just not easy. You travel with public 
relations people, et cetera. I applaud----
    Ms. McSally. A bit of a bubble sometimes.
    Mr. Brasher. Yes. I applaud you going out with an agent 
one-on-one and just watching what they experience. But I think 
it is those kinds of experiences, though, that will bring a lot 
of what we are sharing in our testimonies, you know, full 
circle.
    I would encourage him to abandon his uniform for a moment 
and drive through the checkpoints and just observe and just 
watch how the interaction takes place, what happens with the 
dogs, what happens when someone goes over to secondary and 
oftentimes is subjected to what might be referred to as the 
indignity of standing by while your car is torn apart or you 
are questioned more in-depth, of coming down and sitting in a 
coffee shop with real businesspeople who are sharing the 
stories and the anecdotes.
    So I know that is a long-winded answer, perhaps, to a 
simple question, but I think there will be more questions that 
would come from something like that, and I think they would be 
very valuable for him as he forms his strategic plan moving 
forward.
    Ms. McSally. Great. Thanks.
    Ms. Davis.
    Ms. Davis. Well, I have a million questions for him. He 
will have to take a deep breath. I actually invited him myself 
this morning to come down to the Southern Border in Arizona and 
see that it is very different than Texas.
    I think I would ask him, one thing would be, how do you 
plan to make that whole border a cohesive thing? How do you 
make it the U.S. border, not the Tucson sector of the border? I 
am just going to reiterate more cohesiveness there. I just 
think that is really important. I have already forgotten my 
second idea.
    Ms. McSally. That is OK. I mean, we have invited him and we 
will continue to. We know he is just getting his feet on the 
ground, you know, to Arizona. Look, our subcommittee has 
oversight of the entire border, right? So he needs to get out 
to Texas and New Mexico and California and talk to not just the 
dog-and-pony show that often comes with leadership visiting the 
field but actually talking to residents, talking to businesses, 
talking to people, you know, those that are seeing the impacts 
and the agents, to get the unfiltered----
    Ms. Davis. Well, one of the things that concerns me and I 
know concerns Mr. Ramirez is it is not unique to Hispanics. 
Sometimes when you go through the Border Patrol check, you feel 
like you are being interrogated. You know, I have had to open 
my trunk for no reason, you know. I think one of the things he 
has to do is make sure that those agents react and relate to 
the people coming through like they are really human people 
that--you know, assume that we have a right to be there.
    Ms. McSally. Right.
    Ms. Davis. I think it is an interaction between the public 
and the Border Patrol, and you don't want to think of them as 
the enemy; you want to think of them as your friend. So I think 
that is one comment I would have to him.
    Ms. McSally. So some of that is, I think, relationship-
building in the community, and then making sure there is 
continuity of training for practices of what is probable cause 
and how they can do the searches and things, is what I have 
heard.
    Look, I agree. This is America, not the Gaza Strip. Right? 
So to have law-abiding American citizens have to be subjected 
to this often to just go about their daily business, this is 
ideally not where we want to be. Again, we have got to balance 
that with where we are right now and, you know, start moving 
toward, I think, a strategy that addresses all the issues that 
have been here today in a way that is thoughtful and not 
reckless and creating more vulnerabilities. But I think we can 
all agree that the more we can, you know, move the line of 
scrimmage and not have the impacts that have been talked about 
today, I think the better off we are going to be across the 
border. So thank you.
    Dr. Golob.
    Ms. Golob. Yes, Chairman McSally. I would follow up on the 
question that you asked Chief Morgan.
    Ms. McSally. Yes.
    Ms. Golob. What have you done with the recommendations that 
were made in the University of Arizona study? Because I do not 
have a good answer on that. The research team at the university 
put in a tremendous amount----
    Ms. McSally. Amount of effort.
    Ms. Golob [continuing]. Of brainpower and time and hours 
and thoughtfulness and dialog with Border Patrol to make sure 
that we understood their issues. We did not want to impose our 
framework on them. We wanted to use their framework to inform 
our research.
    Ms. McSally. Right.
    Ms. Golob. We provided very specific recommendations.
    I would greatly appreciate a sit-down with Chief Morgan to, 
frankly, discuss, you know, did these recommendations work for 
you?
    Ms. McSally. Right.
    Ms. Golob. If not, why not? You know, is there another way 
we could approach their problem? Is there other restraints that 
you have, as Border Patrol chief, that prevents you from 
implementing some of the recommendations? If so, what other 
measures can we take?
    I firmly believe in action-oriented research and data-
driven research, and would greatly appreciate the opportunity 
to help push these recommendations or other recommendations to 
be useful to Border Patrol and in protecting our Nation.
    Ms. McSally. I agree, Dr. Golob. This goes back to being a 
good steward of the limited resources that we have. If the 
taxpayer has invested in the brain power and the efforts of all 
of you at the University of Arizona, what are we doing with it 
to make sure that it is useful, you know? A partnership of 
follow-up of, you know, what else we could be doing moving 
forward, I think, is extremely important with all the expertise 
that your team has provided. So when we do invite the chief 
there, we will make sure that it includes a visit or meeting to 
your team for sure.
    I think about it--again, I am always framed by my 
experiences in the military. If you are out there doing the job 
as a Border Patrol Agent, you know, you are spending 2 hours 
doing your job and you are spending 8 hours processing 
information. I mean, data is important, but you got to make it 
usable for the Agent so they are not spending 8 hours inputting 
data in a non-user-friendly way or they are fat-fingering it 
into two or three different systems, based on how many reports 
they have to do. That goes back to the morale issue of there is 
nothing worse than an inefficient use of our resources of 
agents that we are asking them to provide more data, but we are 
not giving them the systems. The process is that they provide 
data once and it is usable, let the back end figure out how to 
make it usable so that we can assess it well, as opposed to 
putting it on the front end and making the agents have to do 
more and more cumbersome, bureaucratic processes so that we 
have better data. So that has to be tuned in as we are, you 
know, moving forward addressing improving the data for sure to 
make it usable.
    Mr. Ramirez.
    Mr. Ramirez. Thank you, Chairman. I think my fellow 
panelists touched on something that is fundamental, which is to 
have on-going conversations with folks who live there, who 
experience the situation on a daily basis, and who actually 
have solutions. We are not part of the problem here; we are 
part of the solution. The problem has been, when the 
bureaucracy fails to understand and pick up the recommendations 
that for several years we have been putting on the table before 
CBP and the Department of Homeland Security.
    But I will point on one important issue, Chairman, which is 
the issue of retention, you know, of Border Patrol Agents. As I 
said, I grew up on the Southern Border. A lot of my classmates 
from high school and college are Border Patrol Agents. They 
understand what the border is about. They understand the 
binational character of our communities and that we go back and 
forth. But a lot of those--a lot of my good friends don't stay 
as Border Patrol Agents because of the morale issues.
    If we don't have folks being recruited from the communities 
that these agents were sworn to protect, it is very difficult 
to understand really the historic legacy that borderlands have 
had. There is the issue of recruitment, particularly 
recruitment of women. We have to look into why are we not 
recruiting enough women for Border Patrol. I believe only 5 
percent of the force are only women.
    If we look at how do we train our agents better, how do we 
recruit agents from communities, how do we recruit women, I 
think that then we will develop a much better relationship with 
folks. I will guarantee you that, you know, if somebody 
staffing a checkpoint, a Border Patrol you know, say, hey, I 
know who you are, you know, you are my neighbor, you are my 
friend, we go to the same church, our kids, you know, are on 
the same, you know, baseball league, it will be a different 
relationship.
    I think it is about toning down the way that Border Patrol 
carries itself in our communities and ensuring that we have a 
much better relationship. That has to begin at the top, because 
the folks on the ground want to do that. Unfortunately, the 
good folks who want to work for Border Patrol aren't being 
retained by the agency.
    Ms. McSally. Great. Thank you.
    All right. Well, this was a robust discussion. I really 
appreciate the time and the effort of all the panelists to come 
out today to testify before the subcommittee. We will continue 
to be addressing and highlighting the issues and the challenges 
related to defense-in-depth, as Chief Morgan gets his feet on 
the ground, to follow up with him and to work together to find 
ways that we can make sure that we are securing our border 
well, to keep our country and communities safe, while taking 
into account all the impacts that have been shared today by 
those that are representing parts of the communities that are 
being impacted by this current strategy. So I really appreciate 
all of your perspectives and the time and effort you took to 
testify today.
    Let's see. A little bureaucracy here. The Members of the 
committee may have some additional questions for the witnesses, 
so we would ask that you please respond in writing when we send 
those to you. Pursuant to committee rule VII(e), the hearing 
record will be held open for 10 days.
    Without objection, the committee now stands adjourned.
    [Whereupon, at 12:31 p.m., the subcommittee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
